<html>
<title> - THE LEGACIES OF THE HOLOCAUST</title>
<body><pre>[Senate Hearing 106-551]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-551
 
                      THE LEGACIES OF THE HOLOCAUST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              APRIL 5, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                    U.S. GOVERNMENT PRINTING OFFICE
64-742 CC                   WASHINGTON : 2000




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Association of Insurers of The Netherlands, statement of.........   113
Bronfman, Edgar M., chairman, Presidential Advisory Commission on 
  Holocaust Assets in the United States; accompanied by Kenneth 
  L. Klothen, executive director, Presidential Advisory 
  Commission on Holocaust Assets in the United States............    49
    Prepared statement...........................................    53
Eizenstat, Hon. Stuart E., Deputy Secretary of the Treasury......    13
    Prepared statement...........................................    19
    National Gallery of Art--World War II Provenance Research....    29
    Restitution of Communal and Private Property in Eastern and 
      Central Europe.............................................    31
    Report of the AAMD Task Force on the Spoliation of Art During 
      the Nazi/World War II Era (1933-1945)--June 4, 1998........    38
    Statement by the Federal Government the Laender (Federal 
      States) and the National Association of Local Authorities 
      of the Tracing and Return of Nazi-confiscated Art, 
      Especially From Jewish Property............................    40
    Declaration of the Stockholm Forum on the Holocaust..........    41
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................     2
Harris, David A., executive director, American Jewish Committee..    60
    Prepared statement...........................................    65
    Appendix A--Election results for far-right wing parties in 
      Europe.....................................................    77
    Appendix B-1--Election results for Austria's Freedom Party...    78
    Appendix B-2--Quotes from Jorg Haider and Freedom Party 
      Associates.................................................    79
    Appendix C--Europeans who, according to American Jewish 
      Committee surveys, agree with the statement: ``Jews are 
      exploiting the memory of the Nazi extermination for their 
      own purposes.''............................................    80
    Appendix D--Anti-Semitism in Europe Today--A Declaration of 
      Concern and Intent.........................................    81
    Appendix E--Cartoon in a official Egyptian newspaper.........    84
    Appendix F--Cartoon in a Qatari newspaper....................    85
    Appendix G--Cartoon from an official Palestinian Authority 
      newspaper..................................................    86
    Appendix H--1995 Lebanese edition of Mein Kampf, today a 
      bestseller in Palestinian Authority-controlled areas.......    87
Levin, Mark B., executive director, NCSJ: Advocates on Behalf of 
  Jews in Russia, Ukraine, the Baltic States and Eurasia.........    88
    Prepared statement...........................................    91
    The Jewish Confederation of Ukraine--The Institute for Jewish 
      Studies: The Review of the Anti-Semitic Publications and 
      Manifestations in Ukraine..................................    99
Singer, Rabbi Israel, secretary general, World Jewish Congress...   108
    Prepared statement...........................................   112
Smith, Hon. Gordon H., U.S. Senator from Oregon, correspondence 
  from Departments of Justice and State concerning requested 
  assistance for Diane Hewitt Whittier...........................    44
Whittier, Diane Hewitt, Salem, Oregon, letter to David Bradley, 
  Chief Counsel, Foreign Claims Settlement Commission............    44
Wiesel, Elie, professor, Boston University, Nobel Peace Laureate.     2

                                 (iii)




                     THE LEGACIES OF THE HOLOCAUST

                              ----------                              


                         TUESDAY, APRIL 5, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith presiding.
    Present: Senators Smith, Biden, Sarbanes, Feingold, 
Wellstone, and Boxer.
    Senator Smith. Good afternoon, ladies and gentlemen. We 
welcome you to this hearing of the Senate Foreign Relations 
Committee.
    I expect that a number of my colleagues will join me 
shortly. We are debating the budget on the floor today, and so 
a lot of them are in action down there, but I know have plans 
to be here as well.
    I would first like to note for the record the assistance of 
the NCSJ Advocates on Behalf of Jews in Russia, Ukraine, the 
Baltic States and Eurasia in helping with several aspects of 
the preparation of this hearing.
    I believe this is a historic hearing and that it is going 
to tie together many components of the whole issue relating to 
anti-Semitism. I am truly honored to welcome a guest of this 
committee today, a Nobel Peace Prize recipient, who really 
needs no introduction. He is Professor Elie Wiesel.
    I sought to hold this hearing to bring together disparate 
Holocaust-related issues that have an impact on our relations 
with foreign nations. I also sought to include an update on the 
state of anti-Semitism abroad. I consider the issue in many 
ways to be a legacy of the Holocaust.
    I asked Professor Wiesel to speak to us today, but not just 
as a witness on reparation or restitution issues, though he 
will discuss those.
    I asked him not as a witness on anti-Semitism abroad, 
though we will likely hear testimony on that issue as well. I 
asked him to speak to us so that the committee could benefit 
from the Professor's thoughts on remembrance of the Holocaust 
and his advice, and I quote, ``that guides us in an age when 
violence, repression and racism continue to characterize the 
world.''
    I welcome him here before the U.S. Senate as a moral 
conscience for peace, atonement and human dignity in our world 
today.
    I could think of no better way to begin a hearing that had 
to do with so many wide-ranging issues with respect to the 
Jewish people than to ask Professor Wiesel to speak to us as a 
way of setting the stage for other issues that we will take up 
as well.
    Professor Wiesel, you once said that one person of 
integrity can make a difference, a difference between life and 
death. I believe you were speaking about humanitarians, such as 
Wallenburg or Schweitzer.
    I welcome your call for humanitarianism and your call for 
faith. Much of what we will discuss later in this hearing would 
not be an issue had there been more Wallenburgs in the past or 
more Schweitzers today.
    We welcome you, sir, and we thank you for your time. We 
respect your moral force in the world today, and we invite your 
testimony now.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    Thank you, Mr. Chairman. Dr. Wiesel, it is truly an honor to 
welcome you before our committee today.
    The issue of Holocaust-era assets is a very sensitive one, and I 
commend the Chairman for convening this hearing.
    I share the concern of Dr. Wiesel and others that the international 
community, in our effort at long last to recover and return these 
assets, may lose sight of the 6 million people who died and the 
experiences of those survivors whose lives have been irrevocably 
scarred by the treatment they were forced to endure and the haunting 
memories with which they are forced to live.
    No amount of money can bring back those that were lost, and no 
cache of stolen goods can erase the indescribable horrors that are 
seared into the memories of the survivors of this dark chapter in human 
history.
    I welcome the insights of our witnesses on this important issue, 
and on the disturbing incidents of anti-Semitism that persist around 
the world.
    Thank you, Mr. Chairman.

 STATEMENT OF PROFESSOR ELIE WIESEL, BOSTON UNIVERSITY, NOBEL 
                         PEACE LAUREATE

    Dr. Wiesel. Chairman Smith, friends, please allow me to 
thank you for inviting me to address you today on an issue that 
remains burning in our individual and collective consciousness, 
the legacy of hatred.
    This issue is in a way one of the most urgent and 
compelling topics that one must explore, lest society is caught 
again unprepared for its nefarious and devastating 
consequences.
    I hope, Senator Smith, you will not mind if I choose not to 
speak about the financial aspect of that legacy. Others will do 
that. And some will do so with the energy and devotion that 
characterize their relentless efforts to return stolen 
property, private homes, communal centers, bank accounts, art 
collections, all that they had, to the rightful owners and 
heirs.
    Important as it may be and is, that aspect does not belong 
to my area of competence. But then I also believe that money is 
not what the Holocaust was all about. It is part of it, but it 
is not at the heart of it. There is not enough money in 
Germany, Switzerland and Stockholm or even the United States 
that could compensate for the death of one Jewish child.
    It is of this child, actually, that I would speak here this 
afternoon. Senator Smith, I belong to a traumatized generation 
that has witnessed the defeat of Naziism and Communism, but not 
that of hatred. That is why we are here today at your 
invitation, at your initiative, to unmask hatred and fight it 
together.
    In truth, I may sound naive, but as another lesson at the 
end of the Second World War, like some of my peers, I thought 
that our victory was not only military but also moral, surely, 
but even metaphysical. In defeating evil in the name of 
humanity, I thought we have eradicated hatred from the human 
heart. Hatred has a past, but no future, I thought.
    Paradoxically, on the ruins of civilization bearing witness 
to what hatred had done to my people and to what hatred had 
done to so many nations and groups and communities, I invoked 
reasons for hope. I whispered to myself: At least and at last, 
racism will never again raise its ugly head, nor will political 
or religious fanaticism.
    I thought surely humankind has learned some lessons from 
the greatest and the cruelest tragedy in recorded history. 
Never again will small nations be exposed to fear of being 
invaded and dominated by mighty neighbors. Never again will 
dictators and demagogues hypnotize their crowds with cheap 
slogans and promises. Never again will children die of 
starvation and neglect.
    After Auschwitz, I thought anti-Semitism will never again 
be a seductive image in the life of national or spiritual 
communities. Had I considered then the possibility that hatred 
would re-emerge so soon, I would not have believed it. I told 
you, I was naive.
    So now I know, now you know, Senator Smith and friends, we 
all know, anti-Semitism and various hatreds did not die in 
Auschwitz. Jews perished there, not anti-Semitism. Hatred is 
still alive and well.
    But then what is hatred? How does one produce hatred? One 
takes A plus B and that is enough to obtain hatred. Once there, 
once hatred is there, against whom is it most easily directed? 
To ``the other''? Why do we hate ``the other''? Is it because 
``the other'' resembles us or because he does not?
    In other words, do we agree with some psychologists who 
claim that ultimately all hatred must be self-hatred? We start 
hating a group and then another group and more groups. And 
finally, we hate ourselves.
    Students of human behavior maintain that when language 
fails, it is replaced by violence. Violence is the language of 
those who can no longer express themselves with words. Thus 
violence becomes the only language of hatred.
    A victim of hatred, the man who feels honored in addressing 
you today, has devoted most of his entire adulthood in fighting 
its presence, wherever it emerges. He wrote essays about it, 
voiced his fear and outrage whenever it appeared victorious or 
active.
    He organized numerous international conferences and 
meetings and encounters and colloquy with the participation of 
statesmen, scientists, writers, teachers, sociologists, 
theologians and psychologists. He tried to find ways to stop 
hatred from becoming respectable or even acceptable.
    So what is hatred? This is what we found not as an answer 
but as a guiding principle. A product of fanaticism, hatred is 
almost by definition irrational, impulsive. These dark forces 
appeal to what is ugly and destructive in the human being. Its 
pace can be surreptitious and abrupt, its goal always 
threatening, its movement implacable.
    Hatred may be dormant, but never static. It unavoidably 
turns into a cancerous cell that invades a limb, then another, 
then the entire body, then the environment. Its aim is to 
conquer in order to destroy. Its principal target is human 
dignity and freedom.
    An ancient, if not eternal, plague routed in somber and 
fathomless ground, hate ignores frontiers and walls, ethnic and 
social differences, racial origins and religious beliefs.
    A human disease, it cannot be stopped even by God himself. 
Man alone can prevent it for man alone can produce it. Man 
alone can limit its progression. Hence, no group may consider 
itself immune against its poison. No community is shielded from 
its arrows.
    Blind and blinding, hatred is a dark sun which, under 
heavens laden with ashes, fights and maims and humiliates 
anyone who forgets that all human beings, irrespective of their 
origin, color or faith, are sovereign, and thus are bearers of 
promise and worthy of respect.
    The enemy--I mean the adversary of society, the enemy of 
humanity, and not only the enemy of my people, for the enemy of 
my people is the enemy of all people, the enemy uses evil and 
hatred as his weapons, which means hatred is the enemy as is 
evil, for hatred itself is the face of evil.
    Pernicious, surreptitious, hatred infiltrates itself in all 
human endeavors so as to disrupt relations between man and 
woman, teacher and disciple, leader and followers, child and 
parent, Jewish and Christian and Muslim, human beings and their 
Creator.
    To hate is to deny the other person's humanity. It is to 
see in ``the other'' a reason to inspire not pride, but 
disdain, not solidarity, but exclusion. It is to choose 
simplistic phraseology instead of ideas. It is to allow its 
carrier to feel stronger than ``the other,'' and thus superior 
to ``the other.''
    The hater is like the fanatic devoid of a sense of humor. 
He is vain, arrogant. He believes that he alone possesses the 
key to truth and justice. He alone has God's ear.
    In his word and in his world, ``the other'' must be jailed 
and tormented; jailed, if not physically, then mentally, for he 
alone, the hater alone, feels that he deserves happiness and 
peace. And in order to feel free, he must deprive all others of 
their freedom.
    He refuses to understand that in a democracy, in God's 
creation, I am not free because others are not; I am free 
because others are. And therefore, as long as there are people 
who are deprived of their freedom, my freedom is curtailed and 
limited and sometimes unworthy.
    Mr. Chairman, distinguished Senators, it is with sadness 
and frustration that we must face reality. Fanaticism has not 
vanished from our horizons, nor has hatred.
    Ethnic hatred in Kosovo and Rwanda, nationalist hatred in 
Chechnya, political hatred in the Middle East, a variety of 
other hatred spread and nurtured by small, marginal groups even 
in our own land, which is still the freest under the sun, we 
still have in our midist racists, supremacists, those who 
believe that their race give them all the rights in the world 
to humiliate others who are not of their color or of their 
religion. We have them in our nation, in our land, in our 
country.
    Elsewhere, anti-Semitism is still in what used to be the 
Soviet Union, today Russia, and so many of the republics that 
constituted the Soviet Union.
    There is even one country which was my birthplace, Rumania. 
I was born in Rumania, which then became Hungary. And in those 
times, these countries changed names and anthems almost 
overnight. Rumania is the only European country which continues 
officially to honor the memory of a World War II leader and war 
criminal condemned for the mass murder of the Jews, Ion 
Antonescu.
    Rumania's ruler during World War II was one of the allies 
of Nazi Germany, who made his country a member of the Axis and 
who declared war on the United States. Rumania was the main 
ally of Germany on the eastern front.
    Antonescu's troops participated in the mobile killing 
operations. He initiated pogroms against the Jews, massive 
massacres, and full-scale deportations of the Rumanian Jews 
from Bessarabia and Bukovina. And today he is still glorified 
in Rumania.
    What it means is an absence of memory, an absence of 
justice, and an act that shows that those who made these 
decisions to erect statues to Antonescu, name streets for him, 
have forgotten what he meant, what he was.
    But the worst haters, Chairman Smith and distinguished 
Senators, the worst haters are now ideological. They are those 
who spent time, energy and money to deny the Holocaust. Their 
message appeals to all the racists, all the bigots, all the 
fanatics in the world.
    It is at the heart of all the propaganda spread by Nazis 
and neo-Nazis everywhere. And they are everywhere. I do not 
know who finances them, but they are active and vocal, and we 
find them everywhere.
    In doing what they are doing, they incite hatred in 
uninformed men and women, hatred to us Holocaust survivors. For 
if we lied about the murder of our parents, the gassing of 
children, the death convoys to Auschwitz, Maidanek, if we 
invented our suffering, as they say, for money, why should we 
not be despised? They want us to be despised.
    These deniers have tried for decades to provoke me, as so 
many others, and failed. They are so unethical, so morally ill, 
just as there are people who are mentally ill, that I would 
never dignify them with a debate.
    Still, distinguished Senators and friends, think of our 
children. What about their suffering, when they read what the 
deniers say about their parents and grandparents? Should there 
be a way of checking when and where their words cross the line 
of free speech, which to us is so important that we are ready 
to fight for it with every argument at our disposal?
    But when it becomes an incitement of hate and violence, 
what are we to do? What can you do, as the lawmakers of this 
land? Is there anything else that could be done to denounce the 
moral ugliness of these deniers?
    But in this particular case, I speak as an educator, as a 
teacher. As far as they are concerned, education is regrettably 
not the answer. They are probably the only human beings in the 
world on whom even the best educational methods would have no 
effect. What then is the answer?
    The conclusion, since you invited me to speak about the 
general context of the issue which is before you, and since you 
wish--you so wish to learn what evil hatred can do, listen to 
what evil hatred has already done not so long ago.
    Just close your eyes and try to imagine endless nocturnal 
processions converging to a place over there in Poland, where, 
as a result of government-planned hatred, heaven and the human 
heart were on fire.
    Close your eyes and listen, listen to frightened victims of 
manhunts in ghettos, the silent screams of terrified mothers, 
listen to the tears of starving children and their desperate 
parents, friends, teachers in agony, as they walk to where dark 
flames are so gigantic that the planet itself seemed in danger.
    They had been brought there from the farthest corners of 
exile, not understanding the meaning of what is happening there 
and why. One element of that agony, we know its name, hatred.
    Think of them today, distinguished Senators, remember them 
tomorrow. Think of their legacy. Just as the legacy of hatred 
must disappear, the legacy of its victims must remain. And 
thanks to you, who so nobly, fervently help us remember, it 
will remain.
    Thank you.
    Senator Smith. Professor, speaking as one U.S. Senator, I 
want to thank you for taking out of the tragedy of your early 
life the majesty of your later life. Yours is a moral voice the 
world needs to hear.
    In my capacity as chairman of this committee, I went to 
Poland about a year ago. All my business was in Warsaw. But I 
made them take me to Krakow, because I wanted to go to 
Auschwitz-Berkenau to try and get some sense of what I learned 
of as a boy, so I could understand it as a man.
    I went to cell block ten. I was deeply moved by that 
horrible place. I later on the same trip found myself in 
Vilnius, Lithuania. I went into the basement of the KGB 
headquarters. And I found a place almost identical in 
appearance, in smell, in instruments of torture. And I realized 
one was a half century ago; the other was a decade ago.
    And I see today in our country a black man dragged to 
death, a gay man beaten to death. I see a madman in Serbia 
exterminating people. And I wonder if we are doing enough in 
our country.
    Before I turn it over to Joe Biden, I want to tell you how 
deeply moved I was when I had occasion at the height of the 
Kosovo war to go to Macedonia. And there were 50,000 people 
herding in a camp, a refugee camp. They were happy because they 
had been rescued. But as we approached this camp, I flinched a 
little with memories of things I had felt earlier in Poland.
    But I wish the whole world could have seen the flag that 
was flying over this camp of Albanian-Muslims. It was the flag 
of Israel. And in that camp were Israelis trying to provide 
recreation from the tedium of being in a camp.
    And I wish the whole world could have seen the opposite of 
what you were describing of hatred, which is love, which is 
being demonstrated by the Jewish people to Muslim people.
    So I thank you for your moral voice. I believe the world 
still needs to hear it. And the evidence of that is the 
response we got from this hearing.
    I frankly was amazed at the levels of opposition and the 
times I heard of Holocaust fatigue. And maybe there is 
Holocaust fatigue, but if we ever let that silence voices like 
yours, we will repeat it. And I wonder if we are not doing 
enough already to stop it. Senator Biden.
    Senator Biden. Mr. Chairman, I am going to--Dr. Wiesel, it 
is an honor to have you here.
    I am going to say something that is going to sound somewhat 
outrageous. Quite frankly, I think, Mr. Chairman, it is even 
more important that your voice be heard than Dr. Wiesel's voice 
be heard. The world knows him. The world knows all that he has 
done.
    But you are, as we say, one of those righteous Christians 
who, in fact, when you speak, when you express what you did a 
moment ago, the intensity of your feeling, coming from a State 
that I suspect has a very small Jewish population, coming from 
a tradition that is viewed as conservative, coming from a pre-
billing before you got here that you were one of these guys who 
was a very conservative Christian, when you speak out, I would 
respectfully suggest that people that do not listen to Dr. 
Wiesel will listen to you.
    Senator Smith. Thank you.
    Senator Biden. I mean that sincerely.
    Justice Holmes, Dr. Wiesel, is credited with having said 
once that ``prejudice is like the pupil of an eye; the more 
light you shine upon it, the more tightly it closes.''
    But I would suggest the more light we shine on the racists 
of the world, the more we force them into darkness, the more we 
make it difficult for decent people who are engaged in benign 
neglect or benign willing ignorance, we force them to face the 
reality of what we still face. And that is virulent, vicious 
racists and anti-Semites that still wander our land and other 
parts of the world.
    I know the depths of your feeling, Mr. Chairman, about 
religious persecution in general, and anti-Semitism in 
particular. And I share, as all of us do here, both your 
revulsion at those manifestations of hatred and, what I think 
is most important, your determination to combat them.
    It is a pleasure to have the people that are here today. In 
another sense, it is sad we have the people that are here 
today, some of the most distinguished voices in America.
    The Holocaust was a defining moral event, as you point out, 
Dr. Wiesel, of the 20th century. And it was the horrific 
logical conclusion to centuries of anti-Semitic hatred that had 
been spawned and relentlessly inculcated into the minds of so 
many Europeans.
    And in that connection, I think it is the importance of the 
moving statement made in Israel--and I happen to be a Roman 
Catholic. I say it was about time, but thank God it came 
ultimately in time, that a Polish Pope set an example of the 
goodwill that we should be discussing and did, not sufficiently 
for all people, but did something I think was very significant. 
And that is acknowledge the culpability by the nonfeasance on 
the part of previous Pope.
    But I do not know how this compensates for one life taken 
or six million for that matter or for an entire culture 
attempted to be exterminated or for the unmanageable suffering 
of the survivors.
    But I think the steps we can take are, at best, 
pathetically inadequate, but, I would suggest, are absolutely 
necessary, if we are not to have it happen again.
    I would suggest there are at least four or five things we 
could do. One is to honor the memory of the martyrs. In order 
to do that, I think we have to unflaggingly and relentlessly 
retell the story, retell the story over and over and over 
again. And I would argue that the further we get from the 
event, the more imperative it is to retell the story.
    I get criticized, as some do, for this Holocaust fatigue. 
But the truth of the matter is that I do not think it can be 
stated enough, not only so it never happens again for Jews in 
the world, but so it does not happen again for other people.
    Did you ever think in your lifetime you would see Europe 
stand by and the world attempt to ignore, and initially even 
Israel attempt to ignore, this thing call ethnic cleansing? Did 
you ever think that that would happen, that that word could 
come out, that phrase could come out of a leader's mouth in 
Europe, and good people around the world and in Europe and here 
conclude that somehow this related to sovereignty; we should 
not be involved because of the sovereignty of another nation, 
Yugoslavia?
    But how many people remain silent? This time it was 
Muslims. This time it was Muslims. So it was not quite as big a 
deal. This time it was Muslims.
    So it seems to me the second thing we have to do is what 
our good friend Stu Eizenstat has been doing incredibly ably, 
and that is--and the rest of you--pushing for restitution and 
financial compensation for survivors, so at least they do not 
have to live out their remaining days in privation.
    It will not do anything, not do anything, except two 
things: Acknowledge the sin, and diminish the prospects that 
those who are in the state of privation do not have to live 
their remaining few years in that state.
    The third thing, it seems to me, Doctor, is we must press 
for an expression of moral restitution from individuals and 
institutions that were complicit in the Holocaust era, 
persecutions, deceptions and robbery.
    And also, it seems to me, the fourth thing we have to do is 
actively combat any manifestation of anti-Semitism wherever it 
appears without any hesitation.
    You and many others, objective scholars, have taken up the 
first challenge by setting the historic record of the Holocaust 
straight.
    Secretary Eizenstat and Mr. Bronfman and others have done 
heroic work in pressing for and giving material restitution for 
Holocaust survivors. And I hope and expect that we will hear 
details about their effort in their testimony.
    And Rabbi Singer, I know, will remind us in his testimony 
of the concomitant imperative of moral restitution.
    And finally, many of us are doing our best to combat anti-
Semitism and xenophobia. In the summer and fall of 1994, when I 
was chairman of this committee, we held a lengthy series of 
hearings on the reappearance of ultranationalism in Europe. The 
hearings at the time received wide publicity in Europe and wide 
criticism and some criticism here.
    Well, I am sad to tell you that the very things we were all 
hearing about have been manifestly made clear that they 
happened. The only good news is that at least for the first 
time, and as both a supporter and a harsh critic of Europe, at 
least for the first time the European Union in this case said 
to Austria, ``We will not deal with you.''
    I heard at a conference I attended on the weekend this all 
happened to a bunch of NATO experts, the Wehrkunde Conference--
and there was this big meeting of the community afterwards in 
that great hall in Munich, coincidentally the same hall other 
interesting things have happened.
    And how many times was I approached on the floor of that 
hall with probably 1,000 people in the hall saying, you know, 
it is Austria's business. It is Austria's business. This is a 
free election. Why--I mean, we are overstepping our bounds, 
referring to themselves as Europeans.
    But unfortunately, in some sense, publicity that is not 
constant seems to require continued enlightenment. And several 
of the right-wing movements discussed in the hearings, as I 
said in 1994, have subsequently increased their power, and one 
has actually gained power.
    So, Doctor, combating persistent anti-Semitism in Russia, 
which has been the occupation of this Senator and the two 
Senators who have left, and many others up here, has been, it 
seems to me, a condition that we can impact on.
    Let me give you a specific example. I was tasked, because I 
am the lead Democrat, meaning I am the senior guy on this 
committee, with carrying the administration's water on certain 
foreign policy initiatives.
    The expansion of NATO, which was, by the way, a bipartisan 
effort at the end of the day, and this Senator played a major 
part in that, as part of that, I went to visit all three of the 
prospective countries at the time seeking membership. And it is 
not whether they are members or not that it is relevant, but 
the point I wish to make is this: Although I had been in these 
countries many times, I went to Poland. And I was asked to 
speak. And Dr. Haltzel with me, we spoke at the Warsaw 
University. It was an honor afforded me.
    And a number of students, a significant number of 
academicians and a lot of press, because I was there speaking 
with their entire leadership about NATO--and I had just 
finished a day of meetings.
    And in the question and answer period from the floor of 
this great university, I was asked by one of the professors: 
``Is there anything''--and I supported the entrance of Poland 
into NATO. ``Is there anything that could stop this from 
happening, Senator?''
    And I answered the question the following way: I said, yes, 
one for certain. If your government demonstrates once again, as 
it has in the recent past 2 years, its insensitivity to the 
Holocaust and to the responsibility this country had relative 
to that, then I tell you you will not become a member of NATO.
    Well, I was absolutely, to use a colloquial expression, 
blown out of the water. Not at that meeting, because everyone 
knew whatever I came back and wrote and suggested to my 
colleagues might have some impact. But literally by the time I 
got back to my hotel room, my hotel room--I was in Warsaw. I 
did this at 6 p.m. So what time was it here?
    But by the time I got back to my hotel room, I was greeted 
by Dr. Haltzel telling me that we had scores of calls from 
Polish-American groups, as well as groups around the country, 
around Europe, Polish-Americans in the United States, asking 
why I was so anti-Polish.
    Well, I will suggest to you that if we continually remind 
this country, continue to remind everyone we come in contact 
with, seeking alliances with us and/or cooperation from us, 
that there are certain minimum, basic, fundamental human 
rights, a threshold upon which we will not cross unless they 
are acknowledged, I suspect that we have the ability not to 
eliminate the hatred, Doctor, but to keep it at bay.
    And so I want to suggest to you that you have more reason 
to know, as the old saying goes in the southern part of my 
State, you all have forgot more about this issue than I am ever 
going to learn. But I believe that words count. I believe they 
matter.
    And I believe that the right words uttered by people in 
positions of responsibility and authority matter, and that when 
they are not uttered, they speak more loudly than the loudest 
shout from any platform in the world.
    And so I, for one, believe that. That is why--and this is 
going to be a leap you will not like--that is why I think we 
must, we must for the sake of every Jew and every other person 
in the world, try those persons in the Balkans, bring them to 
justice, who engaged in the ethnic cleansing. That is why we 
must, we must, knock down those doors and drag those people out 
and send them to The Hague and try them.
    Because if we do not, we allow an entire group of people, 
who in fact enabled this to happen, enabled it, to continue to 
engage in that one human trait we all possess, rationalization 
of their conduct, to rationalize away their failure to act.
    I will end this--and I should have asked you questions, but 
I will end this by saying the following: When my sons and my 
daughter each turned 16, years apart, the first place I took 
them was directly, directly, to the concentration camp just 
outside of Munich. My family, all but for my father, thought 
that was a little harsh. And my friends wondered why the hell I 
would do that.
    And I will never forget what my oldest son, who is now a 
Federal prosecutor, said as we were coming back. We were 
sitting in that little village, that little old castle there, 
having a nice lunch. He looked out, and not very far away was 
an entire village that had been there since World War II.
    He said, ``Daddy, did they know what was happening? Did 
they know what was happening?''
    I said, well, I do not know how they could not have, just 
from the smell, if nothing else. I said, the human mind 
rationalizes beyond anything your young 16-year-old mind can 
comprehend.
    And that is why it is important to keep those gates open, 
people walking through, every generation seeing it. And I 
almost lost my faith when Europe sat on its hands and many of 
us here remained silent when Slobodan Milosevic and Mr. 
Karadzic on the same damn continent engaged in a different 
form, but the same fundamental principle, that took place.
    My dinner table, Dr. Wiesel, is a place where we assembled 
as children to have discussions with our father and 
occasionally eat, rather than eat and occasionally discuss. 
From the time I was a kid, my father--a Roman Catholic--beat 
into our brains the failure of the world, including our country 
and including some Jews in our country, to acknowledge what was 
happening, because he always used to point out, had we acted 5 
years earlier, 4 years earlier, 3 years earlier.
    So I hope the hell you keep talking. And I hope we continue 
to produce guys like this, Senator Smith. I really mean it. I 
really mean it, because his words here speak much louder in 
this Congress than mine do, and almost as loud as yours.
    I thank you for being here. And I apologize for essentially 
the point of personal privilege I have taken to tell you my 
views. But I am an admirer, and I am committed. There is not 
much other reason to have this job.
    Thank you.
    Senator Smith. Thank you very much, Senator Biden. Thank 
you for your remarks.
    Professor, do you have any closing comments and responses 
for us?
    I apologize to Senator Wellstone and Senator Feingold that 
I did not give them a chance to speak. They were here out of 
respect for you as well.
    Dr. Wiesel. Senator Biden, may I answer your non-questions?
    Senator Biden. Please.
    Dr. Wiesel. Those who sat in this very chamber in those 
years, have they spoken up? Why not study the Congressional 
Record of 1939 to 1945?
    Senators who had power, their voice could have been heard. 
Did they speak up? For they knew. Washington knew. The White 
House knew. The Pentagon knew, just like Stockholm and Bern and 
the Vatican. They knew. We were alone. We were terribly alone.
    That is why, Senator Smith, whenever there is a massive 
violation of human rights, of human dignity, of human 
happiness, I try to go there.
    Once I was asked by a journalist, ``What are you doing 
here?'' It was a refugee camp on the Cambodian border. ``There 
are no Jews here.''
    I said, because when we needed somebody to come for us, 
nobody came.
    That is why we must go there. That is why, Senator Biden, 
1993 April 19, when the Holocaust Museum opened, I had the 
honor to speak. At that time, very few people spoke about 
Bosnia.
    Senator Biden. You did.
    Dr. Wiesel. I turned to the President in the middle of my 
speech, and I asked him: Why do we not do what we must do? I 
did go then to Sarajevo. I went. Later I went to the camps, 
Senator, to Macedonia. I was sent by the President then. I saw 
those people. I spent days and days, nights and nights 
listening to them.
    What I found then so horrible was that the men I spoke to, 
all victims, they somehow began telling a story and could not 
finish it, because they broke down in tears. But then I went to 
the children. And the children were playing, because the NGO's 
did do their job. Thank God.
    I also saw that tent that the Israelis built. And I heard 
Muslim children sing Hebrew songs that the Israelis taught 
them. I all of a sudden felt so good. I felt so good that 
things are still possible.
    Both of you mentioned Holocaust fatigue. It hurts. But I 
always thought that whenever humanity is suffering from 
fatigue, from moral fatigue, it is enough to invoke the 
Holocaust to dispel that fatigue.
    In some quarters, we are being attacked and criticized for 
speaking too much about it, so that we have to defend 
ourselves.
    I am so glad that you, Senator Biden, and you, Senator 
Smith, you are here to affirm to the country and the world that 
to write about it, speak about it, to work for it, is an honor. 
It is an honor to be involved in whatever links us to that 
terrible tragedy.
    And all those who will follow me, all the names that you 
mentioned, Eizenstat and Singer and Bronfman and David Harris, 
all those who will follow me, it is an honor for humanity what 
they are doing.
    As for the fatigue itself, since I am a teacher, let me 
tell you a story. It is the kind of story which is sad but at 
the same time encouraging. The story is about a just man who 
decided he must save a certain city because it was doomed by 
the sins of its habitants. So he went to school. He learned 
everything. He knew about political science. And he went--he 
was young and energetic and dynamic.
    He would go from street to street saying, ``Men and women, 
do not be indifferent. Men and women, be sensitive,'' and he 
went on.
    In the beginning, people listened to him, because how many 
just men came to that city? He was alone. Years passed. He was 
very old. Nevertheless he would still go from street to street, 
from place to place, from marketplace to another, shouting, 
shouting.
    One day a child stopped him in the street. ``Poor stranger, 
poor teacher,'' said the child. ``Why are you shouting? Do you 
not see it is useless?''
    He said, ``Yes, I know it is useless.''
    ``Then why are you shouting?''
    ``I will tell you why,'' said the just man. ``In the 
beginning, I was convinced that if I were to shout loud enough, 
I would change them. Now I know I cannot change them. Nobody 
can. But if I go on shouting and shouting,'' as you do and we 
do, ``it is because I do not want them to change me.''
    I thank you.
    Senator Biden. Thank you.
    Senator Smith. Thank you, Doctor. We are not fatigued by 
your words. We are renewed by them. And we thank you for your 
presence here today.
    Ladies and gentlemen, we will now welcome the Honorable 
Stuart E. Eizenstat, Deputy Secretary of the Treasury. 
Secretary Eizenstat has taken the lead for the United States on 
the difficult issues of reparations and restitution. And he is 
testifying today on the progress that is being made.
    I would like to note for the record that both Secretary 
Eizenstat and I serve on the Presidential Commission on the 
Holocaust Assets in the United States, chaired by another 
witness today, Mr. Edgar Bronfman, who will speak to us 
shortly.
    Secretary Eizenstat, we welcome you and invite your 
testimony now.

STATEMENT OF HON. STUART E. EIZENSTAT, DEPUTY SECRETARY OF THE 
                            TREASURY

    Secretary Eizenstat. Thank you, Senator. And thank you very 
much for having this hearing. It has been the efforts of the 
U.S. Congress providing a public forum over the past several 
years, which has been a powerful asset in our work to bring 
justice, however belated, to Holocaust survivors and to other 
victims of World War II.
    My testimony summarizes 5 years of work by our team from 
the State, Justice and Treasury Departments. This has helped 
produce, among other things, a $1.25 billion Swiss bank 
settlement; a $5.1 billion German agreement for those injured 
during the war by German companies; the beginning of the return 
of looted art around the world; 2 massive U.S. Government 
studies on the flow of Nazi gold and the role of neutral 
countries in supporting the German war effort; has spawned the 
creation of historical commissions in 17 countries; led to 3 
international conferences, each with over 40 countries; 
supported the creation of the International Commission for 
Holocaust Era Insurance Claims; stimulated the return of 
confiscated religious and communal property in Central Europe; 
led to the declassification of over 1 million pages of World 
War II documents; developed an international task to promote 
Holocaust education worldwide; and has just commenced new 
negotiations with Austria on slave and forced labor.
    The Holocaust was not only the worst genocide in history, 
but also history's great theft. The Nazis stole gold from the 
treasuries of the nations they occupied and from the victims 
they killed. They looted art, an estimated 600,000 pieces, 
Aryanized Jewish businesses, forced the sale of homes for 
little or no compensation, took communal property, synagogues, 
cultural centers, schools and cemeteries and destroyed them 
and, in addition, forced some 12 million people, mostly non-
Jews to work in their factories and fields under horrible 
conditions and for little or no pay to free German workers to 
serve in the military.
    Over 100,000 Holocaust survivors and tens of thousands of 
other Americans, who were forced laborers, live in the United 
States.
    Our policy on Holocaust issues serves important U.S. 
foreign policy interests, as well as helping individual 
American citizens, including maintaining close relations with 
Germany, a partner in promoting and defending democracy for the 
last 50 years and one vital to our security and economic 
development of Europe. It helps in the removal of impediments 
to greater cooperation in Europe.
    And more broadly, the horrors of the Holocaust provide a 
lesson applicable to contemporary events, including, as Senator 
Biden and yourself indicated, in Kosovo. The bipartisan focus 
on human rights violations from Chechnya to China resonates 
with Holocaust-
related memories.
    I would like to first start by discussing the current 
negotiations over slave and forced labor and other wrongs with 
Germany. This will lead to the establishment of a new entity to 
be created by the Federal Republic of Germany to be called the 
Foundation for Remembrance, Responsibility and the Future.
    And through this foundation initiative, those who worked as 
forced and slave laborers and those who suffered at the hands 
of German companies during the Nazi era can receive recognition 
of their suffering, and dignified payments. The overwhelming 
percentage of those who will be compensated are non-Jewish.
    These negotiations have been going on for more than a year, 
through 11 formal negotiating rounds and innumerable other 
informal sessions, including over the last 2 days.
    Last December, after hard negotiations, the first phase was 
completed. The German companies and government agreed to raise 
their combined contribution to the foundation to 10 billion 
Deutsche marks or a little over $5 billion under current 
exchange rates, half from German companies, half from the 
government.
    And may I say, Mr. Chairman and Senator Biden, we all know 
politics. Chancellor Schroeder contributed $5 billion to this 
effort at a time he was cutting $30 billion from his budget in 
popular social programs. This latest offer, which was accepted 
by all parties, was a substantial increase over the initial 
German proposal when we began the process over a year ago of 
1.5 million Deutsche marks.
    And importantly, the December agreement was accompanied by 
a remarkable statement by German President Rau, in which he 
``begged forgiveness'' on behalf of the German people for the 
brutal treatment of slave and forced labors. And it is our hope 
that his moving statement will be included in each check sent 
out to beneficiaries.
    Two weeks ago in Berlin, after another 3 months of arduous 
negotiations following the previous years, we finally completed 
the second phase, which was agreeing on the allocation.
    This chart \1\ demonstrates the detail and complexity of 
the allocation formula needed to satisfy all the parties, five 
Central European governments, the State of Israel, the Jewish 
Claims Conference, class action lawyers, the German Government 
and German industry.
---------------------------------------------------------------------------
    \1\ The chart and additional material for the record, referred to 
during Secretary Eizenstat's testimony, appear in his prepared 
statement beginning on page 19.
---------------------------------------------------------------------------
    Of the 10 billion Deutsche marks, 8.1 billion plus 50 
million in anticipated interest, will be allocated to pay 
claims of slave and forced labors and others to personal 
injuries, such as medical experimentation.
    One billion Deutsche marks will go to property and 
insurance issues, including claims and a humanitarian fund. 
Seven hundred million Deutsche marks will go to a future fund 
to promote tolerance and advance social programs, taking into 
account also the years of forced labors; and 200 million will 
be used for administration of the foundation and to pay legal 
fees.
    In phase three, the German Cabinet just a week or so ago 
submitted to the Bundestag, draft legislation creating the 
foundation. That legislation is not yet in a form we would 
wish.
    It must embody the elements that are necessary for us to 
accomplish our goal, which is the creation of a comprehensive, 
fair and transparent foundation that will make payments to some 
1 million surviving forced and slave laborers and others who 
were injured during World War II. Of that 240,000 are slave 
laborers, half roughly are Jewish, half are non-Jewish. And 
around 1 million are forced laborers, almost all of whom are 
non-Jewish.
    The most significant remaining issue regarding the 
legislation concerns the scope of the foundation. The 
foundation must be empowered to offer a potential remedy for 
any conceivable claim against German industry arising out of 
the Nazi era.
    It is critical to understand, Mr. Chairman and Senator 
Biden, why the U.S. Government is willing to provide statements 
of interest urging U.S. courts in current and future cases to 
view the German foundation initiative as the exclusive remedy 
for claims for Nazi-era injustices and to indicate that 
dismissal of current and future suits is in the foreign policy 
interests of the United States.
    That is because conventional litigation will be highly 
unsatisfactory. The reasons are as follows: The success of 
litigation is problematic, given the variety of legal defenses 
available. Already, Federal judges have dismissed two of the 
cases.
    In addition, litigation would take years to reach fruition, 
even it if were successful. Survivors average around 80 years 
of age and are passing away at the rate of 1 percent a month. 
Few will be around, if litigation succeeded years hence.
    Third, any litigation would benefit only a very small 
subset of those we will be able to help through this 
initiative. The only survivors, Senator Smith and Senator 
Biden, who could hope to recover in any litigation are the few 
thousand who were employed, and could prove it under strict 
judicial rules, by the few German companies who are subject to 
the jurisdiction of U.S. courts.
    By contrast, this foundation initiative will cover, under 
relaxed standards of proof, some 1 million workers, including 
those who worked for German companies now defunct, German 
companies who are not subject to the jurisdiction of the U.S. 
courts, because they do not do business here, SS companies and 
companies owned by the German Government.
    Indeed, it will even permit five Central European 
reconciliation foundations to pay forced agricultural workers. 
All of these would have no opportunity to obtain any justice in 
the U.S. court system.
    American citizens will be able to process applications 
through organizations in the United States without having to 
travel to Germany. If Congress approves, American citizens who 
receive benefits will be able to exclude them from income under 
a tax provision in the President's 2001 budget.
    No racial, ethnic or religious groups will get any 
favorable treatment. And detailed explanations of who is 
eligible and how to apply will be widely publicized.
    Second, insurance: With the support of the U.S. Government, 
the International Commission on Holocaust Era Insurance Claims, 
ICHEIC, was established and secured by the former Secretary of 
State Larry Eagleburger. It launched a full-scale claims 
process in February.
    And just yesterday, it published 19,000 names of policy 
holders of five European insurers who are part of ICHEIC, which 
will help claimants who had no knowledge that their families 
may have even had such policies, to claim unpaid policies.
    The insurance portion of our foundation, some 300 million 
Deutsche marks in claims, and even more in humanitarian, will 
either directly or indirectly be passed through to ICHEIC, and 
claims will be processed by ICHEIC processes.
    The issue remaining is getting other insurers other than 
the five that have joined to join ICHEIC so that their files 
can be opened and claims can be identified.
    My German counterpart, Count Lamsdorff, has on several 
occasions expressed his confidence that all remaining German 
insurance companies, and only one has so far joined ICHEIC, 
should now be able to join the foundation and follow ICHEIC's 
claims procedures and joint ICHEIC itself.
    We commend the five European insurance companies that have 
joined and strongly encourage all insurers that issued policies 
during the Holocaust era, especially those in Austria who have 
not joined and those in the Netherlands, such as Aegon, to join 
the International Commission and participate fully in its 
program.
    And I am very pleased to say that just this week the 
Insurance Association of the Netherlands has indicated that 
they will recommend that all Dutch insurers join ICHEIC.
    This is the best and most expeditious vehicle for resolving 
insurance claims from this period. And we support giving those 
companies who do join ICHEIC and cooperate with it, safe haven 
from sanctions, subpoenas and hearings in the United States 
relative to the Holocaust period.
    Third, Austria: The entry of the Freedom Party into the 
government has obviously caused great concern. We will look at 
what the government does, as well as what it says. One 
important benchmark is how the new government will deal with 
unresolved Holocaust era issues.
    I am pleased to report progress in the area of forced and 
slave labor compensation based on my first round of 
negotiations around 10 days ago.
    The Austrian program will closely parallel the German 
foundation initiative. There is an ambitious time table in 
which they hope legislation will pass the Austrian Parliament 
by July and the commencement and operation of a new Austrian 
fund by the end of this year.
    And while we are pleased with these commitments on slave 
and forced labor, we have made it clear privately and publicly 
that the Government of Austria must also address outstanding 
restitution issues, businesses, apartments and art.
    We hope that Austrian officials understand our concerns, 
and we hope that their government plans to deal with 
restitution issues soon. And we believe perhaps that they will.
    Art: At a conference in Washington in December 1998, 44 
countries reached consensus on a set of principles designed to 
find some of the 600,000 artworks stolen by the Nazis and their 
collaborators and to return them to their pre-war owners. 
Museums around the world are now beginning to implement these 
principles.
    I am pleased to say that our largest U.S. museums are going 
through their entire inventory seeking to identify works that 
may be looted by the Nazis.
    I just yesterday met with Rusty Powell, the head of the 
National Gallery, and his colleagues, along with a subcommittee 
of Mr. Bronfman's Presidential Commission. And the National 
Gallery has offered an excellent example of thorough research 
in a 3-year project in which they dedicated one full-time 
person. And that has recently been completed.
    The gallery went through over 1,600 paintings. It 
discovered that eight in its collection had in fact been looted 
by the Nazis during the war, but also indicated that each had 
been returned to its rightful owner. And there is a ninth 
painting that has gone through the hands of a dealer known to 
have involved himself in looted art where they are now trying 
to establish ownership.
    Importantly--and I have attached this to my testimony--the 
gallery has made its entire collection available on a website, 
including provenance information. And I am submitting for the 
record an example of the website, including those eight 
paintings and the ninth still undetermined.
    It is not just all large museums, including the 
Metropolitian in New York, who are going through their 
inventories. The North Carolina Museum of Art in Raleigh only a 
month or so ago, following our Washington principles, located 
in one of their major paintings that it was in fact stolen by 
the Nazis. And they are now in the process, without any 
question, even though there may be no legal obligation, to 
return them to the heirs of the Viennese physician to whom that 
painting belonged.
    Similar efforts are going on in the U.K., the Tate Gallery, 
for example. The German Cultural Ministry has just announced 
that Germany will inaugurate a new website to help restore 
Nazi-confiscated art to its rightful owners. The French 
Government has posted 1,000 pieces of art, art that was in the 
Louvre and the Jeu de Paume, that they now believe to be 
looted.
    The Russian Constitutional Court has upheld legislation 
that would permit the restitution of art confiscated by Nazis 
from victims of persecution. But this is a hollow commitment 
unless Russian archives are opened. We have been approached by 
several private groups interested in cooperating with the 
Russians on cataloguing art in Russian depositories.
    And Mr. Bronfman and I are working with a private group to 
try to facilitate the obtaining of money so that that 
cataloguing can occur.
    Senator Biden. Excuse me. Is there reason to believe, if 
you have the money to do that, that the Russian Government will 
cooperate?
    Secretary Eizenstat. Senator Biden, they have signed on to 
the Washington principles. And at the Stockholm conference, 
they reiterated their commitment. I think the best way to test 
them is to say, We have the money. Show us that you are going 
to do the job.
    Senator Biden. Thank you.
    Secretary Eizenstat. Communal property: During the Nazi 
era, the Germans seized a great deal of property in Central and 
Eastern Europe that belonged to religious organizations, 
churches and synagogues, for example. These were converted into 
commercial, social and municipal facilities. And this is not 
only Jewish synagogues. These were Catholic and Greek Orthodox 
churches.
    The successor Communist governments for the most part did 
not restore these properties to their original owners. And when 
the Iron Curtain was lifted a decade ago, the new democratic 
states of Central and Eastern Europe faced a massive task of 
how to deal with this property.
    We have sent to them--and I have gone to a dozen countries 
over 5 years, to urge them to recognize the importance of 
property rights.
    Senator Biden talked about this in terms of NATO. 
Governments have to realize in this region that honoring 
property rights is a prerequisite to participating in the 
international marketplace, to attracting investment abroad, and 
that as Central and Eastern European countries are fully 
integrated into Western institutions, they have to realize the 
importance of sound property restitution.
    Appended to, by written testimony, is a country-by-country 
summary of property restitution progress, and there has been. 
But much, much remains to be done. It is slow, painful and 
difficult.
    Poland merits particular detailed attention because of the 
large amount of potentially restitutable private--private as 
well as communal, property and recent developments.
    In September of last year, the Polish Government submitted 
a piece of legislation to their parliament called 
Reprivatization Legislation. It was nondiscriminatory in the 
sense that it would have allowed former Polish citizens and 
their heirs who live outside of Poland, including in the United 
States, to file property claims and either get their property 
back or at least some percentage of its fair market value.
    However, disturbingly, in December a parliamentary 
committee added restrictive residency requirements, which are 
discriminatory and would bar U.S. citizens from filing such 
claims. The Polish Government officials have assured us at very 
high levels that they favor their original amendment and that 
they are opposed to these amendments.
    Frankly, this is an area where Congress can help. If you 
can deal with your colleagues in the Polish Parliament and 
encourage them to pass the government's law, it would be 
enormously helpful.
    There are also some 18 countries who have commissions 
examining their role during World War II. And this gets to the 
role of archival openness. It is essential, not only in 
assisting in making claims and advancing scholarship, but so 
that every country can honestly confront its behavior during 
these difficult years and draw the lessons needed to advance 
tolerance and social justice. And it is particularly important 
that the Russians open up their archives on Raul Wallenburg.
    As we proceed with addressing Holocaust-related issues, it 
is important to move from money to memory and to teach its 
enduring lessons.
    The Stockholm International Forum on the Holocaust in 
January, organized by Prime Minister Persson of Sweden, took a 
major step forward as delegates from over 40 countries 
committed themselves to promote Holocaust education and 
remembrance, the study of the Holocaust in schools and 
universities, and learning its lessons, as well as opening 
relevant archives.
    Let me close on a very practical note and one, Senator 
Smith, that you are familiar with, given your membership on the 
Advisory Committee on Holocaust Assets. And that is, the 
President has sent to the Congress a supplemental appropriation 
bill asking for $1.4 million in additional funding for the 
Commission.
    If we are to do our work by the end of this year, if we are 
to do the kind of research that you would expect us to do, to 
cross-match the names of Holocaust victims with unclaimed 
property lists and other things, we must have that money. And I 
would ask the Senate to act on it expeditiously.
    Again, thank you very much for giving us this forum and for 
the support you, Senator Biden, and your colleagues have given 
us over the past 5 years.
    Senator Smith. Thank you very much, Secretary Eizenstat.
    [The prepared statement of Secretary Eizenstat follows:]

              Prepared Statement of Hon. Stuart Eizenstat

    Mr. Chairman, Senator Biden:
    I appreciate the opportunity to testify today. The effort of the 
U.S. Congress to provide a public forum for the discussion of 
Holocaust-related matters over the past several years has been a 
powerful asset in our work to bring justice, however belated, to 
Holocaust survivors and other victims of World War II and to bring out 
long-suppressed truths about World War II and Holocaust-era assets.
    You have just heard one of the true witnesses of the Holocaust, 
Elie Weisel. No one can exceed his eloquence and his towering moral 
stature on this subject.
    The Holocaust was not only the worst genocide in history, but also 
perhaps history's greatest theft. In order to operate their war 
machine, the Nazis stole the gold from the treasuries of the nations 
they occupied; took the valuables of the people they killed, including 
gold from their victims' teeth; looted the museums and private art 
collections of Europe of over an estimated 600,000 works of art; and 
forced some twelve million people to work in their factories and 
fields, under terrible conditions and for little or no pay, to free 
German workers to serve in the military. Jewish businesses were 
``Aryanized''--that is seized from their owners and turned over to 
others often with the complicity of German banks. Jews were forced to 
sell their homes for little or no compensation. Their personal property 
was stripped from them before they were sent off to the camps. Their 
communal property--synagogues, cultural centers, schools, and 
cemeteries--was confiscated and most of it destroyed.
    Over the last several years, our government has been trying, in 
cooperation with other governments and many private organizations, to 
bring some measure of justice to surviving victims and their families 
by recovering property that was stolen from them, by enforcing their 
rights under insurance contracts that were abrogated, by compensating 
them for personal injuries sustained and for slave labor and forced 
labor performed under brutal conditions. Over one hundred thousand 
Holocaust survivors, and tens of thousands of other Americans who were 
forced laborers during the war live in the United States. These issues 
have great significance to them. Our policy on Holocaust issues also 
serves important U.S. foreign policy interests, such as maintaining 
close relations with Germany, a partner of ours in promoting and 
defending democracy for the last fifty years and a nation that is vital 
to both the security and economic development of Europe and, with 
Switzerland, a major trading partner. It also helps in the removal of 
impediments to greater cooperation and unity among the nations of that 
continent. More broadly, the horrors of the Holocaust provided a lesson 
applicable to contemporary events. The firm action of the United States 
and NATO in Kosovo were motivated, in part, by an unwillingness to 
repeat the world's indifference to the plight of peoples subjected to 
genocidal persecution. UN judicial tribunals dealing with Rwanda and 
Kosovo build on the precedent of the Nuremberg trials. The bipartisan 
focus on human rights violations, from Chechnya to China, resonates 
with Holocaust-related issues.
                slave and forced labor and other wrongs
    I would like to start with the current negotiations over slave and 
forced labor and other wrongs. The parties to these negotiations 
include the Conference on Jewish Material Claims against Germany, the 
lawyers for the victims, and the Governments of Belarus, the Czech 
Republic, Poland, Russia, Ukraine and the State of Israel. The United 
States Government, represented by myself, and the German government, 
represented by Count Otto Lambsdorff, co-chair the talks. They are 
focused on the establishment and funding of a new entity, to be created 
by the Federal Republic of Germany, to be called the Foundation for 
Remembrance, Responsibility and the Future. Through this Foundation 
Initiative, those who worked as forced and slave laborers and those who 
suffered at the hands of German companies during the Nazi era can 
receive recognition of their suffering and dignified payments.
    These negotiations, which have been ongoing for the last year, 
through eleven formal negotiating rounds and innumerable other informal 
sessions, are proceeding in four phases: (1) agreement on the total 
amount of money available to the Foundation; (2) agreement on the 
allocation of that sum among different categories of claims and, in the 
case of forced and slave labor claims, by country; (3) legislation that 
must be passed by the Bundestag creating the Foundation and confirming 
the agreements made during the negotiation; and (4) an undertaking by 
the United States, to be confirmed in an Executive Agreement between 
our government and the German government, that it will support ``legal 
peace'' for German companies in the following manner: in any actions 
brought against German industry arising out of the Nazi era, our 
government will file in court a Statement of Interest requesting that, 
assuming the establishment of a comprehensive Foundation, the 
Foundation be the exclusive remedy for Nazi-era claims against German 
companies and that dismissal of such cases is in the U.S. foreign 
policy interest.
    Last December, after hard negotiation, the first phase was 
completed. The German companies and government agreed to raise their 
combined contribution to the foundation's capitalization to 10 billion 
DM, half from German companies and half from the German government. 
This amounts to approximately $5 billion under current exchange rates. 
That sum will cover all World War II injuries committed by German 
companies, including slave and forced labor to insurance, banking, 
Aryanized property and medical experiments. This offer was a 
substantial increase over the initial German proposal of 1.5 billion DM 
at the beginning of the process, 6 billion DM in October and a 
subsequent offer of 8 billion DM in November. All the parties to these 
negotiations accepted the 10 billion DM offer as the capped amount for 
the German Foundation and the sum that will resolve the lawsuits.
    Two weeks ago, in Berlin, after another long and arduous 
negotiation, we successfully completed the second phase, an agreement 
on allocation. I would like to spell it out in some detail.
    Of the 10 billion DM, 8.1 billion plus 50 million in anticipated 
interest earnings will be allocated to pay claims to slave and forced 
laborers and to others for personal injuries. One billion will go to 
property claims and insurance claims, as well as property and insurance 
humanitarian funds. 700 million DM will go into a Future Fund the 
purpose of which will be to promote tolerance and advance social 
programs, taking into account the heirs of forced laborers. 200 million 
DM will be used for administration of the Foundation.
    The labor payments will be allocated among the Conference on Jewish 
Material Claims and five Reconciliation Foundations--in Poland, 
Ukraine, Russia, Belarus and the Czech Republic--created around the 
time of German reunification and funded by the German government to 
make payments to Nazi victims. An additional allocation will be made to 
an organization or organizations, yet to be designated, that will cover 
survivors living in the rest of the world, including the United States.
    The Reconciliation Foundations in the five Central European 
countries will handle payments to all their citizens, including Jewish 
slave laborers. The Claims Conference will reach surviving slave 
laborers residing outside these five countries.
    The agreed allocations, including an amount of estimated earned 
interest, are as follows:

        Claims Conference--1.812 billion DM
        Poland--1.812 billion DM
        Ukraine--1.724 billion DM
        Russia--835 million DM
        Belarus--694 million DM
        Czech Republic--423 million DM
        Rest of the World--800 million DM
        Other Personal Injury (e.g. medical experiments)--50 million DM

    The one billion DM for property issues will be divided as follows: 
350 million for claims for which there is clear documentation and 650 
million for humanitarian cases, in which the certitude of the 
documentation has been eroded by the passage of time. The humanitarian 
portion will be further divided between insurance and property. All 
property and humanitarian claims would go to those who must first 
certify their property was looted. The 350 DM for claims for which 
there is clear documentation will be divided even further: 150 million 
for claims where the taking of property was racially motivated, 50 
million for all other property claims and 150 million for insurance 
claims, which will be supplemented by an additional 50 million DM 
generated from earned interest from the Foundation capital. There will 
be an additional reserve of 100 million DM in the Future Fund to cover 
additional insurance claims, creating the potential for 300 million DM 
in insurance claims, if required.
    In phase three, the German cabinet has submitted to the Bundestag 
draft legislation creating the Foundation. The German Foundation will 
be established under German law. We welcome this because the Foundation 
is the vehicle through which the German Government will appropriate 
their five billion DM contribution, and because it will subject the 
Foundation to well established oversight and accountability 
requirements that charitable organizations in Germany must meet.
    On February 16, I had the privilege of testifying before the 
Bundestag Committee on Domestic Affairs concerning the issues we 
believe still need to be resolved in the draft legislation creating the 
Foundation. I was particularly grateful for the opportunity to testify 
before the Bundestag, recognizing just how unusual it is to have a 
foreign government official testify concerning domestic legislation. 
Such an invitation underscores the unique and historic nature of this 
initiative.
    I said in my testimony that the German legislation must embody the 
elements that are necessary for us to accomplish our goal: the creation 
of a comprehensive, fair, and transparent Foundation that will make 
payments to some one million victims of the Nazi era in return for 
assisting the German companies with achieving legal peace in U.S. 
courts. In the testimony and in subsequent meetings, I have reiterated 
that the legislation needs to reflect the compromises and agreements 
that were reached during the many months of negotiations on the 
substantive issues. I have reminded the Germans that if it fails to do 
so, it is unlikely that the plaintiffs' lawyers will in fact agree to 
dismiss their cases or that the U.S. Government can assist in providing 
the breadth of legal peace the German companies desire and deserve.
    I believe the German Government fully recognizes the importance of 
passing legislation that the participants and the United States 
Government can support as faithful to our negotiations, and that it 
recognizes the importance of creating a structure and a process that, 
once enacted, can allow the legal peace German companies seek.
    The most significant remaining issue regarding the legislation 
concerns the scope of the Foundation. The Foundation must be empowered 
to offer a potential remedy for any conceivable claim against German 
industry arising out the Nazi era. Without such universality, we will 
not be able to go before a U.S. court to state that the Foundation 
offers a remedy, that should be regarded by the court as the exclusive 
remedy, for all Nazi era suits against German companies.
    During technical level talks with the German Government and 
companies this week, we had a productive discussion of this and all of 
the remaining issues. I am gratified that the Germans reaffirmed their 
intention to work with us to resolve these outstanding issues on an 
expedited basis. We understand passage of the legislation is expected 
by July, which would allow the Foundation to be up and running and to 
begin making payments by the end of the year.
    It is critical for Congress and the American people to understand 
why the U.S. Government would provide Statements of Interest urging 
U.S. courts to view the German Foundation Initiative as the exclusive 
remedy for claims for Nazi-era claims against German companies and to 
indicate that dismissal of current and future suits is in the foreign 
policy interests of the U.S. Conventional litigation would be a highly 
unsatisfactory solution for elderly slave and forced laborers and 
others injured by German companies during the War. The reasons why the 
German Foundation Initiative is a superior remedy are as follows:
    First, the success of litigation is problematic, given the variety 
of legal defenses available. Already, federal judges have dismissed two 
of the cases.
    Second, litigation would take years to reach fruition, with lengthy 
discovery, motions and appeals. Survivors average around 80 years of 
age and are passing away at a rate of some one percent a month. Thus, 
few survivors would benefit from litigation, even if it were 
successful. Even a classic class action settlement would take years to 
consummate, as the Swiss bank settlement underscores.
    Third, any litigation would benefit only, at best, a small subset 
of surviving slave and forced workers, compared to the number who would 
benefit from the German Foundation Initiative. This is because the only 
survivors who could recover in such litigation are the few thousands 
who were employed--and could prove it under strict judicial rules--by 
the few German companies, less than 20, who were sued because they do 
business in the U.S. and are subject to the jurisdiction of our courts. 
By contrast, the Foundation Initiative will cover, under relaxed 
standards of proof, some one million workers, including those who 
worked for German companies now defunct or not subject to U.S. 
jurisdiction including SS companies and companies owned by the German 
government. Indeed, the German legislation will permit the 
Reconciliation Foundations in Central and Eastern European countries to 
even pay forced agricultural workers, if they wish to do so. For these 
groups of people, the Foundation Initiative represents the only 
possible avenue for obtaining a measure of long-awaited justice.
    There has been a good deal of expectation and confusion over who 
will benefit from the successful conclusion of these negotiations. Let 
me emphasize a few points:

  <bullet> American citizens who qualify will receive the same benefits 
        as anybody else, and their applications will be processed by an 
        organization or organizations in the U.S. Travel to Germany or 
        elsewhere will not be required.
  <bullet> If Congress approves, American citizens will be able to 
        exclude their benefits from income under a tax provision in 
        President Clinton's 2001 Budget that provides a clear statutory 
        exemption for Holocaust-related reparations.
  <bullet> No racial, ethnic or religious group will get favorable 
        treatment. A slave or forced laborer, whether he or she is a 
        Czech, Pole, Jew, Romanian. or another nationality or religion 
        will qualify if they meet the required definitions.
  <bullet> Detailed explanations of exactly who is eligible and how to 
        apply for a benefit will be widely publicized. These important 
        details are still under negotiations. But, please be assured 
        the outreach effort--once a settlement is concluded--will be 
        comprehensive.

    I am hopeful all victims, whether or not they will directly 
benefit, indeed all people of good will, will take real satisfaction in 
the knowledge that at least deserving Holocaust survivors and other 
victims of Nazism will get recognition for their suffering and at least 
some small measure of justice.
                               insurance
    With the encouragement and public support of the U.S. Government, 
the International Commission on Holocaust Era Insurance Claims (ICHEIC) 
was established in October 1998 by the National Association of 
Insurance Commissioners in cooperation with several European insurance 
companies, European regulators, representatives of several Jewish 
organizations, and the State of Israel. Chaired by former Secretary of 
State Lawrence S. Eagleburger, the Commission is charged with 
establishing a just process that will expeditiously address the issue 
of unpaid insurance policies issued to victims of the Holocaust. The 
International Commission launched its full-scale claims and outreach 
program in February of this year. Using relaxed standards of proof in 
dealing with outstanding claims from the Holocaust era, the ICHEIC 
process will ensure the opening of companies' files, the cross-checking 
of names with Yad Vashem's records of Holocaust victims, and further 
research into European archives to find names of potential claimants.
    Secretary Eagleburger and the International Commission have 
supported our efforts in the negotiations to establish the German 
Foundation. Because the intended beneficiaries of the ICHEIC and the 
German Foundation are identical with regard to insurance, and because 
no insurance company should have to pay twice, the International 
Commission became part of this broader effort when Secretary 
Eagleburger agreed to work to link the ICHEIC with the Foundation. 
Secretary Eagleburger's support not only cleared a path for agreement 
on the insurance portion of the German Foundation allocation, but also 
helped set the stage for agreement on other allocation issues.
    The insurance portion of the German Foundation settlement involves 
funds destined for the ICHEIC, both for claims and humanitarian 
purposes, the details of which are as follows:

  <bullet> 200 million DM were allocated for all insurance claims: 150 
        million DM for those arising from the German market and from 
        German companies' policies issued outside the German market. 
        This amount also includes the German contribution to ICHEIC 
        administrative expenses. In addition to this amount, a 
        supplemental amount of 50 million DM (to be drawn from interest 
        earned by the Foundation capital) was allocated to cover claims 
        from the non-German markets of German insurance companies.
  <bullet> 100 million DM will be held in reserve in the German 
        Foundation Future Fund only to be drawn for insurance claims, 
        should they exceed the allocated 200 million DM.
  <bullet> 350 million DM were allocated for humanitarian purposes.

    The German Foundation allocation decisions have not altered the 
internal workings of the ICHEIC. The legislation that will establish 
the Foundation recognizes that ICHEIC procedures will govern the 
processing of all claims against German insurance companies brought to 
the Foundation. ICHEIC should be, in our view, the exclusive remedy for 
these claims. The draft legislation before the Bundestag provides that 
the funds allocated to the Foundation for all insurance claims payments 
will be passed through to the ICHEIC; that these funds will include 
payments for humanitarian insurance purposes and that this money will 
be for the sole benefit of and administered by ICHEIC.
    The issue remaining is whether all German insurance companies will 
join the International Commission. Count Lambsdorff has on several 
occasions expressed his confidence that, with the International 
Commission's approval of this insurance allocation, all German 
insurance companies that issued policies during the Holocaust era will 
join both the Foundation and the ICHEIC and follow ICHEIC's claims 
procedures. He has promised his best efforts to accomplish this goal.
    We commend the five European insurance companies that have joined 
the ICHEIC--Allianz, Axa, Generali, Winterthur, and Zurich. We strongly 
encourage all insurers that issued policies during the Holocaust era--
especially those in Austria, and those in the Netherlands such as 
Aegon--to join the International Commission and participate fully in 
its programs. The ICHEIC is the best and most expeditious vehicle for 
resolving insurance claims from this period, and membership in the 
International Commission provides the only real way of both ensuring 
that valid claims are paid and resolving international moral and 
humanitarian responsibilities for heirless and nationalized claims or 
those against companies no longer in existence.
    U.S. Government support for the International Commission on 
Holocaust Era Insurance Claims includes recognition that the MOU signed 
by the five ICHEIC member companies gives those companies cooperating 
with the Commission ``safe haven'' from sanctions, subpoenas, and 
hearings relative to the Holocaust period. I recently wrote to the 
state insurance commissioners in Washington State and California, 
emphasizing my strong support for the international efforts to create a 
claims settlement process under the International Commission and 
stressing that, in their legitimate concern for Holocaust survivors, 
proposed actions in these states could undermine the work of the 
ICHEIC.
                                austria
    The entry of the far-right Freedom Party into a coalition 
government with one of Austria's mainstream parties, the conservative 
People's Party, has caused great concern both here and in Europe. 
President Clinton and Secretary of State Albright have made clear our 
concerns with past statements of the Freedom Party, which seem to have 
condoned intolerance and attempted to explain away the Holocaust. 
However, in the preamble to the coalition agreement, signed by both 
parties, the new Austrian government has promised to uphold democracy, 
tolerance and human rights and to condemn discrimination. We are 
watching developments in Austria closely to ensure that the government 
lives up to its promises. We will look at what the government does, as 
well as what it says. One important benchmark in this regard is how the 
new government will deal with unresolved Holocaust issues.
    I am pleased to report progress in the area of forced and slave 
labor compensation. In early February, the new government appointed the 
former head of the Austrian central bank, Dr. Maria Schaumayer, as the 
head of a new office to deal with these issues. In an initial 
negotiating round on March 20, Dr. Schaumayer outlined to me her 
government's plans for handling forced and slave labor. The Austrian 
program would closely parallel the German foundation initiative and 
consist of the following elements:

  <bullet> a joint effort between the Austrian government and industry;
  <bullet> coordination with the German effort to assure that the 
        German foundation covers slave laborers in Austrian 
        concentration camps;
  <bullet> coverage by the Austrian fund of Hungarian Jews who were 
        forced into labor outside of the concentration camp system;
  <bullet> compensation levels that would parallel those in the German 
        effort; and
  <bullet> coverage for agricultural labor.

    She also outlined an ambitious timetable that would involve passage 
of legislation by July, if the question of legal peace could be 
resolved by then, and commencement of operation of the fund by the end 
of this year.
    Dr. Schaumayer and I agreed that we would try to have two more 
meetings on forced and slave labor by the middle of May: one in 
Washington at the end of April; and Dr. Schaumayer and I will have 
another round of talks in May in Vienna.
    While we are pleased with these commitments, the government also 
needs to address restitution and compensation issues. There had been a 
restitution effort in the 1950s and 1960s, but it had some gaps, and 
there may have been problems with implementation. Dr. Schaumayer said 
that the Austrian government may take up restitution once forced and 
slave labor compensation efforts are well underway. Our government will 
continue to convey to Austrian officials our hope that there can be an 
acceleration of their efforts on restitution. We hope that Austrian 
officials understand our concerns, and that the government plans to 
deal with restitution issues soon. As I have already noted, we will be 
watching developments in Austria closely to ensure that the government 
lives up to the preamble in the coalition agreement, and one important 
benchmark in this regard is how the new government will deal with 
unresolved Holocaust issues, including restitution.
                         swiss bank settlement
    Swiss banks have agreed to pay $1.25 billion to settle lawsuits 
brought on behalf of victims who sent their funds to Switzerland for 
safekeeping and whose heirs had been refused access to those funds for 
over fifty years, and other victims with a relationship to the banks. 
The Volcker Commission found some 26,000 people who very probably had 
such accounts. The court is in the process of reviewing the fairness of 
the settlement and is trying, with the help of Yad Vashem in Jerusalem, 
to find their heirs so they can recover.
    There has recently been progress after a four-month delay. Judge 
Korman, the presiding judge of this Holocaust victims assets case, had 
postponed his contemplated ruling on the fairness of the settlement to 
await the Swiss Federal Banking Commission decision on implementation 
of the Volcker recommendations of December 6. On March 30, the Swiss 
Federal Banking Commission authorized Swiss banks to publish the 26,000 
accounts that are deemed by the Volcker Committee to have a probability 
of being related to Holocaust victims.
    In addition, the Commission authorized the banks to create a 
central database containing these accounts plus another 20,000 that may 
be related to Holocaust victims. We hope that the banks continue to 
support the Claims Resolution Tribunal, which is necessary to process 
claims relating to the new accounts. We also hope that a database will 
be put in place in line with the recommendations of the Volcker 
Committee. In early December, that Committee recommended to the Swiss 
authorities that the databases and other documentation that were 
assembled on the approximately 4.1 million accounts that existed in 
Swiss banks during the 1933-45 period, now dispersed in over 50 
locations throughout Switzerland, be centralized in one archive. The 
Committee believes this is an essential part of the deposit claims 
resolution process that will consider not only claims to accounts the 
names of which have already been published, but also claims from other 
sources. The Board of Trustees of the Claims Resolution Tribunal, which 
includes members of the Swiss banking community, endorsed this 
recommendation. Judge Korman also said the recommendation should be 
implemented. However, the Swiss Federal Banking Commission stated on 
March 30 that it viewed this recommendation as neither necessary nor 
meaningful. I will confer with Paul Volcker on how the objectives of 
the Committee's recommendations can be achieved and keep this Committee 
informed.
    The stage is now set for other steps that are expected in the near 
future relating to the Court's access to a refugee database and a list 
of German companies whose assets were frozen in Switzerland during the 
War. Once the Court obtains this and other information, such as 
information relating to insurance matters, it will be in a position to 
rule on the fairness of the settlement. Thereafter, the Special Master 
of the Court will be directed to submit his plan of allocation and 
distribution, and the Court will then hold a final hearing on the 
settlement.
                               nazi gold
    Two massive U.S. Government studies were completed in 1997 and 
1998. The first discovered that over $4 billion in gold stolen by the 
Nazis was smelted into gold bars and converted, mostly through the 
Swiss National Bank, into hard currency the Nazis used to buy what they 
needed from neutral countries. Six tons of gold still in the hands of 
the Tripartite Gold Commission was owed to central banks of various 
nations. We found some of this gold had, in fact, been taken from 
Holocaust victims, not just from central banks, and had been smelted 
into disguised gold bars. The second study documented the role of 
neutral countries in supporting the Nazi war effort.
    The December 1997 London Conference on Nazi Gold established the 
Nazi Persecutee Relief Fund to provide assistance to needy survivors of 
Nazi persecution. Seventeen countries have pledged $61 million. 
Congress appropriated $25 million over a three-year period. We 
allocated the first year's tranche of $4 million to the Conference on 
Jewish Material Claims Against Germany to provide support to survivors 
living in Eastern and Central Europe. We are now in the process of 
allocating the second tranche of $10 million. I am suggesting that half 
go for the benefit of former slave and forced laborers, $4.5 million to 
the Claims Conference and $500,000 to several Holocaust education and 
research projects.
                            art restitution
    At a conference in Washington in December 1998, forty-four nations 
reached consensus on a set of principles designed to try to find some 
of the 600,000 artworks stolen by the Nazis and their collaborators and 
return them to their pre-War owners. Some museums are implementing 
those principles, along with their own guidelines, to take the initial 
steps in returning art stolen by the Nazis to its rightful owners. Many 
of our largest museums have been going through their collections, 
seeking to identify works that may have been looted by the Nazis.
    An excellent example of thorough research has been demonstrated by 
the National Gallery in Washington in a three-year project. From its 
inception, the National Gallery has conducted extensive research into 
the provenance of paintings in its collection, with particular 
attention over the past several years to the World War II era. The 
Gallery was in a unique position to accomplish this research because of 
a number of factors. It was able to devote a knowledgeable researcher 
full-time to the project. It has always had all its curatorial files on 
painting and sculpture in its collection physically located in one 
place. It is in the middle of a multi-year project to publish a 
systematic catalogue of its entire collection, which entails intense 
ongoing research on provenance by Gallery curators and outside authors. 
Its entire collection is on a database which includes all known 
provenance information. The Gallery's location in Washington makes it 
relatively accessible to the National Archives in College Park where 
much of the data needed for Holocaust research is located. And the 
Gallery itself is the repository of important relevant records, such as 
the personal papers of people involved in the post-war restitution 
efforts and records from the Munich Central Collecting Point, to which 
stolen art hidden by the Nazis was shipped when uncovered by Allied 
armies.
    In the course of its research, the Gallery discovered that eight 
paintings in its collection had in fact been looted during the War 
Archival research, however, uncovered documentation indicating that 
each of these works had been returned to its rightful owner after the 
War. A ninth painting, Frans Snyders' ``Still Life with Fruit and 
Game,'' was discovered to have gone through the hands of Karl 
Haberstock, a dealer known to have been involved with looted art. 
Despite careful research, the ownership history of this painting has 
not yet been established.
    The National Gallery has made its entire collection available on 
its website, including known provenance information for all paintings 
and sculpture in the collection. It has made World War II provenance 
information easily accessible by providing expedited search 
capabilities, such as the ability to search provenance history by names 
of former owners and dealers associated with Gallery works of art. The 
Galley's curatorial files and its World War II archival resources are 
also available on-site for research. The Gallery welcomes any 
information that would augment or clarify the ownership history of 
objects in its collection. I am submitting for the record an example of 
what is available on the National Gallery's website.
    The effort is not just confined to the largest museums. The North 
Carolina Museum of Art announced recently that one of its paintings, 
``Madonna and Child in a Landscape,'' by the German master Lucas 
Cranach the Elder, had been stolen by the Nazis and is actually owned 
by the heirs of a Viennese physician. In keeping with the Washington 
Principles, the Museum researched the question of provenance, working 
in cooperation with the Holocaust Claims Processing Office of the State 
of New York and the Commission for Art Recovery of the World Jewish 
Congress and is in the process of returning it.
    On the international scene there has been some progress in the area 
of art restitution. The Cultural Committee of the Council of Europe 
prepared model legislation on the return of Jewish cultural property, 
which the Parliamentary Assembly of the Council adopted last November. 
We hope this model will engender new legislation on this subject in 
European national parliaments, similar in scope to the groundbreaking 
restitution law adopted by Austria in 1998.
    The ten national museums and galleries of the United Kingdom are 
engaged in intensive provenance research to discover works that fall 
into the category of looted art. They have published, or are 
publishing, lists of works in their collections, the whereabouts of 
which, following initial research, cannot with certainty be specified 
for the whole period 1933-45, and are appealing to the public for help 
in finding out more information about the provenance of these works. In 
addition, the United Kingdom has established a ``Spoilation Advisory 
Panel'' to hear claims for Nazi-confiscated art.
    Germany's Cultural Minister of State recently announced that 
Germany will inaugurate a website to help restore Nazi-confiscated art 
to its rightful owners. All major German museums were called upon to 
inspect the provenance of the artwork in their possession. Any 
artwork--including coin collections and artifacts--that is found to 
have unclear provenance will be publicized, with pictures, on the 
website. Restitution would not be affected by the German Foundation 
Initiative. This German art initiative follows the lead of the web site 
the French government has operated for many years to display art 
returned to France after the war but never claimed.
    The Lithuanian Government announced at the end of January that, 
under the auspices of the Council of Europe, it was inviting 
representatives of the world community to a forum on cultural 
properties of Holocaust victims to be held in Vilnius in October.
    I would like to include for the record the implementing principles 
adopted by the American Association of Museums entitled, ``Guidelines 
Concerning the Unlawful Appropriations of Objects During the Nazi 
Era.'' I also ask that the Statement by the Federal German Government, 
the Laender (Federal States) and the national associations of local 
authorities on the tracing and return of Nazi-confiscated art, 
especially from Jewish property, be included in the record of this 
hearing.
    In December 1998, at the Washington Conference, the Russian 
Delegation invited Holocaust survivors and their heirs to claim looted 
artwork captured by the Soviet Forces at the end of World War II. The 
Russian Constitutional Court has upheld legislation that would permit 
the restitution of art confiscated by the Nazis from victims of 
persecution. However, this will be a hollow commitment unless Russian 
art archives are opened. The Russian government subscribed to the 
Washington Principles on Art and has indicated a willingness to open 
these archives, but has not as yet done so, at least in part because of 
financial constraints. We have been approached by several groups 
interested in cooperating with the Russians on cataloguing art in 
Russian depositories. We encourage such an initiative and would be 
happy to facilitate such an effort. One idea is to create an NGO to 
make grants that would help establish a reliable database of Nazi 
confiscated art in Russia and assist in the identification of rightful 
owners.
                           communal property
    During the Nazi era, the Germans seized a great deal of property in 
Central and Eastern Europe that belonged to religious organizations--
churches and synagogues. The property was converted into commercial, 
social and municipal facilities. Jewish communal property was a 
particular target, as seizing it advanced the Nazi goal of eliminating 
all traces of Judaism and the Jewish people from the continent.
    The successor communist governments for the most part did not 
restore these properties to their original owners but used them in much 
the same manner that the Nazis did. Thus when the Iron Curtain was 
lifted, the new states of Central and Eastern Europe faced a massive 
task of deciding how to deal with this property, much of which had been 
exploited for non-religious purposes for over a half century.
    Changing property ownership and use after such an extended period 
of time is a difficult and complex undertaking. At the same time, 
governments must realize that honoring property rights is a pre-
requisite to participating in the international marketplace and in 
attracting investment from abroad. While this may be initially 
expensive and politically sensitive, sound property restitution systems 
are clearly in the interest of all the Central and Eastern European 
countries. The nations of Western Europe, as well as the U.S., adhere 
to high standards when it comes to private property rights, including 
restitution. As the Central and Eastern European countries are fully 
integrated into Western institutions, they should realize the 
importance of sound property restitution laws.
    In my discussions with government officials since the mid-1990s, I 
have emphasized a number of principles that seem to me to be important 
in addressing property restitution issues. These principles include:

  <bullet> Equitable, transparent and non-discriminatory procedures to 
        evaluate specific claims.
  <bullet> Access to archival records and use of alternative forms of 
        evidence if primary documents no longer exist.
  <bullet> Implementation of restitution policies at national, regional 
        and municipal levels.
  <bullet> Non-discriminatory procedures, without citizenship or 
        residence requirements.
  <bullet> Clear and simple legal procedures.
  <bullet> Implementation of court decisions on the basis of equality 
        and non-discrimination.
  <bullet> Priority of restitution claims before privatization occurs.
  <bullet> Provisions for the present occupants of restituted property.
  <bullet> Transfer of clear title including the right of resale, not 
        simply the right to use property, which could be revoked at a 
        later time.
  <bullet> Restitution or compensation for communal property 
        irrespective of whether the property had a religious or secular 
        use.
  <bullet> Establishment of foundations, managed jointly by local 
        communities and international groups, to aid in the preparation 
        of claims and to administer restituted property.
  <bullet> Protection of cemeteries and other religious sites.

    Appended to my written testimony is a country-by-country summary of 
property restitution issues. There has been some progress since I 
commenced my activities in this area in 1995, but much remains to be 
done. Romania, for example, still lacks a comprehensive law on the 
restitution of private residential property. The newly independent 
states of the former Soviet Union have dealt with both private and 
communal property in only a cursory manner.
    Poland merits more detailed attention because of the large amount 
of potentially restitutable private and communal property in that 
country and recent developments. In September of last year, the Polish 
government submitted to Parliament private property legislation that 
was non-discriminatory in terms of allowing former Polish citizens and 
their heirs who now live outside of Poland to file property claims. 
However, in December a parliamentary committee added restrictive 
residency requirements which we believe are discriminatory. We have 
raised this issue with senior visiting Polish officials here in 
Washington and our Embassy has raised it in Warsaw. In addition, I 
believe that Congressman Christopher Smith, Chairman of the Commission 
on Security and Cooperation in Europe, sent a letter to the Polish 
Ambassador to the United States, and other Members of Congress have 
considered contacting the Parliament directly. Polish government 
officials have assured us that they strongly favor the draft submitted 
by the government and are opposed to the amendments. They have promised 
to work to restore its original intent before it is reported to the 
floor. Congress' help with the Polish Parliament would be very timely.
    Notwithstanding the forthcoming attitude of the Polish government, 
communal property in Poland poses a special problem as the Holocaust 
and subsequent emigration has reduced the Jewish community in that 
country to approximately one percent of the pre-World War II 
population. The small remaining community has made substantial progress 
in claiming communal property but it was obvious atthe time that 
communal property legislation was passed approximately three years ago 
that the community would not be able to claim, manage and maintain the 
property to which it was entitled without some outside assistance. The 
answer to this problem appeared to be the establishment of a joint 
foundation by the World Jewish Restitution Organization and the Polish 
Jewish communities. Negotiations between the two groups broke down last 
year. To get the two parties back to the negotiating table, I asked 
Ambassador Henry Clarke to serve as a mediator. In four negotiating 
sessions since last fall, Ambassador Clarke has helped the parties to 
find solutions to some of their differences. I am hopeful that the 
foundation can be organized in the near future. It would be tragic if 
further delays prevented the prompt return of communal property in 
Poland.
                         historical commissions
    Eighteen nations currently have commissions examining their role 
during World War II, some of whom abetted the Nazi cause, gave haven to 
war criminals and facilitated the flow of confiscated assets. They are: 
Argentina, Austria, Belgium, Brazil, Croatia, Estonia, France, Italy, 
Latvia, Lithuania, the Netherlands, Norway, Portugal, Spain, Sweden, 
Switzerland, the United Kingdom, and the United States. In addition, 
the Government of Slovakia has agreed to create a commission. Some 
commissions have already made their reports, with varying degrees of 
thoroughness and candor. The most comprehensive thus far have been the 
two reports published by Switzerland, the first on how Swiss banks 
helped the Nazis use stolen gold to finance their war machine; and the 
second on how and why Swiss authorities closed the border to refugees 
attempting to flee Germany. In our own country, a Presidential 
Commission headed by Edgar Bronfman is investigating the circumstances 
under which Nazi money, property and other assets flowed through the 
hands of the U.S. Government during the War and particularly after the 
War.
                                archives
    Archival openness is essential, not only to assist in making claims 
and advancing scholarship, but so that every country can honestly 
confront its behavior during these difficult years and draw the lessons 
needed to advance tolerance and social justice. It is important, for 
example, that the Russians open up their archives on Raul Wallenberg 
and museums in all countries allow scholarly and provenance research 
into their collections.
    At a conference in Stockholm last month, attended by delegates from 
46 nations, a declaration was agreed to calling for opening up archives 
containing information on the Nazi-World War II era. In addition, 
following my request to Count Lambsdorff, he has informed me that many 
of the companies involved in the German slave/forced labor initiative 
have agreed to open their archives from this era to legitimate 
historical research. Some have done so already. We are encouraging the 
broadest participation of German companies in this effort at openness.
    The Vatican has authorized a group of Jewish and Catholic scholars 
to thoroughly review its collection of published documents from the 
Nazi era, with the purpose of raising appropriate issues. The Vatican 
is both a religious seat and a secular state conducting diplomatic 
relations. The questions that have been raised concerning Vatican 
policies during the Nazi era should relate solely to its latter role. 
This scholarly initiative is a small step forward toward archival 
openness, in keeping with Pope John Paul's inspirational leadership in 
bettering Catholic-Jewish relations, most recently exemplified by his 
moving words at the Holocaust Memorial at Yad Vashem and his symbolic 
appearance at the Western Wall during his recent trip to the Holy Land. 
We hope it will lead to additional measures for archival openness.
                       education and remembrance
    As we proceed with addressing Holocaust-related issues, it is 
important to move from money to memory. The last word on the Holocaust 
should be the memory of its victims and the teaching of its enduring 
lessons. I had the distinct honor of leading the U.S. delegation to the 
Stockholm International Forum on the Holocaust in January. The 
Stockholm Forum, appropriately the first major conference of the new 
millennium, was an outstanding success and built upon the previous 
Holocaust conferences held in London and Washington. Twenty heads of 
state and government and delegations from 46 countries attended. Only 
his prior commitment to deliver the State of Union address prevented 
the President from attending.
    Delegates committed their countries to promoting Holocaust 
education and remembrance, encouraging the study of the Holocaust in 
schools and universities, and in taking all necessary steps to open 
relevant archives. As embodied in the ``Stockholm Declaration,'' a copy 
of which I enclose for the record. These commitments, made by national 
political leaders, are unprecedented, and in the words of Holocaust 
survivors with whom I spoke, ``monumental'' and ``historic.'' 
Argentina, Bulgaria, Latvia, and Lithuania requested the nine country 
International Holocaust Education Task Force to begin liaison projects 
on teaching the Holocaust with them, and, along with Ukraine, expressed 
interest in Task Force membership.
    The concept of the Stockholm Forum was the personal initiative of 
Swedish Prime Minister Persson. In addition to the leadership and 
inspiration he gave to the Forum, he also demonstrated exceptional 
political leadership in exploring the historical truth of Sweden's 
wartime neutrality and in remembering the horrible crimes of the 
Holocaust era.
    The work of the International Holocaust Education Task Force 
continues. It is translating the experience and expertise gained in 
teaching the Holocaust in countries that are members of the Task Force 
to other countries, helping them to develop Holocaust education and 
remembrance in their societies. There has been a successful project in 
the Czech Republic aimed at training in the teaching of the Holocaust, 
and similar projects have been requested by other countries.
    To help support such activities, the Task Force last month 
established an endowment fund, to be administered by the Swedish 
Ministry of Foreign Affairs. Our government strongly supports this 
fund, and hopes to be able to announce a contribution in the near 
future.
    In the same Stockholm Declaration of which I spoke, the 
participating nations committed their countries to promoting Holocaust 
education and remembrance, and encouraging the study of the Holocaust 
in their schools and universities.
    presidential commission on holocaust assets in the united states
    Mr. Chairman, my friend and partner in many of these endeavors, 
Edgar M. Bronfman, is testifying here today in his role as Chairman of 
the Presidential Advisory Commission on Holocaust Assets in the United 
States. While I am a member of that Commission, I will defer to him and 
not address the Commission's work today.
    I would like to note to the Committee that on March 28, the 
President sent to the Congress a supplemental appropriations bill that 
included $1.4 million for the Presidential Commission.
    In the course of the Presidential Commission's work, we have 
discovered new areas of inquiry that must be examined. Among the 
projects the supplemental would support are a review of agreements that 
may have existed between the United States and Western European 
countries regarding the restitution of property to individuals; a 
review of bank and travel agent records of assets transferred to the 
United States by Holocaust victims; and the cross-matching of names of 
Holocaust victims with unclaimed property lists.
    Because the Presidential Commission will deliver its final report 
by the end of December, it is extremely important that these authorized 
funds be appropriated as soon as feasible so that the Commission can 
make use of them while it is still conducting its research. We have 
urged other countries to establish historical Commissions to examine 
their own nations' role during that period. We have urged them to be 
complete and transparent in their research. We can do no less.
    The Administration strongly supports this proposal, and I ask the 
members of the Senate to act on it expeditiously.
          nazi war criminal records interagency working group
    The Nazi War Crimes Disclosure Act calls for identification, 
declassification and public access to millions of pages of Nazi war 
criminal records by a deadline of January 2002. The Nazi War Criminal 
Records Interagency Working Group (IWG) oversees the project, which 
includes searching for records, analyzing them, monitoring and auditing 
the declassification process, maintaining a IWG database, preparing and 
describing the records for presentation to the public in usable form, 
and assuring that war-time records in poor physical condition survive 
to be seen by the public. This last includes copying, microfilming, 
digitizing, and conservation treatment of highly acidic, yellowing, and 
crumbling wartime paper. The work the IWG is doing very important work, 
none more important to the public and to the future than assuring that 
the records survive.

Attachments.

      [National Gallery of Art--World War II Provenance Research]

                    World War II Provenance Research

                      provenance research overview
    From its inception, the National Gallery of Art has conducted 
extensive research into the provenance, or history of ownership, of 
paintings in its collection, with particular attention over the past 
several years to the World War II era. In the course of this research 
it was discovered that eight paintings in the collection had in fact 
been looted during the war. Archival research uncovered documentation 
proving that each of these works of art had been returned to its 
rightful owner after the war. A ninth painting, Frans Snyders Still 
Life with Fruit and Game, was discovered to have gone through the hands 
of Karl Haberstock, a dealer known to have been involved with looted 
art. Despite careful research the ownership history of this painting 
has not yet been established. These nine paintings are displayed on 
this page \1\ with links to their ownership history. Wartime histories, 
including extensive archival references, are documented in their 
provenance footnotes. (See information on how to read Gallery 
provenance texts.)
---------------------------------------------------------------------------
    \1\ To view image and complete ownership history access the 
Gallery's Website at http://www.nga.gov/collection/provfeat.htm
---------------------------------------------------------------------------
    Several of these paintings had been confiscated by the Nazi 
Einsatzstab Reichsleiter Rosenberg (ERR) from private French 
collections and stored at the Jeu de Paume in Paris. Captured German 
records, now at the National Archives in College Park, Maryland, have 
been used to trace the confiscation and subsequent dispersal from the 
Jeu de Paume. Most of the Gallery paintings confiscated in this manner 
were discovered in salt mines in southern Germany and Austria by the 
Allies in the last days of the war, and were removed to the Munich 
Central Collecting Point. Records from the Munich Central Collecting 
Point document the restitution of the paintings to their countries of 
origin where pre-war owners or heirs claimed them. Other paintings now 
in the National Gallery were recovered after the war and returned to 
owners in Liechtenstein, Austria, and Holland.
    The National Gallery of Art provides known provenance information 
on this Website for all paintings and sculpture in the collection. This 
research is an ongoing project, and the Gallery welcomes any 
information that would augment or clarify the ownership history of 
objects in its collection.
Related Publications
Captions:

1. Camille Pissarro, Place du Carrousel, Paris, 1900
2. Henri Fantin-Latour, Self-Portrait, 1861
3. Henri Matisse, Pianist and Checker Players, 1924
4. Jean-Baptiste-Camille Corot, Madame Stumpf and Her Daughter, 1872
5. Attributed to Hans Holbein, the Younger Hans Holbein, the Younger, 
        Portrait of  a Young Man, c. 1520/1530. (*See additional 
        information below.)
6. David Teniers II, Peasants Celebrating Twelfth Night, 1635
7. Luca Signorelli, The Marriage of the Virgin, c. 1491
8. Sir Peter Paul Rubens, Tiberius and Agrippina, c. 1614
9. Frans Snyders, Still Life with Fruit and Game, 1615/1620

*Attributed to Hans Holbein, the Younger. Hans Holbein, the Younger 
German, 1497/1498-1543, ``Portrait of a Young Man,'' c. 1520/1530, oil 
on panel, painted surface: .220 x .170 m(8\5/8\ x 6\3/4\ in.), support: 
.232 x .183 m(9\1/8\ x 7\1/4\ in.). Samuel H. Kress Collection 
1961.9.21.
Provenance
    Possibly a member of the de Rothschild family, Vienna, from about 
1850.[1] Baron Louis de Rothschild, Vienna, probably by inheritance, by 
1931;[2] (Rosenberg & Stiebel, New York, put on consignment with M. 
Knoedler & Co., New York, May, 1947; transferred to Knoedler's regular 
stock in June with a portion owned by Rosenberg & Stiebel);[3] 
purchased 1952 by the Samuel H. Kress Foundation, New York; gift 1961 
to NGA.
    [1] Not verified, but likely, stated in Ludwig Baldass, ``Ein 
Fruhwerk Hans Holbeins des Jungeren.'' Kunstchronik und Kunsiliteratur. 
Beilage zur Zeitschrift fur bildende Kunst. 7/8 (1931): 61, and in M. 
Knoedler & Co. invoice of 6 February 1952 in NGA curatorial files.
    [2] This painting was confiscated by the Nazis from the Louis de 
Rothschild collection in Vienna in 1938 and destined for Hitler's 
planned museum in Linz. It is listed on the 20 October 1939 Vorschlag 
sur Verteilung der in Wien beschlagnahmte Gemaelde: Fuer das 
Kunstmuseum in Linz prepared by Hans Posse and also his Verzeichnis der 
fuer Linz in Aussicht genommenen Gemaelde dated 31 July 1940 (OSS 
Consolidated Interrogation Report #4, Linz: Hitler's Museum and 
Library, 15 December 1945, Attachments 72 and 73, National Archives 
RG226/Entry 190B/Box 35, copy NGA curatorial files). The records of the 
Munich Central Collecting Point indicate that the painting was 
recovered by the Allies and restituted to Austria on 25 April 1946 with 
Rothschild as the presumed owner. (Munich property card #2306/7; 
Austrian Receipt for Cultural Property no. IIIa, item no. 29; copies in 
NGA curatorial files.)
    [3] Letter of 10 April 1987 to John Hand from Gerald G. Stiebel, 
Rosenberg & Stiebel, in NGA curatorial files, gives their source for 
the picture as the Vienna Rothshilds; letter of 2 March 1988 to John 
Hand from Nancy C. Little, M. Knoedler & Co., in NGA curatorial files, 
describes the consignment to them from Rosenberg & Stiebel.
Associated Names
  <bullet> Knoedler & Company, M.
  <bullet> Kress Foundation, Samuel H.
  <bullet> Munich Central Collecting Point
  <bullet> Rosenberg & Stiebel Inc.
  <bullet> Rothschild, Louis de, Baron

World War II Provenance Research: Related Publications
Hector Feliciano, The Lost Museum, New York, 1997
Lynn H. Nicholas, The Rape of Europa, New York, 1994
Jonathan Petropoulos, Art as Politics in the Third Reich, University of 
        North Carolina Press, 1996
Jonathan Petropoulos, The Faustian Bargain: The Art World in Nazi 
        Germany, New York, 2000
Elizabeth Simpson, ed. The Spoils of War: World War II and its 
        Aftermath: The Loss, Reappearance and Recovery of Cultural 
        Properly, New York, 1997

    [Supplementary information to testimony by Stuart E. Eizenstat]

  Restitution of Communal and Private Property in Eastern and Central 
                                 Europe

Belarus
    There is no prospect for appropriate legislation in Belarus for the 
restitution of communal or private property.
    What property restitution does occur, consequently, takes place on 
an ad hoc basis through agreements worked out with local government 
authorities, usually--although not always--in exchange for some amount 
of negotiated compensation. Data on property restitution is either 
unavailable or appears to be contradictory.
    No exact data on returned properties is available. According to the 
Union of Religious Jewish Congregations, only six properties have so 
far been returned to the Jewish community. A second Jewish organization 
believes that more property has been returned. Data from Belarusian 
authorities has so far been unavailable.
    Two properties in total have reportedly been returned to the Moslem 
community. One local Moslem leader claimed that his community is 
satisfied with this figure given its current size, and does not expect 
or seek other properties because they were all destroyed during World 
War II.
    The Orthodox Church has reportedly been able to obtain several 
properties, largely because of support from the central government. The 
Catholic Church is currently in possession of approximately 300 
properties, but still has some outstanding property restitution issues.
Bulgaria
    Implementation of existing restitution legislation for both 
communal and private property continues to be slow as applicants must 
submit numerous documents and authorities assigned to decide cases 
often lack sufficient resources to meet deadlines.
    Non-Bulgarian citizens are eligible to receive property confiscated 
during the fascist and communist periods, but if they are not permanent 
residents of Bulgaria they must dispose of (sell) the property. Forest 
and farmland can only be returned to Bulgarian citizens.
    The Rila Hotel, a valuable downtown Sofia property claimed by the 
Jewish community, has been a particularly controversial restitution 
case. The government is also a part owner of the hotel and through a 
series of legal maneuvers has successfully blocked restitution 
proceedings. At the government's request, two hearings in March 2000 
were postponed, following a pattern set in the late 1990's. A proposal 
to privatize the hotel by selling the state-owned company that 
currently manages the property further complicates the issue. The 
government has also declined to vacate portions of a Sofia building 
(Saborna Street) partially restituted to the Jewish community. The 
Embassy is monitoring these cases carefully.
Croatia
    A 1997 law governs restitution of property in Croatia. Croatia's 
constitutional court in April 1999 annulled six provisions of the 
January 1997 law on property taken during Yugoslav communist rule. In 
particular, the ruling eliminates provisions under which restitution or 
compensation for confiscated or nationalized property was reserved 
exclusively for Croatian citizens. The Court indicated that Parliament 
had one year to ensure that the law conformed with the Court's ruling. 
When implemented, this decision will allow U.S. and other non-Croatian 
citizens to file for restitution or compensation for property seized 
during the socialisit period.
    Immediately after taking power in 1945, the communist Yugoslav 
government declared null and void government seizures of property, 
principally Jewish and Serb assets, during the period of the fascist 
regime, 1941-1945. The communists, however, then nationalized many of 
those same properties, especially the larger ones. These properties are 
subject to relief under the 1997 law and the April 1999 Constitutiional 
Court decision.
    The Vatican, on behalf of the Catholic Church in Croatia, signed a 
bilateral agreement with the GOC on October 9, 1998 for the restitution 
of church property. There are no similar agreements between the GOC and 
other religious entities or orders. The Serb Orthodox community has 
received restitution of or compensation for several properties. The 
Croatian Jewish community's experience has been similar to that of the 
Serb orthodox community.
    In June 1998, the GOC enacted a program enabling persons who fled 
the former occupied sectors in Croatia after 1990 (i.e. areas occupied 
by Serbs in the recent conflict and then recovered by Croatia), to 
reclaim their citizenship and property. However, there are no 
mechanisms to implement this program. The return of such properties is 
therefore slow.
Czech Republic
    Widespread skepticism and ambivalence toward the role of the church 
in society continue to impede progress in resolving outstanding claims 
for communal property restitution. After a rocky beginning, the current 
government created two national commissions--a ``political'' and an 
``expert'' commission--to address church-state relations. The 
commissions, which began meeting in March and May 1999, respectively, 
are expected to develop legislation in 2000 on the return of church 
property, primarily income-generating property claimed by the Catholic 
Church. Only two minor, center-right parties in parliament--the 
Christian Democrats and the Freedom Union--consistently support the 
restitution of the claimed property.
    Most Jewish communal property once in the hands of the Czech 
national government and the city of Prague has been returned, amounting 
to about one-third of the 202 properties the Jewish community wants 
restituted. Much of the remaining two-thirds consists of communal 
properties held by other local authorities or turned over to third 
parties. These properties were not covered by the 1994 decree that 
returned property held by the national government. Whether parliament 
has the legislative power under the constitution to require local 
authorities to restitute the property has not been decided. Recent 
press reports indicate that in late January 2000 the Government 
completed draft legislation concerning Jewish properties, but the 
legislation has not yet been submitted to parliament.
    A separate national commission was formed in November 1998 to 
examine property restitution issues arising from the Holocaust, 
including both individual and community real property and other assets 
held by victims of the Nazis before World War II. Restitution in this 
context seems to enjoy greater government support.
    In August 1999, the Czech president signed a law that permits Czech 
Americans who lost their Czech citizenship between February 1948 and 
March 1990 to reapply to become Czech citizens without losing their 
U.S. citizenship. Additional legislation would be required for these 
Americans to obtain restitution of their former property. The 
government maintains that it has already turned most of the property of 
these Americans to other claimants, primarily relatives of those who 
emigrated.
Hungary
    Hungary was an early leader in passing and implementing legislation 
for private and communal property restitution and compensation. Several 
thousand religious community property claims have been resolved through 
negotiation or by government decisions, and about $100 million has been 
paid in compensation. Approximately 800 properties remain under 
negotiation between the government and the Catholic Church. In October 
1998 the Jewish community waived claims to about 150 properties in 
exchange for annual support payments from the government (which other 
religious organizations also receive); the Jewish community has 
actually received four or five buildings in restitution and is 
negotiating for another 10 to 15.
    Private property has been restituted under a 1992 law, amended in 
1997, which has no citizenship or residency requirement. Hungarian 
Holocaust victims receive a modest monthly pension from a foundation 
that receives government compensation for heirless private Jewish 
property.
Latvia
    Latvian law provides for the restitution of confiscated property to 
former owners or their heirs. The law does not discriminate on the 
basis of citizenship or residency. If the original property cannot be 
returned, local authorities offer another property or compensation in 
the form of vouchers. Most communal property cases, Jewish and 
Christian, have already been adjudicated and property rights restored, 
although a few long-standing cases are still being negotiated. Private 
properties now occupied by economically productive facilities have been 
particularly difficult to resolve. Because of the difficulty in 
establishing comparative values, claimants are frequently reluctant to 
accept alternative properties or vouchers. Although agreement is 
usually reached, six cases this year went to the courts. Two were 
decided in favor of the plaintiffs.
    This month the World Bank will begin a program to assist Latvia in 
the development of a comprehensive land and title registration and 
verification system. The goal of this program is to support the 
development of a real estate market and allow for better market 
valuation of land and property.
    The Latvian Hebrew religious community originally filed for 24 
properties of which 13 have now been returned. One hospital was 
returned this summer. The community has filed for the restitution of a 
school building in downtown Riga currently controlled by the education 
ministry and rented out as office space. If negotiations with the 
government fail, the community will probably take the issue to court. 
The community wishes to use the building for a Baltic rabbinical 
seminary.
Lithuania
    Lithuania has restituted both private and religious property, but 
the government has not always turned over buildings awarded to 
religious communities by the courts. The Catholic community has been 
more successful in having property returned to it than the Jewish 
community, which is badly splintered. As in other countries, the Jewish 
community cannot afford to repair or maintain all of the religious 
property it has received, which includes 26 synagogues. The Ministry of 
Justice in May 1999 recognized the Chabad Lubavitch as a traditional 
religious community, a step that allows that group to claim property.
    The definition of religious property excludes communal property 
used for secular purposes. In March 1999, the government prepared a 
draft law which would redefine communal property to include social 
facilities, schools and sports clubs, and would be applicable to all 
ethnic and religious groups in Lithuania. We have long urged such a 
broader definition of communal property and very much hope this law 
will receive prompt parliamentary approval.
    The Lithuanian government is also considering the establishment of 
a special foundation to receive property and funds for use of the 
Jewish community, and to provide protection for cultural monuments.
    Lack of funds for compensation and protracted bureaucratic delays 
are the main obstacles preventing the return of private property. 
Lithuanian law provides for the restitution of private property to 
Lithuanian citizens. Those U.S. citizens of Lithuanian origin who have 
reclaimed their former citizenship qualify, and some of them have been 
able to make successful claims in Lithuanian courts. However, while the 
Lithuanian government removed the residence requirement for property 
restitution, the deadline for filing claims has now passed. Non-
Lithuanian citizens cannot claim property.
    Statistics on the overall number of properties returned are not 
available.
Moldova
    A number of laws, decrees, judicial decisions and local practices 
govern restitution in Moldova. There is no citizenship or residence 
requirement.
    Moldova has returned most of the properties of the Moldovan 
Orthodox Church, mainly through administrative means. The small Jewish 
community has received property in Chisinau for its current needs, but 
this amounts to only a small part of its pre-Holocaust property. 
Synagogues are located in Chisinau and six other towns.
    The Moldovan government does not consider claims of former owners 
when distributing agricultural land through its privatization program. 
Forests are public lands and not subject to restitution.
    Agudath Israel in late June purchased a property in Chisinau at 
which it had operated a yeshiva and synagogue since 1991. The synagogue 
was built in 1886 and operated until 1940. Agudath Israel initially 
attempted to regain the property through restitution, but eventually 
agreed to buy the property.
    A Baptist church in Chisinau approached the government in 1995 to 
gain restitution of property it had purchased in the twenties. Because 
the property now is the site of a kindergarten, an earlier government 
decision does not allow it to be returned to its previous owner. The 
church and government are still negotiating.
Poland
    Poland has established four separate commissions to process claims 
of the Catholic, Lutheran, and Orthodox Churches, and the Jewish 
community. Establishment of a fifth commission to handle claims by 
other religious groups, is planned for the fall. About 1850 Catholic 
properties have been returned or compensated, and another 750 are still 
under consideration.
    Thousands of Jewish communal properties served Poland's 3.5 million 
Jews before the Holocaust, but only a few thousand Jews remain in 
Poland. Negotiations have been underway for over a year between the 
World Jewish Restitution Organization (WJRO) and the Union Of Jewish 
Congregations in Poland (ZGZ) to form a joint foundation to assist with 
the reclaiming and managing of these properties. An American diplomat, 
Ambassador Henry Clarke, has served as a mediator in these discussions 
since September 1999. The foundation would assist in preparing the 
documents necessary to file claims, and would also participate in 
managing some of the restituted property. So far, the local Jewish 
community has applied for about 500 properties. Without outside 
assistance, it would be unlikely that all of the Jewish communal 
property can be claimed before the deadline in 2002.
    In September 1999, the government submitted to the parliament 
legislation for the restitution of private property, or 
``reprivatization.'' In mid-December, the special committee on 
restitution proposed amendments requiring that claimants be Polish 
citizens and that they have resided in Poland for five years prior to 
making the claim. This discriminatory provision would prevent many 
Polish-Americans from claiming property. Government officials have 
assured U.S. officials that they will not accept these amendments and 
will work to restore the original non-discriminatory language. The 
proposed legislation provides for compensation of up to fifty percent 
of the value of the property in question.
Romania
    Restitution is a highly contentious and politicized issue in 
Romania. Romania currently lacks comprehensive, nondiscriminatory laws 
and procedures for the restitution of private and community-owned 
buildings and urban property. The lower house of parliament debated and 
passed property restitution legislation in August but the fate of this 
legislation in the upper house is uncertain. Legislation providing for 
the return of up to 50 hectares of farmland and ten hectares of forests 
was signed in January 2000.
    Under present laws and practices, private property claims face a 
chaotic legal situation in the courts. The government has found it 
difficult to return limited amounts of communal property to religious 
and ethnic communities by decree, because partial solutions raise 
questions of fairness. The Greek Catholic or Uniate Church, which was 
banned by the communist government, has large and serious claims 
against both the government and the Romanian Orthodox Church. A June 10 
emergency ordinance restored 36 buildings to ethnic communities. The 
Jewish community got back 12 buildings, most of them former educational 
institutions; the Hungarian community, 15 buildings, mostly former 
property of the Hungarian churches, (Calvinist, Roman Catholic and 
other protestant); the German community, four buildings, all former 
houses of culture; the Greek community, two buildings; the Slovak 
community one building (an evangelical school), and the Ukrainian and 
Serbian communities each received one building.
Russia
    Hundreds of buildings controlled by the federal government have 
been returned to religious communities under a Presidential Order of 
April 23, 1993. Estimates of properties returned at the regional or 
municipal level range up to several thousand. The large majority have 
gone to the Russian Orthodox Church, reflecting the relative strength 
of that religion prior to 1917, when it was not easy for other 
religions to erect buildings, and its relative negotiating influence in 
recent years. Synagogues and some other Jewish community properties 
have also been gradually returned, with cooperation in some regions and 
disputes in others.
Slovakia
    Slovakia has made progress in returning communal property, and has 
restituted a substantial percentage of Catholic and Jewish claims. 
State organizations have not always vacated the buildings that were 
legally restituted, and many claims remain in dispute before the 
courts. Some properties built upon by the state have not been 
restituted, and as yet no mechanism for compensation is available for 
the original owners. In April of this year the government and the 
Jewish community agreed to establish a joint commission to solve Jewish 
property restitution issues.
    The Jewish community opened a new home for the elderly in November 
1998, in a large building in downtown Bratislava that had been 
restituted and then reconstructed. The reconstruction was financed in 
part with compensation from the Czech and Slovak governments for gold 
taken from Slovak Jews in 1940. In 1999, the community also received a 
hospital building in Bratislava. Many Jewish properties, however, are 
in poor condition and beyond the means of the small community in 
Slovakia to restore.
    The Catholic community received additional aid from the Government 
of Slovakia in 1999 in completing surveys of properties that could 
potentially be restituted. The church, however, has still had 
difficulty claiming formerly empty properties on which buildings were 
constructed after the land was taken from the church.
    Slovak citizenship is a requirement for private property claims, 
but we believe Slovak-Americans were generally able to reclaim their 
citizenship and their property within the deadline set by the 1993 law.
Slovenia
    Restitution of property seized by Yugoslavia's communist government 
remains a (one of the most) divisive issue(s) in Slovenia. The question 
of ``denationalization'' of property seized by the Socialist Federal 
Republic of Yugoslavia (SFRY) divides political parties and maintains a 
barrier between the GOS and the Roman Catholic Church. The Church was a 
major property holder in the Kingdom of Yugoslavia before World War II. 
After the war, the SFRY confiscated and nationalized many church 
properties--places of worship and associated buildings, residences, 
businesses, and forests.
    After Slovenian independence in 1991, a center-right coalition 
parliament passed some of eastern Europe's most progressive legislation 
calling for denationalization (restitution and/or compensation) within 
a fixed period. However, a subsequent change of government to a center-
left coalition in 1992 led to a virtual standstill in denationalization 
proceedings for several years as parliament instituted a moratorium on 
nationalization.
    In September 1998, under pressure to reduce a backlog of 
problematic cases, parliament amended the 1991 denationalization law. 
However, some of these amendments appeared designed to protect vested 
interests. In October 1998, the constitutional court annulled several 
of the amendments, including one which would have barred the Catholic 
Church from benefiting from restitution of ``feudal'' property. The 
court also struck down differential treatment of Slovenes versus non-
Slovenes at the time of expropriation, and it permitted those who lost 
Yugoslav citizenship in the wake of World War II to benefit from the 
law.
    The strong opposition of the current government toward returning 
large tracts of forest and other property to the Catholic Church is an 
oft-cited reason for the paralysis of the denationalization process. 
Restitution of church property is a politically unpopular issue, and 
the Catholic Church, despite its numerical predominance, does not have 
the political support necessary to force a faster pace for 
denationalization.
    Private restitution has also been slow and sporadic. As of June 
1999, only forty percent of all cases had been adjudicated at the 
initial administrative level. In April 1999, the Slovene-parliament 
urged completion of the process by the end of 2000 and the government 
convened an inter-ministerial working group to streamline the 
denationalization procedures.
Ukraine
    Ukraine has returned some places of worship to all major religions. 
Only state-owned churches, synagogues, and religious artifacts 
immediately necessary for religious services are subject to restitution 
under current Ukrainian law. Returned buildings are generally for the 
``exclusive use'' of the religious community rather than for ownership.
    In July 1998, president Kuchma issued a presidential decree 
protecting all cemeteries from misuse or privatization.
    Ukraine as yet has no legislation to permit the restitution of 
secular property that belonged to religious groups, such as schools, 
community centers or other facilities. However, a draft law is being 
prepared which would significantly broaden the categories of property 
owned by religious communities that could be restituted. On February 
22, President Kuchma responded to appeals from virtually all groups by 
instructing the state property fund to take measures to ban the 
privatization of property formerly owned by religious communities, 
which they feared would preclude its eventual restitution.
    The decision of whether to return religious buildings or property 
is made by the regional state administration in which the building is 
located. Only the local parish--and not a national or international 
religious organization--can petition for the return of a property. 
Despite the law's provision that the decision be made within one month, 
the time period involved is usually considerably longer.
    The Ukrainian Jewish communities officially lay claim to 
approximately 3,000 properties of all types, of which only a few have 
been restituted. However, since current law only permits restitution of 
synagogues, the proportion of buildings legally subject to restitution 
that have been returned is somewhat higher. In addition, the pace of 
restitution of Christian churches has slowed in recent years, since the 
buildings that remain in state possession tend to be prime properties 
currently being used as museums, concert halls, or city halls. The 
Roman Catholic Church has outstanding claims on 48 buildings across the 
country that have not been returned, some of which already have been 
partially privatized. The Ukrainian Greek Catholic and Ukrainian 
Orthodox churches also have reported problems in obtaining formerly-
owned properties. These difficulties often are due not only to 
government bureaucracy, but also to competing claims.


                                                                JOINT CHAIRMEN'S PROPOSAL
                                                             [In billions of Deutsche Marks]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                         Percentage
                                                                                                         Suballocation    of Amount
                                Suballocation                 Percentage      Overall     Supplemental    Amount with     for Labor   Supplemental Funds
            Labor                  Amount         Amount       of Amount    Percentage       Funds       Supplemental       with           Comments
                                                               for Labor                                     Funds      Supplemental
                                                                                                                            Funds
--------------------------------------------------------------------------------------------------------------------------------------------------------
Slave Labor..................      3.630 DM    ............  ............  ............      0.100 DM   ..............  ............         Swiss Fund
Forced Labor.................      4.420 DM    ............  ............  ............  .............  ..............  ............  ..................
Capital for Slave and Forced   ..............     8.050 DM   ............        80.50   .............  ..............  ............  ..................
 Labor.......................
Suballocation (Slave and
 Forced Labor Combined):
  Partner Organization:......
    Claims Conference........      1.812 DM    ............        22.51   ............  .............      1.812 DM          22.37   ..................
    Poland...................      1.796 DM    ............        22.31   ............  .............      1.812 DM          22.37   ..................
    Ukraine..................      1.709 DM    ............        21.22   ............  .............      1.724 DM          21.29   ..................
    Russia...................      0.828 DM    ............        10.28   ............  .............      0.835 DM          10.31   ..................
    Belarus..................      0.687 DM    ............         8.54   ............  .............      0.694 DM           8.56   ..................
    Czech Republic...........      0.419 DM    ............         5.21   ............  .............      0.423 DM           5.22   ..................
    Rest of Eastern Europe &       0.800 DM    ............         9.94   ............  .............      0.800 DM           9.88   ..................
     Rest of World (incl.
     Sinti and Roma).........
Other Personal Injury Cases..  ..............     0.050 DM   ............         0.50   .............  ..............  ............  ..................
                              --------------------------------------------------------------------------------------------------------------------------
Total Capital for Labor......  ..............     8.100 DM   ............        81.00       8.250 DM   ..............  ............  ..................
                              --------------------------------------------------------------------------------------------------------------------------
Total Capital for Non-Labor..  ..............     1.000 DM   ............        10.00   .............  ..............  ............  ..................
    Banking Claims...........      0.150 DM    ............  ............  ............  .............  ..............  ............  ..................
    Other Property Claims/         0.050 DM    ............  ............  ............  .............  ..............  ............  ..................
     Catch-all...............
    Banking Humanitarian.....      0.300 DM    ............  ............  ............  .............  ..............  ............  ..................
    Insurance Claims.........      0.150 DM    ............  ............  ............      0.050 DM   ..............  ............    Interest Earned
    Insurance Humanitarian/        0.350 DM    ............  ............  ............  .............  ..............  ............  ..................
     ICHEIC..................
Future Fund..................  ..............     0.700 DM   ............         7.00   .............  ..............  ............  ..................
    Programs for Heirs.......  ..............  ............  ............  ............  .............  ..............  ............  ..................
    Reserve for Insurance          0.100 DM    ............  ............  ............  .............  ..............  ............  ..................
     Claims..................
Administration...............  ..............     0.200 DM   ............         2.00   .............  ..............  ............  ..................
                              --------------------------------------------------------------------------------------------------------------------------
Total Capital for Non-Labor,   ..............      1.99 DM   ............  ............      1.950 DM   ..............  ............  ..................
 Future Fund and
 Administration..............
                              --------------------------------------------------------------------------------------------------------------------------
Total Foundation Capital.....  ..............    10.000 DM   ............       100.00   .............  ..............  ............  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------


Report of the AAMD Task Force on the Spoliation of Art During the Nazi/
               World War II Era (1933-1945)--June 4, 1998

    AAMD Statement of Purpose: ``The purpose of the AAMD is to aid its 
members in establishing and maintaining the highest professional 
standards for themselves and the museums they represent, thereby 
exerting leadership in increasing the contribution of art museums to 
society.''
                       i. statement of principles
    A. AAMD recognizes and deplores the unlawful confiscation of art 
that constituted one of the many horrors of the Holocaust and World War 
II.
    B. American museums are proud of the role they, and members of 
their staffs, played during and after World War II, assisting with the 
preservation and restitution of hundreds of thousands of works of art 
through the U.S. Military's Monuments, Fine Arts and Archives section.
    C. AAMD reaffirms the commitment of its members to weigh, promptly 
and thoroughly, claims of title to specific works in their collections.
    D. AAMD urges the prompt creation of mechanisms to coordinate full 
access to all documentation concerning this spoliation of art, 
especially newly available information. To this end, the AAMD 
encourages the creation of databases by third parties, essential to 
research in this area, which will aid in the identification of any 
works of art which were unlawfully confiscated and which of these were 
restituted. Such an effort will complement long-standing American 
museum policy of exhibiting, publishing and researching works of art in 
museum collections in order to make them widely available to scholars 
and to the general public. (See III. below.)
    E. AAMD endorses a process of reviewing, reporting, and researching 
the issue of, unlawfully confiscated art which respects the dignity of 
all parties and the complexity of the issue. Each claim presents a 
unique situation which must be thoroughly reviewed on a case-by-case 
basis.
                             ii. guidelines
    AAMD has developed the following guidelines to assist museums in 
resolving claims, reconciling the interests of individuals who were 
dispossessed of works of art or their heirs together with the fiduciary 
and legal obligations and responsibilities of art museums and their 
trustees to the public for whom they hold works of art in trust.
A. Research Regarding Existing Collections
    1. As part of the standard research on each work of art in their 
collections, members of the AAMD, if they have not already done so, 
should begin immediately to review the provenance of works in their 
collections to attempt to ascertain whether any were unlawfully 
confiscated during the Nazi/World War II era and never restituted.
    2. Member museums should search their own records thoroughly and, 
in addition, should take all reasonable steps to contact established 
archives, databases, art dealers, auction houses, donors, art 
historians and other scholars and researchers who may be able to 
provide Nazi/World-War-II-era provenance information.
    3. AAMD recognizes that research regarding Nazi/World-War-II-era 
provenance may take years to complete, may be inconclusive and may 
require additional funding. The AAMD Art Issues Committee will address 
the matter of such research and how to facilitate it.
B. Future Gifts, Bequests, and Purchases
    1. As part of the standard research on each work of art:
    (a) member museums should ask donors of works of art (or executors 
in the case of bequests) to provide as much provenance information as 
possible with regard to the Nazi/World War II era, and
    (b) member museums should ask sellers of works of art to provide as 
much provenance information as possible with regard to the Nazi/World 
War II era.
    2. Where the Nazi/World-War-II-era provenance is incomplete for a 
gift, bequest, or purchase, the museum should search available records 
and consult appropriate databases of unlawfully confiscated art (see 
III below).
    (a) In the absence of evidence of unlawful confiscation, the work 
is presumed not to have been confiscated and the acquisition may 
proceed.
    (b) If there is evidence of unlawful confiscation, and there is no 
evidence of restitution, the museum should not proceed to acquire the 
object and should take appropriate further action.
    3. Consistent with current museum practice, member museums should 
publish, display or otherwise make accessible all recent gifts, 
bequests, and purchases thereby making them available for further 
research, examination and study.
    4. When purchasing works of art, museums should seek 
representations and warranties from the seller that the seller has 
valid title and that the work of art is free from any claims.
C. Access to Museum Records
    1. Member museums should facilitate access to the Nazi/World-War-
II-era provenance information of all works of art in their collections.
    2. Although a linked database of all museum holdings throughout the 
United States does not exist at this time, individual museums are 
establishing web sites \1\ with collections information and others are 
making their holdings accessible through printed publications or 
archives. AAMD is exploring the linkage of existing sites which contain 
collection information so as to assist research.
---------------------------------------------------------------------------
    \1\ The AAMD website is: http://www.aamd.org/guideln.shtmt
---------------------------------------------------------------------------
D. Discovery of Unlawfully Confiscated Works of Art
    1. If a member museum should determine that a work of art in its 
collection was illegally confiscated during the Nazi/World War II era 
and not restituted, the museum should make such information public.
    2. In the event that a legitimate claimant comes forward, the 
museum should offer to resolve the matter in an equitable, appropriate, 
and mutually agreeable manner.
    3. In the event that no legitimate claimant comes forward, the 
museum should acknowledge the history of the work of art on labels and 
publications referring to such a work.
E. Response to Claims Against the Museum
    1. If a member museum receives a claim against a work of art in its 
collection related to an illegal confiscation during the Nazi/World War 
II era, it should seek to review such a claim promptly and thoroughly. 
The museum should request evidence of ownership from the claimant in 
order to assist in determining the provenance of the work of art.
    2. If after working with the claimant to determine the provenance, 
a member museum should determine that a work of art in its collection 
was illegally confiscated during the Nazi/World War II era and not 
restituted, the museum should offer to resolve the matter in an 
equitable, appropriate, and mutually agreeable manner.
    3. AAMD recommends that member museums consider using mediation 
wherever reasonably practical to help resolve claims regarding art 
illegally confiscated during the Nazi/World War II era and not 
restituted.
F. Incoming Loans
    1. In preparing for exhibitions, member museums should endeavor to 
review provenance information regarding incoming loans.
    2. Member museums should not borrow works of art known to have been 
illegally confiscated during the Nazi/World War II era and not 
restituted unless the matter has been otherwise resolved (e.g., II.D.3 
above).
                     iii. database recommendations
    A. As stated in I.D. (above), AAMD encourages the creation of 
databases by third parties, essential to research in this area. AAMD 
recommends that the databases being formed include the following 
information (not necessarily all in a single database):
    1. Claims and claimants.
    2. Works of art illegally confiscated during the Nazi/World War II 
era.
    3. Works of art later restituted.
    B. AAMD suggests that the entity or entities creating databases 
establish professional advisory boards that could provide insight on 
the needs of various users of the database. AAMD encourages member 
museums to participate in the work of such boards.

 Statement by the Federal Government the Laender (Federal States) and 
   the National Associations of Local Authorities on the Tracing and 
    Return of Nazi-confiscated Art, Especially From Jewish Property

     Translation--of 14 December 1999 (text as of 9 December 1999)

    In accordance with the requirements of the Allied restitution 
provisions, the Federal Act on Restitution and the Federal 
Indemnification Act, the Federal Republic of Germany has fulfilled 
merited claims on grounds the confiscation of works of art by the Nazi 
regime after WW II, and set up the necessary procedures and 
institutions for enabling persons entitled to such indemnification to 
enforce their claims vis-a-vis other parties liable to restitution. The 
claims primarily arose to those who immediately suffered damage and 
their legal successors or, in case of Jewish assets without heirs or 
Jewish assets that were not claimed, to the successor organisations 
established in the Western zones and Berlin. The material restitution 
was effected either on a case-to-case basis or by global settlement. 
The restitution law and the general civil law of the Federal Republic 
of Germany thus finally and comprehensively provide for issues of 
restitution and indemnification of Nazi-confiscated art especially from 
Jewish property.
    In the German Democratic Republic (GDR) the compensation pursuant 
to Allied law of wrongs perpetrated under National Socialism did not go 
beyond a rudimentary stage. In the course of German reunification, the 
Federal Republic of Germany has undertaken to apply the principles of 
the restitution and indemnification law. Nazi confiscated art was 
returned or indemnified in accordance with the provisions of the 
Vermogensgesetz (Property settlement Act) and the NS-
Verfolgtenentschadigungsgesetz (Fedezal Indemnification Act concerning 
persons who suffered damage at the hands of the National Socialist 
regime). Thanks to the global filing of claims on the part of the 
Conference on Jewish Material Claims against Germany Inc. (JCC) in its 
capacity as today's association of successor organisations claims 
situated in the accession area with regard to cultural property of 
Jewish parties having suffered loss. As formerly in the West German 
Laender, material indemnification on a case-to-case basis was sought; 
where this was not possible, compensation was effected by global 
settlement.

                                   I.

    Irrespective of such material compensation, the Federal Republic of 
Germany declared its readiness at the Washington Conference on 
Holocaust-Era Assets on 3 December 1998 to look for and identify 
further Nazi-confiscated cultural property in so far as the legal and 
factual possibilities allow and, if necessary, take the necessary steps 
in order to find an equitable and fair solution. Against this 
background, the decision by the Foundation Board of the Prussian 
Cultural Heritage Foundation of 4 June 1999 is welcomed.
    The Federal Government, the Laender and the national associations 
of local authorities will bring their influence to bear in the 
responsible bodies of the relevant statutory institutions that works of 
art that have been identified as Nazi-confiscated property and can be 
attributed to specific claimants are returned, upon individual 
examination, to the legitimate former owners or their heirs, 
respectively. This examination includes a match with material 
compensation already provided. Such a procedure allows to identify the 
legitimate owners and avoid duplicate compensation (e.g.. by repayment 
of compensations already paid).
    The relevant institutions are recommended to negotiate the extent 
and procedure of return or other material indemnification (e.g. in the 
form of permanent loans, financial or material equalisation) with the 
clearly identified legitimate former owners or their heirs, 
respectively.

                                  II.

    The German public institutions such as museums, archives and 
libraries have supported the tracing of Nazi-confiscated art already in 
the past by means of:

          1. exploitation of and access to the data research findings 
        and records available to them,
          2. investigations in case of concrete inquiries and research, 
        on their own initiative, in case of new acquisitions,
          3. search activities in the framework of the institutions 
        tasks,
          4. providing information on the history of Nazi-confiscated 
        art in collections, exhibitions and publications.

    These efforts shall be carried on wherever there is sufficient 
reason.

                                  III.

    Furthermore, the Federal Government, the Laender and the national 
associations of local authorities consider in accordance with the 
principles of the Washington Conference to provide a website on the 
Internet with information on the following:

          1. What the institutions involved can do for publicising art 
        of unclear origin to the extent that is presumed to have been 
        confiscated by the Nazis.
          2. A search list in which every claimant may enter the items 
        he is looking for and thus report for investigation by the 
        relevant institutions and the interested public.
          3. Information on the transfer abroad of Nazi-confiscated art 
        during or immediately after the war.
          4. Establishing a virtual information platform where the 
        interested public institutions and third parties may enter 
        their findings relating to the tracing of Nazi-confiscated art 
        in order to avoid duplicate work on the same subjects (e.g. at 
        which auction was Jewish cultural property of which collection 
        sold?) and make such information available by way of fulltext 
        retrieval.

                                  IV.

    This statement refers to archives maintained by public 
institutions, museums, libraries and their inventory. The public bodies 
funding these institutions are called upon to ensure the implementation 
of these principles by taking decisions to this effect. Institutions 
under private law and individuals are called upon also to apply the 
principles and procedures laid down at the Washington Conference.

   8Declaration of the Stockholm International Forum on the Holocaust

    We, High Representatives of Governments at the Stockholm 
International Forum on the Holocaust, declare that:

    1. The Holocaust (Shoah) fundamentally challenged the foundations 
of civilization.
    The unprecedented character of the Holocaust will always hold 
universal meaning. After half a century, it remains an event close 
enough in time that survivors can still bear witness to the horrors 
that engulfed the Jewish people. The terrible suffering of the many 
millions of other victims of the Nazis has left an indelible scar 
across Europe as well.
    2. The magnitude of the Holocaust, planned and carried out by the 
Nazis, must be forever seared in our collective memory. The selfless 
sacrifices of those who defied the Nazis, and sometimes gave their own 
lives to protect or rescue the Holocaust's victims, must also be 
inscribed in our hearts. The depths of that horror, and the heights of 
their heroism, can be touchstones in our understanding of the human 
capacity for evil and for good.
    3. With humanity still scarred by genocide, ethnic cleansing, 
racism, anti-semitism and xenophobia, the international community 
shares a solemn responsibility to fight those evils. Together we must 
uphold the terrible truth of the Holocaust against those who deny it. 
We must strengthen the moral commitment of our peoples, and the 
political commitment of our governments, to ensure that future 
generations can understand the causes of the Holocaust and reflect upon 
its consequences.
    4. We pledge to strengthen our efforts to promote education, 
remembrance and research about the Holocaust, both in those of our 
countries that have already done much and those that choose to join 
this effort.
    5. We share a commitment to encourage the study of the Holocaust in 
all its dimensions. We will promote education about the Holocaust in 
our schools and universities, in our communities and encourage it in 
other institutions.
    6. We share a commitment to commemorate the victims of the 
Holocaust and to honour those who stood against it. We will encourage 
appropriate forms of Holocaust remembrance, including an annual Day of 
Holocaust Remembrance, in our countries.
    7. We share a commitment to throw light on the still obscured 
shadows of the Holocaust. We will take all necessary steps to 
facilitate the opening of archives in order to ensure that all 
documents bearing on the Holocaust are available to researchers.
    8. It is appropriate that this, the first major international 
conference of the new millennium, declares its commitment to plant the 
seeds of a better future amidst the soil of a bitter past. We empathize 
with the victims' suffering and draw inspiration from their struggle. 
Our commitment must be to remember the victims who perished, respect 
the survivors still with us, and reaffirm humanity's common aspiration 
for mutual understanding and justice.

    Senator Smith. We were joined by Senator Boxer. We are 
delighted you are here. Do you have a statement or question?
    Senator Boxer. Well, I actually have 30 seconds of comment. 
But I do have a couple questions.
    Senator Smith. Sure.
    Senator Boxer. Mr. Chairman, I was working on a budget 
matter. And I understand from my staff that you were nothing 
less than eloquent on this issue that is before us. And I just 
want to personally thank you and Senator Biden, as well.
    You know, for me it is very difficult to have an opening 
statement, Mr. Chairman, because if I had not been born in this 
country and I was born where my mother was born in Austria 
during World War II, I certainly, most likely, would not be 
here with you. So it is very difficult for me to give an 
opening statement.
    I mean, I remember as a little girl that when I read ``The 
Diary of Anne Frank,'' it just stuck with me, because I knew 
that it could have been--I could have been in that 
circumstance. So this country has been everything to my family.
    And also, the chance to sit with you and try to do 
something to help Mr. Eizenstat here is very special. So I am 
very honored to be able to help.
    I have two quick questions. I know that you are doing 
everything in your power so we do not get into a lawsuit 
situation, so that we can quickly resolve the claims with the 
insurance companies. But some of these survivors are very 
elderly now. Right now, do we have a way that their heirs could 
receive what is due them?
    And then I have one other question, so I will just lay out 
the second question. And it is a very interesting one. I do not 
know whether my colleagues are aware, I have a bill with 
Senator Helms to try and settle a very interesting situation.
    I have a constituent named Dina Babbitt, who suffered a 
year-and-a-half-long term in Auschwitz. And she was a brilliant 
painter. And of all the twisted things in the world, Dr. Joseph 
Mengele--this is why it is hard--asked her to paint portraits 
of prisoners who were condemned to die.
    Now, she was a teenager, and she did these paintings. And 
seven of these watercolors remain at the Auschwitz-Berkenau 
State Museum, Berkenau State Museum. And she wants these 
paintings very much.
    Her reasons, she has to face the past and deal with it. 
They are her property. And we cannot seem to get these 
paintings back. And so Poland has basically denied her these 
paintings.
    And they said, ``Well, we need them to exhibit them.'' And 
she believed they were not ever exhibited.
    And so Senator Helms and I have a bill to get these 
paintings back. And I wonder whether or not, Mr. Secretary, if 
there is a way we could do more to help her, because every time 
we say we are going to do a bill, then the Government of Poland 
starts to lobby against this bill.
    And I do not want to get my colleagues in the middle of 
this. But is there something that you can do to personally help 
us with this, get these paintings back for her?
    Secretary Eizenstat. Thank you. Let me answer both 
questions. First with respect to heirs, for the heirs of forced 
and slave laborers, if any who would have been eligible on 
February 16, 1999, which is the date that the Germans first 
announced this initiative, which has taken us over a year to 
consummate, if any have died since that time, their heirs can 
recover.
    With respect to insurance claims, which was your specific 
question, heirs will be able to recover. But I frankly hope 
that more and more of the actual survivors will benefit before 
their heirs.
    And the reason is that, as I mentioned I think just before 
you came in, just today we have the publication of 19,000 names 
by the International Commission on Holocaust Era Insurance 
Claims under Larry Eagleburger that we helped create. And that 
for the first time would publish almost 20,000 families who can 
claim on their insurance policies. If they are survivors, 
surviving beneficiaries, obviously they can. But heirs clearly 
will be able to do so.
    With respect to Mrs. Babbitt-Gottlieb, I am extremely 
familiar with the case. I have met and talked with her attorney 
on innumerable occasions, as well as our Embassy in Poland. We 
have also talked to the Polish Government about this. This is a 
very difficult and sensitive issue. This is her art without 
question. It was done under precisely the circumstances you 
indicated.
    In addition to being works of art, the portraits are also 
an important piece of the historical record of the Holocaust, 
which is why the Auschwitz Museum wishes to hold onto them. I 
have, frankly, proposed a number of options to her attorney. 
And I hope that we can find a way to satisfy both of these 
conflicting interests.
    Senator Boxer. Well, I would certainly hope so, because 
this woman was forced to do these paintings as a slave of the 
Nazis for the most twisted, horrible reasons. And if she wants 
these back for her reasons, then I just cannot imagine what 
could override that. Maybe there is a way they could keep one 
of them and return the others.
    But with my colleagues' indulgence, maybe I can take this 
to you, because at this point, we have not been successful. And 
it is frustrating, because I do not know how old she is now, 
but--77 or 78 years old. I think we should help her.
    So thank you very much again, Mr. Eizenstat.
    Secretary Eizenstat. I will re-contact her attorney again.
    Senator Boxer. Please.
    Secretary Eizenstat. But we have been working on this.
    Senator Boxer. Thank you.
    Senator Smith. Senator Boxer, you can add my name to the 
bill, if you want.
    Senator Boxer. Thank you. That would be very helpful.
    Senator Smith. Secretary Eizenstat, I would like to take a 
moment to note for you some material I am going to have entered 
in the record.
    It is the record compiled by a constituent of mine, Diane 
Whittier of Salem, Oregon. Her record, which I have in my hand, 
is the biography and anecdotes of her mother, Irene Bondaranko 
Hewitt, who spent several years as a Nazi slave in a Nazi slave 
labor camp. When she died, she was an Oregonian.
    I do not know what recompense Irene Hewitt's family may 
have received, but I would like to leave you with this 
anecdote. Before her death, she had the chance to withdraw a 
lot of 401(k) money in order to evade some estate taxes.
    She said to her family, ``I won't do that. Whatever the 
U.S. Government takes, it is welcome to because they saved my 
life.''
    If there is no objection, I will enter this in the record.
    Secretary Eizenstat. If you will give me that information, 
I will be pleased to look at it.
    [Correspondence pertaining to the information referred to 
follows. The additional material is retained in committee 
files:]

                               Salem, OR, February 1, 2000.

David Bradley, Chief Counsel,
Foreign Claims Settlement Commission,
Room 6002, 600 E Street, NW,
Department of Justice,
Washington, DC 20530-0001.

    Dear Mr. Bradley,
    Enclosed please find initially an article from our local newspaper 
which started this endeavor. After reading the article, I knew I must 
write to you an behalf of my mother who spent several years in a German 
slave camp. You will find copies of her Polish and German documents 
along with a local newspaper article featuring her, a short 
autobiography and numerous pages which have been dictated from audio 
tapes made by her before her death in 1996. While her autobiography and 
dictation from the tapes have not gone into many specifics, I have no 
doubt that you will find the afore mentioned documents and information 
to be indisputable evidence of her years spent in the labor camps. She 
has told my brother and I many stories of her forced labor, near 
starvation and poor treatment at the hands of the Germans. I believe 
that my mothers resourcefulness, as well as the jewels her parents sent 
with her in an amulet worn around her neck when she was sent off to the 
camps, played a large role in her survival until the war ended.
    No doubt her labor camp experiences contributed heavily to mothers 
mental difficulties making family life with her extremely difficult at 
best. After years of psychotherapy, I remain in counseling still trying 
to make sense of it all.
    Before her death, mother had an opportunity to withdraw some of her 
meager 401-k retirement savings so as not to pay the United States 
government as high a tax rate. She said proudly, ``I wouldn't think of 
it, the U.S. government literally saved my life. They deserve whatever 
taxes they take.''
    Hopefully you will find in her/our favor as you review this claim.
            Sincerely,
                                             Diane Hewitt Whittier.
                                 ______
                                 
                        U.S. Department of Justice,
 Foreign Claims Settlement Commission of the United States,
                                 Washington, DC, February 15, 2000.

The Honorable Gordon H. Smith
United States Senate,
121 SW Salmon, Suite 1250,
Portland, OR 97204.

    Dear Senator Smith:
    Thank you for your letter of February 4, 2000, with enclosures, on 
behalf of Ms. Diane Whittier, who has requested assistance in pursuing 
a claim for the hardship her late mother endured as a forced laborer in 
Germany during World War II.
    Unfortunately, the Foreign Claims Settlement Commission is not in a 
position to assist Ms. Whittier with her claim, as it has not been 
involved in the forced laborer claims settlement negotiations referred 
to in the news article enclosed with her letter. Between 1996 and 1998, 
the Commission conducted a program for adjudication of certain 
Holocaust survivors' claims against Germany, but that program is closed 
and the claims have been finally settled under an agreement between the 
United States and Germany signed in January 1999. Moreover, it does not 
appear that Ms. Whittier's mother's claim would have been compensable 
in that program in any event, as the program only covered persons who 
were interned in concentration camps, such as Auschwitz and Buchenwald, 
and who were U.S. citizens at the time they were interned.
    The Department of State would be in a better position to inform Ms. 
Whittier whether she will be eligible for compensation under the forced 
labor claims settlement, once the settlement negotiations are finally 
concluded. Accordingly, we have forwarded your inquiry to that 
department for response directly to Ms. Whittier as you have requested.
            Sincerely yours,
                                   David E. Bradley, Chief Counsel.
                                 ______
                                 
                        U.S. Department of Justice,
 Foreign Claims Settlement Commission of the United States,
                                 Washington, DC, February 15, 2000.
                               memorandum
To: Office of Legislative Affairs, Department of State

From: David E. Bradley, Chief Counsel, Foreign Claims Settlement 
Commission, Department of Justice

Re: Congressional inquiry from Sen. Gordon Smith on behalf of Diane 
Whittier regarding forced laborer claims

    We are forwarding the referenced inquiry to your department for 
further reply as you deem appropriate. Please note that the Senator has 
requested the reply to be made directly to Ms. Whittier. A copy of my 
reply to the Senator is also enclosed.
                                 ______
                                 
                                  U.S. Department of State,
                                    Washington, DC, March 30, 2000.

The Honorable Gordon Smith
U.S. Senate,
Washington, DC.

    Dear Senator Smith:
    The Foreign Claims Settlement Commission referred your letter of 
February 4 to the Department of State for reply since your 
constituent's inquiry concerns the slave/forced labor negotiations. 
Participants in those negotiations are the governments of Germany, the 
Czech Republic, Ukraine, Belarus, Russia, Poland and Israel.
    The goal of these negotiations, which Deputy Treasury Secretary 
Stuart E. Eizenstat and Otto Graf Lambsdorff of Germany co-chair, is to 
establish a German Foundation that will provide a dignified payment to 
public and private sector laborers and all others who suffered at the 
hands of German companies during the Nazi era. This Foundation will 
also include a ``Future Fund'' that will be used to fund programs to 
combat intolerance and promote understanding of the Holocaust. Heirs 
could benefit from such programs.
    The enclosed statements by Deputy Treasury Secretary Stuart E. 
Eizenstat provide additional detail about the negotiations.
    The file of information compiled by Ms. Whittier is a tribute to 
her mother and the others like her who were forced to work for the Nazi 
regime, frequently under horrendous conditions. It is injustices such 
as the ones she experienced that led to the current negotiations.
    We trust that this information will be helpful both to you and your 
constituent. If there should be further questions, please do not 
hesitate to call the Office of Holocaust Issues.
            Sincerely,
                                            Barbara Larkin,
                          Assistant Secretary, Legislative Affairs.

    Senator Smith. We welcome Senator Sarbanes. And if you have 
a question or comment, Senator, we are delighted you are here.
    Senator Sarbanes. Mr. Chairman, I, as is so often the case 
here, was at another hearing. And I apologize for being late.
    I will be seeing Dr. Wiesel later in the week at an event 
in Baltimore. So I will have an opportunity to both hear him 
and talk with him then. And, of course, he has been one of our 
most perceptive thinkers and is most eloquent on this issue.
    I very much want to commend you for holding this hearing. I 
think it is an extremely important hearing. And it is important 
to underscore the necessity of consistently reminding ourselves 
of the legacies of the Holocaust. In fact, there are a lot of 
people working very hard to deny that it ever took place. And 
that is a matter, I think, of some extreme concern to a great 
number of us.
    I think, in fact, the Holocaust Memorial Museum is a very 
important institution in that regard. And I am pleased that 
along with my colleagues here, we are able to be supportive of 
that institution and to document the record in a way that I 
think will withstand, clearly withstand, these pressures.
    I do not really have any questions of Stu Eizenstat. I 
simply want to thank him very much for the tremendous work he 
has done in this field. I think it is fair to say that but for 
his efforts, many of these issues would not be moving toward a 
resolution.
    And I think his superb skills in terms of, first of all, 
making people perceive the necessity of remedying these 
terrible actions of the past and being able to develop some 
consensus on how to go about doing it has been extremely 
important.
    Of course, you know, we are addressing both the issue of 
recompense or restitution. But then the much broader question 
is: How do we drive out these pernicious forces that exist not 
only elsewhere but even in our own country that are constantly 
reasserting these hatreds and prejudices for which we have paid 
such a high price in the 20th and earlier centuries, for that 
matter? And how do we move along the path of, if not 
eliminating those elements, at least driving them deep into the 
woodwork where they cannot emerge in such a way as to do harm 
to people?
    So I join with my colleagues in expressing our appreciation 
to you for holding this hearing. Thank you.
    Senator Smith. Thank you.
    Senator Biden.
    Senator Biden. Stu, I, too, as you know, am a fan. And I 
appreciate the work you have done. And quite frankly, were it 
not for the political skills you possess, as well as the 
intellectual skills, I am not sure we would have gotten this 
far.
    I have a couple questions. One may seem a little--and I 
should know the answer to this question. Has there been any 
thought given to the claims of those Americans who were 
entitled to compensation in light of the agreement you have 
reached, who are destitute or in serious economic 
circumstances, being able to assign their claims to the Federal 
Government and us to come up with their money now?
    In other words, I realize that may be a bureaucratic 
nightmare, but is there any thought given to us being able to 
compensate from a fund which has been agreed upon but not 
available yet immediately, that portion or portions of 
survivors, Jew and non-Jew alike, who can prove that they would 
be able to be compensated out of the fund, and then assign that 
claim to the Federal Treasury so that the money would then be 
compensated to the Federal Treasury?
    Secretary Eizenstat. Well, I understand the idea. But I 
think, that it would add a measure of complication to already 
complicated negotiations with the Germans. And frankly, it is 
our hope that by the July recess, the Bundestag will pass 
legislation, and that claims will begin to be processed by the 
end of this year, which I think is probably as fast as one 
could expect.
    Senator Biden. I do not think we could do it any faster, I 
mean, even if we set it in motion this----
    Secretary Eizenstat. Right.
    Senator Biden. As a matter of fact, it might not be that 
fast, but I just wondered----
    Secretary Eizenstat. And we will have, Senator--I mean, 
this is again the advantage over litigation--very relaxed 
standards of proof. There will be a claims process.
    In the United States, for example, the Jewish Material 
Claims Conference will handle claims for United States and 
Jewish citizens world-wide who were Holocaust victims. We will 
hope to use other non-governmental institutions, the Red Cross, 
perhaps, the Polish American Congress for some of the ethnic 
groups in the United States.
    And we have five reconciliation foundations, one for 
Poland, Ukraine, Russia, Belarus, and the Czech Republic, who 
will handle claims for those citizens so that it will be an 
expeditious process.
    Senator Biden. I do not doubt that. I would just--as a 
friend of mine used to say, a random thought.
    Second question I have, Mr. Secretary, is: Is there any--
because I know you know domestic and international politics as 
well as anyone does, can you give me a sense that you are 
willing--and maybe you would not think it appropriate because 
there are still ongoing attempts to deal with this--but the 
current status of the Holocaust heir claims in Austria? Has the 
rise of the Freedom Party deterred the Austrian Government from 
making efforts to resolve these issues? I mean, is there a 
causal connection?
    Secretary Eizenstat. Ironically, it has had the opposite 
effect, I think. Because of the international criticism, it has 
speeded up their intention to deal with slave enforced labor 
issues.
    But what we have made clear to them is that that is not 
sufficient. It is important, but not sufficient; that it is 
important to address restitution of property that has not been 
given back over the years. And I think that with the eyes of 
the world on Austrian----
    Senator Biden. Two separate issues. No. 1, the claimants 
compensation for slave labor, and No. 2, giving back the house, 
the fields----
    Secretary Eizenstat. Fair market value.
    Senator Biden [continuing]. As well as art. And there is 
not much discussion on the latter, is there, in Austria, now? 
In other words, you are making some progress on compensation.
    Secretary Eizenstat. That is right. We have had our first 
negotiations on compensation. It went well. I will have a 
second round in Vienna in the middle of May. Their legal 
experts will be coming here at the end of April. So I think 
that is moving.
    And given the breakthrough that we have achieved with 
Germany, they will be following many of these elements, 
including per capita compensation levels will likely be fairly 
close to what Germany has agreed to.
    With respect to art, they are researching their 
inventories. They are returning looted art. They accept that 
responsibility, and they are perhaps not going as quickly as we 
might wish, but they are proceeding with art restitution.
    However, the biggest area where there has been very little, 
indeed, almost no action over the last several decades, is with 
respect to property restitution, real property restitution. 
That is an issue which a number of organizations and the U.S. 
Government have raised.
    We have made it clear that while we are prepared--see in 
this, Senator, we put everything under one 10 billion Deutsche 
mark roof, insurance, banking, Aryanization, slave labor, force 
labor, medical experimentation. And in the end, it was 
important to do it that way, but it also was unbelievably 
complicated.
    What they have said is, ``Let us do it with slave enforced 
labor.''
    And we have said, ``OK. Fine. We can deal with that perhaps 
more quickly, but we are not going to let those other issues 
languish. We want your insurance companies to join ICHEIC. We 
want your art restitution to proceed. And you have got to make 
a real effort at the property restitution.''
    Senator Biden. One last question and this is pure 
curiosity. One of the most beautiful embassies and 
ambassadorial residences that we have in the world, in my view, 
is the one in Prague.
    Secretary Eizenstat. The nicest.
    Senator Biden. And I actually tried to give money to 
refurbish that swimming pool downstairs because I think that 
people who worked--at the time, that was behind the Iron 
Curtain. And I mean this sincerely, I thought that was the 
least we could do for the people who were over there and 
working there, and assuming the Ambassador made it available to 
the staff.
    But it is my understanding--I do not know this as a fact--
that that was the property of a prominent Czech Jew who----
    Secretary Eizenstat. The Petschek family.
    Senator Biden. Pardon me?
    Secretary Eizenstat. The Petschek family.
    Senator Biden. Right. Now, if compensation spreads, I mean, 
do we--we now own that, the American Government. I assume--are 
we following up, trying to find the Petschek family and their 
heirs to a----
    Secretary Eizenstat. The Petschek family lives in the 
United States, and in fact--you mentioned the swimming pool. It 
is--for those Senators who have not been there, it is truly the 
most magnificent residence anywhere in the world, even more 
than Paris.
    And there were three Petschek brothers who owned three 
mansions in Prague. One is now the Russian Embassy, the other 
is now the Chinese Embassy, the third is the U.S. Embassy. That 
swimming pool----
    Senator Biden. The Petschek boys did well, did they not?
    Secretary Eizenstat. The swimming pool--there is also a 
wonderful story of how they escaped on their own railway and so 
forth. But that swimming pool which you mentioned, has not been 
used in about 55 years. And the story is that the Petschek 
daughter, a young kid at the time before the war, used the 
swimming pool, got very sick, and the father swore that he 
would never use the pool again, and related her sickness to the 
use of the pool, that she had not dried off and so forth. 
Drained the pool, and it has never been used since.
    My wife was at a function where this story was told, and 
the story was that the daughter had died as a result of this 
swimming episode, at which point, an elderly lady said, ``I did 
not die. I am that daughter.''
    Senator Biden. You are kidding me?
    Secretary Eizenstat. She lives in New York. But, the 
question is a serious question. The Petschek family has not 
made a claim on that. If they do, it is something we will have 
to look at, but at this point, they presumably have been 
willing to let the U.S. Government, who obviously liberated the 
country, occupy that residence. And it has never been claimed.
    Senator Biden. I thank you.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you.
    Thank you, Mr. Secretary. We appreciate your presence here 
today.
    And we will turn now to our next witness who is Mr. Edgar 
M. Bronfman, chairman of the Presidential Advisory Commission 
on Holocaust Assets in the United States. Mr. Bronfman's 
Commission has the arduous task of finding the truth about the 
Holocaust assets that our own Government may have come into 
possession, or control of, following World War II.
    As a commissioned member myself, I would note that even our 
own Library of Congress, just steps away from this building 
may--and I emphasize may--even contain Holocaust assets. Mr. 
Bronfman, we welcome you, sir.

STATEMENT OF EDGAR M. BRONFMAN, CHAIRMAN, PRESIDENTIAL ADVISORY 
     COMMISSION ON HOLOCAUST ASSETS IN THE UNITED STATES; 
    ACCOMPANIED BY KENNETH L. KLOTHEN, EXECUTIVE DIRECTOR, 
  PRESIDENTIAL ADVISORY COMMISSION ON HOLOCAUST ASSETS IN THE 
                         UNITED STATES

    Mr. Bronfman. Thank you, Mr. Chairman. Thank you for 
holding this wonderful committee hearing.
    Senator Smith. You are welcome.
    Mr. Bronfman. Before I go any further, I would ask the 
Chair if I could ask the executive director of the Holocaust 
Commission to join me so--in case there are any questions later 
that I do not know.
    Senator Smith. We are delighted to have him join you.
    Mr. Bronfman. Mr. Ken Klothen is his name.
    With your permission, Mr. Chairman, I would like to submit 
my full statement for the record and summarize it here.
    Senator Smith. Without objection, we will include it.
    Mr. Bronfman. We have all heard from Elie Wiesel and Stuart 
Eizenstat about Holocaust issues around the world. Also, I want 
to commend you, sir, for what you said, and Senator Biden for 
what he said on the subject.
    I am always very conscious of the problem of Holocaust 
fatigue, being in the business of reminding people over and 
over and over again of what happened about 50-odd years ago. 
But I will focus my remarks on the gold, art, and financial 
property of Holocaust victims that came into the possession or 
control of the U.S. Government since that is what our 
Commission is about.
    From before the day in late 1940 when President Roosevelt 
declared the United States the ``Arsenal of Democracy'' against 
the Nazis, we have held ourselves to a different standard--the 
standard of the truth.
    When F.D.R. spoke to the American people at the fireside 
chat that December, he noted:

    During the past week, many people of all the nations have 
told me what they wanted me to say tonight. Almost all of them 
expressed a courageous desire to hear the plain truth about the 
gravity of the situation. One telegram, however, expressed the 
attitude of the small minority who wanted to see no evil, hear 
no evil, even though they know in their hearts that evil 
exists. The gist of the telegram was, ``Please, Mr. President, 
do not frighten us by telling us the facts.''

    President Roosevelt did tell the American people the truth 
that night, on the argument for arming our allies. Within a 
year, the United States had formally declared war on Germany 
and Japan.
    More than 50 years later, it was the same relentless 
American pursuit of the truth that led to the renewed push for 
moral reparations for Holocaust victims and their family. 
Americans were first leading the inquiries into Nazi-looted 
gold in Swiss banks; dormant accounts in those banks; insurance 
policies; slave and forced labor; and looted art.
    It was the American Government--including the U.S. Senate--
and American-based non-governmental organizations that led the 
fight for justice. At the same time, we had to look at 
ourselves.
    Despite our leadership in returning stolen property during 
and after World War II, our actions were not without concerns. 
The President and the Congress, therefore, worked together in 
1998 to create the Presidential Commission for two primary 
purposes: No. 1, to investigate the truth about the assets of 
Holocaust victims that came into the possession or control of 
the U.S. Government, and No. 2, to recommend actions to pursue 
justice for Holocaust victims and their families.
    We brought together a group of prominent Americans to serve 
on this Commission. We all recognized that because of America's 
leadership and the fight for truth, this Commission will be 
looked at worldwide as for how it does its works and for what 
it recommends. For this reason, we have explicitly made the 
pursuit of truth our highest priority. The Presidential 
Commission employs teams of researchers investigating questions 
about No. 1, gold; No. 2, financial assets including bank 
accounts, securities and intellectual property; and No. 3, art 
and cultural property including books, manuscripts, religious 
objects, gems, and jewelry.
    The National Archives has given us an office in their main 
records facility. The Army's Center of Military History has 
provided us a research office and a secured document storage 
area in their headquarters at Fort McNair. I would like to take 
this opportunity to commend the National Archives and the Army 
for their support. You should know that they have done 
everything we have asked them to do, and then more.
    Because we must review approximately 45 million pages of 
documents, we, Mr. Chairman, introduced legislation along with 
Senators Grams, Boxer, and Dodd, to extend the Commission's 
mandate for 1 year.
    The Senate and the House passed this legislation 
unanimously, and I must commend the entire Congress of the 
United States for its bi-partisan attitude toward this whole 
thing from day one.
    I anticipate that our final report will be comprised of two 
parts: No. 1, a historical report that will detail our research 
findings, and No. 2, the Commission's recommendation to the 
President on what legislative and administrative actions should 
be taken to achieve justice.
    In my written statement, I detail many of the topics we 
expect to address in this historical report. Throughout the 
report, we will not mince words or censor ourselves. Our 
actions so far have proven our willingness to ask tough 
questions, follow through, and tell the truth.
    In addition, our work to help declassify Nazi-era 
documents, to identify Nazi-looted books in the Library of 
Congress, and to facilitate searches for artwork with 
questionable history at the National Gallery of Art and 
elsewhere, has already affected the landscape of Holocaust 
assets issues.
    The Presidential Commission has been working closely with 
the Nazi War Criminal Records Interagency Working Group. We 
have helped to facilitate the declassification of 400,000 pages 
of Nazi-
related records by the CIA, the FBI, National Security Council, 
the Justice Department, the State Department, the Department of 
Defense, and other branches of the Government.
    We expect this newly available information to offer a 
clearer picture of the policies and actions of our Government. 
The members of this working group should be commended for their 
hard work and dedication to their mission.
    We have long known that after World War II, the Jewish 
Cultural Reconstruction Organization distributed Jewish books 
that had been looted by the Nazis to American libraries, 
including the Library of Congress. Unfortunately, the Library 
is not able to identify those books today. It cannot say which 
books that it kept and which it sent elsewhere.
    After several months of discussion with us, the Library of 
Congress has agreed to an unprecedented plan in which 
rabbinical students will volunteer their time to review samples 
of the Library's collection. This will help identify the number 
of books looted by the Nazis.
    This information will also help illuminate whether we 
should identify these books individually or take other steps to 
recognize the special and tragic nature of their origin. And we 
appreciate the cooperation of the Library in addressing these 
issues.
    The National Gallery of Art recently implemented the 
suggestion of Commission researchers and found a way to improve 
the database of its Internet website. It now allows a more 
comprehensive search of the known provenance of individual 
works of art.
    Now, anyone anywhere in the world will be able to 
investigate the history of the objects in our National 
Gallery's collection. There still may be specific works of art 
in the Gallery's collection that need further research.
    However, the fact that the National Gallery took the lead 
to make its records more transparent helps demonstrate the 
American commitment to finding the truth. This cooperative 
relationship speaks volumes about our Government's openness and 
willingness to ask itself the challenging questions.
    The Presidential Commission will hold a hearing on Nazi-
looted art and their cultural property in New York City next 
week, on April 12. At this hearing, we will focus on the roles 
of other American museums and art dealers.
    We will also hear testimony about recent actions to 
restitute Nazi-looted artworks and the specific challenges of 
tracking looted Jewish cultural property. Please note, Mr. 
Chairman, that the vast majority of art plundered by the Nazis 
was not ``world class'' or ``museum quality'' work.
    Most of what was taken were paintings of the type owned by 
successful, but not extremely wealthy families, domestic silver 
and household artifacts, and, of course, many Jewish religious 
books and other religious items. Members of the Commission 
realize that though we hear about ``old masters'' and similar 
paintings taken from the wealthiest collectors or most 
successful dealers, they make up only a fraction of the 
numerically more significant theft.
    Among the witnesses we will hear from are an expert on 
Jewish cultural property from the Jewish Museum in New York, a 
representative of the New York State Holocaust Claims 
Processing Office, the leading art loss investigator and the 
directors of the Metropolitan Museum of Art in New York, the 
Museum of Modern Art in New York, Boston Museum of Fine Arts, 
and North Carolina Museum of Art.
    In the course of the Presidential Commission's work, we 
have discovered new areas of inquiry that must be examined. 
These additional activities include a review of agreements that 
may have existed between the United States and Western European 
countries on the restitution of property to individuals; a 
review of bank and travel agent records of assets transferred 
to the United States by Holocaust victims; and, the project 
that would cross-match records of Holocaust victims with 
unclaimed property lists.
    Completing this extra work will require additional 
resources. For this reason, the President sent a supplemental 
funding bill to the Congress last week that includes $1.4 
million for the Presidential Commission. I hope that the 
Congress can support these necessary additional resources for 
our work.
    In conclusion, Mr. Chairman, the irony of the central role 
of the truth in President Roosevelt's Arsenal of Democracy, is 
that the truth about the Holocaust was not always told to the 
American people. Historians report that on August 8, 1942, the 
World Jewish Congress representative in Geneva, sent a cable to 
the President of the World Jewish Congress, detailing an 
alarming report.
    According to this 1942 report, Hitler was planning that all 
Jews to be--after deportation and concentration, be 
exterminated at one blow to resolve once and for all the Jewish 
question in Europe. The State Department's reaction was to 
refuse to give the cable to the World Jewish Congress 
President.
    After he got a copy of the cable from the British, he 
passed it on to the Under Secretary of State, who asked him not 
to make the contents public. He did not make it public. He did 
tell President Roosevelt, members of the Cabinet, Supreme Court 
Justice Felix Frankfurter about the cable's contents. Not one 
of them chose to speak publicly about this issue, and there is 
no evidence that any of them acted on it.
    The U.S. Government finally acknowledged the report some 
months later, but the questions remain: How many lives could 
have been saved had we responded to this clear warning earlier 
and with more vigor? What was the cost of hiding the truth to 
the American people and the world?
    We cannot answer these questions with precision. However, 
they do suggest one clear response: We cannot afford not to 
tell the truth about the American Government and Holocaust 
assets.
    When signing into law the bill of the Presidential 
Commission, President Clinton declared that:

    The Commission's research demonstrates irrefutably that we 
the United States are willing to hold ourselves to the same 
high standard of truth about the Holocaust assets to which we 
have held other nations. The Presidential Advisory Commission 
sends a strong message, both at home and abroad, that we are 
committed to examining difficult aspects of our history and 
determining how to build a better world for our children in the 
next millennium.

    The Presidential Commission bears this responsibility fully 
and proudly. I look forward to sharing with you the final 
results of our work at the end of this year.
    And, of course, I will answer any questions that you may 
have.
    Senator Smith. Thank you very much, Mr. Bronfman.
    [The prepared statement of Mr. Bronfman follows:]

                Prepared Statement of Edgar M. Bronfman

    Mr. Chairman and members of the Committee, thank you for inviting 
me to speak to you today about the work of the Presidential Advisory 
Commission on Holocaust Assets in the United States, which I chair. I 
would particularly like to thank the Senator from Oregon, Mr. Smith, 
both for his efforts in helping to convene this important hearing and 
for the work he has put in as a member of the Presidential Commission. 
I would also like to thank Senators Boxer and Dodd for their work as 
members of the Presidential Commission.
    My friends Elie Wiesel and Deputy Secretary of the Treasury Stuart 
Eizenstat are speaking to you today about the state of Holocaust assets 
issues around the world. I would like to focus my remarks more narrowly 
on those Holocaust assets that are at the center of the Presidential 
Commission's work--the gold, art, and financial property of Holocaust 
victims that came into the possession or control of the United States 
government before, during, and after World War II.
    From before the day in late 1940 when President Roosevelt declared 
our nation the ``Arsenal of Democracy'' against the threat of Nazi 
aggression, the United States had assumed a singular status among the 
parties involved in Europe because we held ourselves to a different 
standard--the standard of the truth.
    When President Roosevelt spoke to the American people in his 
fireside chat that December, he noted:

          During the past week many people in all parts of the nation 
        have told me what they wanted me to say tonight. Almost all of 
        them expressed a courageous desire to hear the plain truth 
        about the gravity of the situation. One telegram, however, 
        expressed the attitude of the small minority who want to see no 
        evil and hear no evil, even though they know in their hearts 
        that evil exists . . . The gist of that telegram was: ``Please, 
        Mr. President, don't frighten us by telling us the facts.''

    Roosevelt did tell the American people the truth that night--the 
facts about armaments and weaponry, about Hitler's desire for world 
domination and the possibility that he might achieve it. The truths 
that Roosevelt discussed that night carried the argument for arming our 
allies. Within a year, the United States had formally declared war on 
Germany and Japan.
    More than 50 years later, it was the same relentless American 
pursuit of the truth that led to the renewed push for moral reparations 
for Holocaust victims and their families. Americans were first--leading 
the inquiries into Nazi-looted gold in Swiss banks; dormant accounts in 
those banks; insurance policies; slave and forced labor; and looted 
art. It was the American government--including the United States 
Senate--and American-based non-governmental organizations that led the 
fight for justice.1
    At the same time, the history of our own actions had to be subject 
to the same scrutiny other nations received. Despite America's 
leadership role in returning stolen property following World War II, 
our actions were not without concerns. The President and the Congress 
therefore worked together in 1998 to create the Presidential Advisory 
Commission on Holocaust Assets in the United States for two primary 
purposes: (1) to investigate the truth about the assets of Holocaust 
victims that came into the possession or control of the United States 
government and (2) to recommend actions to pursue justice for Holocaust 
victims and their families.
    We brought together a group of prominent Americans to serve on this 
Presidential Commission, all of whom recognize that because of the 
America's leadership in the fight for the truth about the Holocaust 
this Commission will be looked at worldwide as much for how it does its 
work as for what it recommends. For this reason, the Presidential 
Commission has explicitly made the pursuit of the truth its highest 
priority.
    In addition to Senators Smith, Boxer, and Dodd, Senator Arlen 
Specter serves on the Commission. The other 17 Commissioners represent 
the House of Representatives, the private sector, the United States 
Holocaust Memorial Commission, and the Departments of the Army, 
Justice, State, and Treasury. Among our members are the former 
Commissioner of Internal Revenue, Margaret Milner Richardson; the Chair 
of the Board of Directors of the American Gathering of Jewish Holocaust 
Survivors, Roman Kent, himself a Holocaust survivor; and the President 
of Brandeis University, Dr. Jehuda Reinharz, much of whose academic 
work focuses on the Holocaust.
    The Presidential Commission employs teams of researchers 
investigating questions about (1) gold; (2) financial assets including 
bank accounts, securities and intellectual property; and (3) art and 
cultural property including books, manuscripts, religious objects, 
gems, and jewelry. The National Archives has given us an office in 
their main records facility, and the United States Army's Center of 
Military History has provided us a second research office and a secure 
document storage area in their headquarters at Fort McNair. I would 
like to take this opportunity to commend the National Archives and 
Records Administration and the Department of the Anny for their 
support. You should know that they have done everything we have asked 
of them and more.
    Because the Presidential Commission found it must review 
approximately 45 million pages of documents that are relevant to its 
work, Senator Gordon Smith introduced legislation with Senators Grams, 
Boxer, and Dodd that passed unanimously last year and extended the 
Commission's mandate for one year, making our final report due to the 
President at the end of calendar year 2000. The House passed similar 
legislation, also unanimously. I am pleased to report that the 
Presidential Commission expects to deliver its report on time.
    I anticipate that our final report will be comprised of two parts: 
(1) a historical report that will detail the Presidential Commission's 
research findings and (2) the Commission's recommendations to the 
President on what legislative and administrative actions should be 
taken to achieve justice.
    Among the topics we expect to address in the historical report are:

  <bullet> The agencies that took control of victim assets for the 
        United States Government before, during, and after the war,
  <bullet> The policies of these controlling agencies including where 
        they originated and how they developed,
  <bullet> The universe of assets subject to American control including 
        assets under American control,
  <bullet> Estimates of victim's assets looted by the Nazis and 
        received by the United States and estimated percentage of 
        victim wealth passing into or through American hands,
  <bullet> American restitution policies and procedures in the United 
        States and in Europe,
  <bullet> How heirless assets were treated under the restitution 
        policies,
  <bullet> Deviations, misappropriations, diversions and theft, and
  <bullet> What research remains to be done.

    Throughout the report, the Presidential Commission will not mince 
words or censor itself, and the Commission's actions so far have proven 
our willingness to ask tough questions, follow through, and tell the 
truth.
    In addition to our historical role, the Presidential Commission has 
already affected the landscape of Holocaust assets issues. Examples of 
this are our work to help declassify Nazi-era documents, identify Nazi-
looted books in the Library of Congress, and facilitate searches at the 
National Gallery of Art and elsewhere for artwork with questionable 
history, as well as our interim report on the mystery of the Hungarian 
Gold Train.
                    declassifying nazi-era documents
    The Presidential Commission has been working closely with the Nazi 
War Criminal Records Interagency Working Group and has helped 
facilitate the declassification of 400,000 pages of Nazi-related 
records by the Central Intelligence Agency, the Federal Bureau of 
Investigation, the National Security Council, the Justice Department, 
the State Department, the Department of Defense, and other branches of 
the United States government. We expect this newly available 
information to offer a clearer picture of the policies and actions of 
our government before, during, and after the Holocaust. The members of 
this Interagency Working Group should be commended for their hard work 
and dedication to their mission.
              nazi-looted books in the library of congress
    It has long been known that after World War II, the Jewish Cultural 
Reconstruction Organization distributed books that had been looted by 
the Nazis from individuals who later perished in the Holocaust to 
American libraries, including the Library of Congress. Unfortunately, 
because of common record-keeping practices, the Library is not able to 
identify those books today, or to say which books it kept and which it 
sent to other institutions.
    After several months of discussion with the Commission, the Library 
of Congress has agreed to an unprecedented plan in which rabbinical 
students will volunteer their time to review a sample of the Library's 
collection to help identify the number of books looted by the Nazis. 
This information will help illuminate whether it is advisable to 
identify these books individually or take other steps to recognize the 
special and tragic nature of their origin. The Commission appreciates 
the cooperation of the Library in addressing these issues.
      nazi-looted art in the national gallery of art and elsewhere
    The National Gallery of Art, implementing the suggestion of 
Commission researchers, recently found a way to improve the database on 
its Internet website to allow more comprehensive searches of the known 
provenance of individual works of art. Now, anyone anywhere in the 
world will be able to investigate the history of the objects in our 
national gallery's collection. While there still may be specific works 
of art in the Gallery's collection that need further research, the fact 
that the National Gallery took the lead to make its records more 
transparent so that appropriate questions can be raised helps 
demonstrate the American commitment to finding the truth. This 
cooperative relationship speaks volumes about our government's openness 
and willingness to ask itself the challenging questions.
    The Presidential Commission will hold a hearing on Nazi-looted art 
and cultural property in New York City next week, on April 12. At this 
hearing, we will focus on the roles of other American museums and art 
dealers, as well as hear testimony about recent actions to restitute 
Nazi-looted artworks and the specific challenges of tracking looted 
Jewish cultural property.
    Please note that the vast majority of art plundered by the Nazis 
was not ``world class'' or ``museum quality'' work. Most of what was 
taken were paintings of the type owned by successful--but not extremely 
wealthy--families, domestic silver and household artifacts, and, of 
course, many Jewish religious books and other religious items. The 
members of the Commission realize that though we hear a lot about Old 
Masters and similar paintings taken from the wealthiest collectors or 
most successful dealers, they make up only a fraction of the 
numerically more significant theft.
    Among the witnesses we will hear from are an expert on Jewish 
cultural property from the Jewish Museum in New York, a representative 
of the New York State Holocaust Claims Processing Office, and a leading 
art loss investigator. We will also hear from the following 
individuals:

  <bullet> Philippe de Montebello, the Director of the Metropolitan 
        Museum of Art in New York (the Met). The Met said recently that 
        it will publish a study showing how many of its two million 
        works of art it has scrutinized to see if the Nazis might have 
        looted them. Mr. de Montebello has been invited to release the 
        study at the hearing.
  <bullet> Mr. Glen Lowry, the Director of New York's Museum of Modern 
        Art (MOMA). The MOMA said recently that it would consider 
        identifying which of a dozen works of art it is studying to 
        find out whether they are Nazi loot. Mr. Lowry has been invited 
        to make the identification at the hearing.
  <bullet> Mr. Malcolm Rogers, the Director of the Boston Museum of 
        Fine Arts (MFA). The MFA is scrutinizing 15 to 20 paintings to 
        see if the Nazis may have stolen them. Mr. Rogers has been 
        invited to give status report at the hearing.
  <bullet> Dr. Lawrence Wheeler, the Director of the North Carolina 
        Museum of Art will testify to the Presidential Commission about 
        how his museum recently returned a painting by Cranach the 
        Elder to two Viennese sisters from whose family it was 
        originally looted.

           update on the mystery of the hungarian gold train
    In October, the Presidential Advisory Commission on Holocaust 
Assets in the United States released a progress report on its research 
into the ``Hungarian Gold Train.''
    This progress report raised the possibility that the United States' 
policies with regard to restitution were altered or ignored in light of 
other concerns. This report received significant coverage in the media 
here and abroad and clearly established the principle that while many 
of the Presidential Commission's findings may praise American 
activities, some may not, and our highest priority is discovering the 
truth.
    In the United States, the public reception to the report was 
overwhelmingly positive despite the fact that it broke with 
conventional American views about our actions in Europe during and 
after World War II.
    In Europe, the report led to re-discovery of records about the 
train that previously could not be found and a series of meetings and 
correspondence between Commission researchers and their analogues in 
several European countries. This has resulted in newly shared 
information that may require us to refine the interim conclusions from 
our October report. But the larger issue--that our openness about less-
than-positive aspects of our past led to similar openness by 
researchers in other countries--strengthens our belief that we should 
pursue the truth without fear or favor.
                      supplemental appropriations
    In the course of the Presidential Commission's work, we have 
discovered new areas of inquiry that must be examined. These additional 
activities include a review of agreements that may have existed between 
the United States and Western European countries regarding the 
restitution of property to individuals; a review of bank and travel 
agent records of assets transferred to the United States by Holocaust 
victims; and, the implementation of a project that would cross-match 
records of Holocaust victims with unclaimed property lists.
    Completing this extra work will require additional resources. For 
this reason, the President sent a supplemental funding bill to the 
Congress last week that includes $1.4 million for the Presidential 
Commission (still leaving the Commission below its authorized level of 
appropriations).
    I hope that the Congress can support these necessary additional 
resources for our work.
                               conclusion
    Mr. Chairman, the irony of the central role of the truth in 
President Roosevelt's Arsenal of Democracy is that the truth about the 
Holocaust was not always told to the American people.
    For instance, historians report that on August 8, 1942, Dr. Gerhart 
Reigner, the World Jewish Congress representative in Geneva, sent a 
cable to Rabbi Stephen Wise, who was the President of the World Jewish 
Congress, detailing ``an alarming report'' that Hitler was planning 
that all Jews in countries occupied or controlled by Germany ``should 
after deportation and concentration . . . be exterminated at one blow 
to resolve once and for all the Jewish question in Europe.''
    The State Department's reaction was to refuse to give the cable to 
Rabbi Wise. After Rabbi Wise got a copy of the cable from the British, 
he passed it along to the Undersecretary of State, who asked him not to 
make the contents public. Rabbi Wise didn't make it public, but he did 
tell President Roosevelt, members of the cabinet, and Supreme Court 
Justice Felix Frankfurter about the cable's contents. None of them 
chose to speak publicly about this issue, and there is no evidence that 
any of them acted on it.
    The United States government finally did acknowledge the report 
some months later, but the questions remain: how many lives could have 
been saved had we responded to this clear warning of the Holocaust 
earlier and with more vigor? What was the cost of hiding the truth from 
the American people and the world?
    While we cannot answer these questions with precision, they do 
suggest one clear response--we cannot afford not to tell the truth 
about the American government's actions regarding Holocaust assets.
    When signing into law the bill to extend the Presidential 
Commission, President Clinton declared that ``The Commission's research 
demonstrates irrefutably that we in the United States are willing to 
hold ourselves to the same high standard of truth about Holocaust 
assets to which we have held other nations . . . (T)he Presidential 
Advisory Commission sends a strong message, both at home and abroad, 
that we are committed to examining difficult aspects of our history and 
determining how to build a better world for our children in the next 
millennium.''
    The Presidential Commission bears this responsibility fully and 
proudly, and I look forward to sharing with you the final results of 
our work at the end of this year.

    Senator Smith. We appreciate so much your efforts in this. 
And I guess my question is: Is there anything that this 
committee can do more of to facilitate you and the Commission 
in getting your final report out, and getting the best result 
possible? Is there any influence we can lend, budgets we can 
pass?
    Mr. Bronfman. Well, I do not think it is a matter of money 
at this point. I think the only thing that the U.S. Senate can 
do through this committee, is to implore others to make sure 
that their archives are available to us, just as we have opened 
and declassified so many documents here. We do not get the same 
speed and the same reaction from all other governments in 
Europe.
    Senator Smith. When you alert us to specific instances 
where we can weigh in as a committee, I bet I can get a lot of 
Senators on this committee to sign a letter and to help pry 
open some of these archives.
    Mr. Bronfman. Yes, no question, Senator, we will.
    Senator Smith. We will respond right away, as soon as you 
identify them.
    Mr. Bronfman. Thank you.
    Senator Smith. We are rejoined by Senator Wellstone. I 
apologize to him. We did not get to him earlier when Professor 
Wiesel was here.
    But, Senator, would you like to make a statement or ask 
questions?
    Senator Wellstone. No, I have--no, thank you, Mr. Chairman. 
My apologies. I want to thank you for your graciousness.
    We have had a debate on the budget, and so I was back and 
forth to the floor. And I hate coming in and out and have to do 
it yet even again, but the one question I would like to ask is: 
Are there--you alluded to this in your testimony. Are there 
major obstacles to the Commission's work from some of the other 
countries, and which others?
    Mr. Bronfman. I think the only area that I know of is the 
question of archives. Perhaps Ken, you would like to----
    Mr. Klothen. Senator Wellstone, I think the chairman is 
correct. That is the single, biggest question mark that remains 
in this whole area of Holocaust historical research, and that 
is what is in a number of archives that have not yet been 
reviewed.
    These archives are not just in places where you would 
expect like the former Soviet Union, the countries of Eastern 
Europe, but also in some Western European countries where 
documents are unavailable because of salutary reasons like 
privacy legislation and things like that. Nevertheless, it is a 
problem for Holocaust research.
    I think there is a great deal of cooperation among the 18 
historical commissions that Secretary Eizenstat spoke about. 
Nevertheless, it is something that demands continued vigilance.
    Senator Wellstone. I will have to read Secretary 
Eizenstat's--I missed his testimony. I did hear Mr. Wiesel's. I 
will definitely read it.
    Thank you.
    Senator Smith. Senator Sarbanes.
    Senator Sarbanes. Thank you, Mr. Chairman.
    First of all, I am very pleased to welcome Edgar Bronfman 
before the Congress. We worked together on the Banking 
Committee with Senator D'Amato some years ago to get, sort of, 
this latest round of attention of these issues focused. And I 
am pleased to have you back before the committee.
    I just have one question. I want to be certain--you said 
that you did not need any--the Commission did not need any more 
money. But I want to be certain that the time frame and the 
money frame within which you are working are adequate for you 
to do the job completely.
    And here is my concern: Once you finish and do your report 
and so forth, I think the question of getting an effort up and 
going once again, if we then judge that somehow we were not 
thoroughly complete in this round, may well be difficult. Who 
knows?
    But, it will obviously then be met with the argument, 
``Well, we did a Commission. They did a report. That is sort of 
the end of it.''
    So, frankly, if you have some doubt about that, we ought to 
give you yet some more time and some more resources. I mean, 
this is a matter of judgment because obviously we want the 
report, the sooner the better because things fall from it.
    But I am just searching to get some assurance from your 
point of view that this is an adequate time frame, and an 
adequate resources framework within which to complete the job, 
because I just anticipate that if we then come back and want to 
revisit this in the near future, we will be met with that kind 
of argument.
    Mr. Bronfman. I think you are making a very good point. We 
will definitely have a report by the end of the year, which was 
our challenge. But in the course of our research, of course, 
many things get kicked open all the time.
    And it may be that during the summer which is when we will 
be meeting continually and in the early fall, we may have to 
come back and say, ``We need to have some supplemental money 
because of this, this, this, and the other lines of 
investigation that we just must follow.''
    But, at this moment in time, sir, I cannot ask for more 
money because I cannot be specific about for what we need the 
money.
    Senator Sarbanes. Right.
    Mr. Bronfman. And the time, well, that would be early fall. 
We will know then whether we need more to continue the leads or 
not.
    Senator Sarbanes. Well, I just hope you will be very 
sensitive to this concern because I think in response to the 
chairman's question, that is another way we could help the 
Commission, if, in fact, you discern that that is necessary.
    And I think it is important if it is needed--if you 
calculate that it is needed, to get that extension within the 
context of not yet having totally finished your work, than to 
have you come in sort of totally having finished your work and 
then trying subsequently to reestablish this effort. I think 
that is important. And I appreciate--I think you are very 
sensitive to it, and we will work on that together.
    Mr. Bronfman. We are, Senator, and I am thrilled with the 
sense of the committee, at its willingness to help us if we 
need to have more financial support.
    Ken, do you want to add anything to this? I know you are 
itching to say something.
    Mr. Klothen. Well, I did want to say that as Chairman 
Bronfman mentioned in his prepared remarks, that we are 
included for an additional $1.4 million in the President's 
supplemental appropriation request. That is budgeted to take on 
some of these things that have opened up in the course of our 
research.
    That said, however, I think it is also fair to say without 
prejudging the ultimate conclusions that the Commission will 
draw, that in the course of our research, we have come across 
areas that we have set aside saying that within the time frame 
and within the budget constraints that are available to us, 
this is not going to be answerable, and will have to be left 
for later. And we will make a recommendation that this is an 
area that requires further research.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Senator Smith. I thank you very much, Senator Sarbanes.
    Edgar Bronfman, we thank you, and the Commissioner as well, 
we thank you for being here and for sharing your testimony. And 
please let us know when we can be helpful.
    Senator Biden. Mr. Chairman, I----
    Senator Smith. Oh, if you can hold on. Senator Biden did 
have a question.
    Senator Biden. More of a comment, Mr. Bronfman, than a 
question. I will be very, very brief. I was--I felt more 
comfortable when you owned Delaware, No. 1.
    And No. 2, I want you to know we have something else in 
common. There is a fellow who literally saved my life, who you 
have and your family have helped a great deal in terms of the 
research and funding for the University of Virginia, Department 
of Neurosurgery, Neil Cassells.
    He is a first-rate guy. And I just wanted you to know what 
he is doing is incredible. And what you are enabling him to do 
is even more incredible. So I just wanted to publicly thank you 
for that.
    Mr. Bronfman. We are having dinner Friday night, and I will 
relay that to him.
    Senator Biden. Oh, really? I mean, he is--I probably should 
not tell you this. He operated on me twice--co-operated on me 
twice and I never saw him. I had two aneurysms. And my son 
said, ``This is a wonderful guy. You should meet him.''
    And my son was a senior at Georgetown University at the 
time. And he arranged it after I recovered after 7 months, came 
back to work, and we met him in a restaurant. I had never seen 
him. Every time I would roll into the operating room, I was out 
and he was--to make a long story short, I sat down with him. 
And he is very engaging, and we became friends.
    But his first comment was, ``Senator, what do the angels 
sound like?'' And I looked at him like, this guy operated on 
me? This guy must be nuts.
    He said, ``No, you were clinically dead.'' And he has a 
serious interest as you probably know, in wondering what people 
who--what they see, or think, or if there is any experience 
after.
    I said, I do not remember a damn thing. I guess that must 
not mean much.
    I said, all I remember is blinding white light.
    He said, ``Everybody says that.''
    So, tell him when he figures out what that means, let me 
know whether I am going there or there, which way I am heading. 
I would like to know.
    Mr. Bronfman. I will, Senator.
    Senator Biden. All right. Thank you very much. Thank you 
for your help.
    Senator Smith. Thank you, Senator Biden.
    And again, we thank you both for participating with us 
today and for all you are doing on this issue.
    We have a final panel, our fourth, to examine another 
legacy of the Holocaust, that of the continuing prevalence of 
anti-Semitism abroad. Two of our witnesses I asked to appear 
before this committee last year to testify on a similar 
subject, the rise of anti-Semitism abroad.
    We welcome today Mr. David Harris, executive director of 
the American Jewish Committee. We also welcome Mr. Mark B. 
Levin, executive director of NCSJ, Advocates on Behalf of Jews 
in Russia, Ukraine, the Baltic States, and Eurasia. And we 
finally welcome Rabbi Israel Singer, secretary general of the 
World Jewish Congress.
    And we welcome you all, and we will start, David, with you.

  STATEMENT OF DAVID A. HARRIS, EXECUTIVE DIRECTOR, AMERICAN 
                        JEWISH COMMITTEE

    Mr. Harris. Thank you, Mr. Chairman. First of all, permit 
me to express my deepest appreciation to you and to your 
distinguished colleagues for holding this important and timely 
hearing, and for affording me the opportunity to testify before 
the Committee on Foreign Relations about the state of anti-
Semitism in Europe and the Middle East.
    I applaud the committee's deep and longstanding interest in 
the Holocaust and its legacy, as well as in the subject of 
anti-Semitism.
    I am also honored, Mr. Chairman, to share the role of 
witness together with Elie Wiesel, Stuart Eizenstat, Edgar 
Bronfman, Israel Singer, and Mark Levin, all of whom I respect 
and consider friends.
    Mr. Chairman, I will be excerpting from my written 
testimony, but ask that the full testimony be included in the 
record.
    Senator Smith. Without objection.
    Mr. Harris. Let me, if I may, deviate for just a second 
from what I have prepared, in reaction to a comment that was 
made by Senator Boxer.
    One of the reasons that this hearing is so important, 
Senator Smith, is because of the press of time. Senator Boxer 
indicated that--and I would like to illustrate it for you in a 
very personal way. The Austrian National Fund was created 
several years ago. My father, who lived many years of his life 
in Austria, was not certain whether to apply for the Austrian 
National Fund or not.
    He called it blood money, conscience money. And he did not 
want to give the Austrians the satisfaction of accepting it, 
should he be found eligible. But after some hemming and hawing 
and as his mortality became apparent, he decided to apply for 
it, mostly because he wanted some acknowledgment from the 
Austrians of the suffering that had been inflicted upon him. He 
submitted the papers with hesitation, but with my 
encouragement.
    And then he was caught in a bureaucratic morass where he 
was told that he had not fully demonstrated eligibility. This 
went back and forth for some months, and my father said to me, 
``I told you I should not have done this.''
    In November 1998 at the Washington Conference on Holocaust 
Era Assets, the director of the Austrian National Fund 
approached me, and said, ``David, we sorted out the problems of 
your father, and I am pleased to say that he can receive 70,000 
Austrian shillings.''
    And I said to this very able and dedicated woman, there is 
only one problem. My father is dead.
    I think this illustrates the importance of this hearing, 
and the urgency of time, and the need to get on with the 
distribution of the funds that have been made available through 
the indefatigable efforts of a number of the people who have 
testified before this committee today.
    Mr. Chairman, I have the privilege of representing the 
American Jewish Committee, the oldest human relations 
organization in the United States. For 94 years, we have 
espoused a steadfast vision of promoting ethnic and religious 
understanding worldwide.
    This vision has only grown more crucial with the passage of 
time, and especially since the end of the cold war. Although 
the focus of my testimony is on anti-Semitism in Europe and the 
Middle East, we fully recognize that the broader problems of 
intolerance affect every corner of our globe, including our own 
country, and indeed may well prove one of the most daunting and 
intractable challenges of the 21st century.
    Allow me, Mr. Chairman, to focus first on Europe. I will 
leave the former Soviet Union aside, as Mark Levin will be 
addressing that in his testimony.
    Historically, much of the hatred of Jews in Europe, the 
discrimination, the creation of the ghettos, and the physical 
attacks against Jewish communities resulted from religiously 
inspired anti-Semitism. On this front in the past several 
decades, there has, as we all know, been dramatic change.
    The Catholic Church, beginning in 1965 at the Second 
Vatican Council and centrally in the current papacy of Pope 
John Paul II, and many of the Protestant churches including, 
importantly, the Lutheran church, have taken truly historic 
steps over the last half century to end the teaching of 
contempt of Jews and Judaism, and to forge positive bonds with 
the Jewish people worldwide.
    Two and three decades ago, we saw the strongest expressions 
of anti-Semitism in Europe coming from the extreme left. Often 
cloaked in anti-Zionism, extremist left-wing groups such as the 
Italian Red Brigades and the German Baader-Meinhoff 
collaborated with Arab terrorist groups in acts of violence 
against Jewish and Israeli targets.
    Working in Europe in the late 1970's with the flow of 
Jewish refugees from the Soviet Union and Eastern Europe, I was 
personally aware of and very close to the real danger posed by 
this nexus. Most recently, however, this threat seems to have 
been reduced, not eliminated, but reduced.
    Today, it is the far-right in Europe that espouses anti-
Semitism most virulently. The threat is not only physical. One 
of its favorite tactics, as has been referred to both by 
Professor Wiesel and by Senator Sarbanes, is the pursuit of 
Holocaust denial, by maintaining that the Jews simply ``made 
up'' the Holocaust, and have ``hoodwinked'' the world into 
believing a lie. Neo-Nazis seek to reverse images and convince 
the world that they are, in fact, the true victims.
    Unfortunately, Mr. Chairman, it must be acknowledged that 
much of the published material that fuels Holocaust denial in 
Europe, where it is banned by many countries, actually comes 
from the United States.
    In the last decade, extreme right-wing parties have entered 
mainstream politics. The chart \2\ on the easel, Appendix A in 
our testimony, shows the countries in which ultra-right-wing 
parties have received a significant degree of popular support.
---------------------------------------------------------------------------
    \2\ This chart and additional charts and material for the record, 
referred to during Mr. Harris' testimony, appear in his prepared 
statement beginning on page 65.
---------------------------------------------------------------------------
    The countries include Austria, Switzerland, Norway, 
France--prior to 1999, when Jean Marie Le Pen's National French 
Party split apart--Belgium, Italy, and Hungary; and the 
percentage of the vote they have garnered ranges from 5.5 to 
27.2.
    Allow me to spend a moment on Austria's Freedom Party and 
its inspiration, Jorg Haider, who has managed to create the 
most successful xenophobic party in postwar Europe, gaining 
27.2 percent of the national vote in October 1999.
    This next panel shows the dramatic record of this party's 
rise over the last 15 years, from 1986 until 1999.
    Haider's success is due to several factors. First, he was 
seen as a bold and telegenic young leader who would introduce 
change after what was perceived as an interminable reign of the 
conservative-socialist coalition.
    Second, he was seen as someone who would stand up for the 
``rights'' of Austrians against the growing number of refugees 
who had entered the country.
    And last, but by no means least, Haider and his colleagues 
in the Freedom Party have catered to the worst sentiments of 
ultra-nationalism, nostalgia, and, yes, historical revisionism 
in the Austrian populace.
    Appendix B-2, which is in my full testimony, illustrates 
just a few of the most offensive statements coming from Freedom 
Party spokesmen.
    What are the lessons to be learned? Germany, for one, it 
must be said, has been exemplary in its efforts to educate its 
population about the history and the contemporary meaning of 
the Nazi era. It is no coincidence, then, that the far-right 
has not found its way into the mainstream in National German 
politics, but has largely been relegated to the margins.
    Though there are no sure-fire formulas, education and a 
clear and consistent stand by a nation's political, cultural, 
and religious leaders can be said to generally strengthen 
immunity against Holocaust denial and hate.
    Sweden should also be mentioned in this context. Prime 
Minister Goran Persson brought together an impressive gathering 
of high-level political officials in Stockholm this January to 
discuss the importance of Holocaust education.
    Our country's delegation was led by the Deputy Secretary of 
the Treasury Stuart Eizenstat, whose efforts on behalf of 
Holocaust survivors and the restitution of looted Holocaust-era 
assets have been both inspiring and decisive.
    Moreover, the Jewish American Committee applauds the 
European Union and the State of Israel for their principled 
decision to reduce diplomatic ties to Austria in the wake of 
the Freedom Party's inclusion into the ruling coalition, a 
stance that sent a strong message to Austria that far-right 
participation in governance will not be accepted in the 
international political mainstream.
    Further, some political leaders to their credit have 
managed to marginalize the far-right by mobilizing the national 
mainstream. The massive French demonstrations led by then-
President Francois Mitterand in reaction to a particularly vile 
Jewish cemetery desecration in Carpentras in 1990; the peaceful 
demonstrations of Austrian students against Joerg Haider in the 
streets of Vienna; the strong reaction of Italian authorities 
to the bizarre appearance of Nazi symbols and slogans at some 
of the major national soccer matches in Rome and elsewhere; and 
the frequent public comments repudiating anti-Semitism by Czech 
President Vaclav Havel are laudable examples of this.
    I personally can attest to the power of solidarity so 
overwhelmingly evident when people of goodwill came together in 
masses, as they did at the Muslim funeral which I attended in 
Cologne, in 1995 for five Turkish women from Solingen, Germany, 
who were killed when neo-Nazis firebombed their homes.
    On the other hand, Mr. Chairman, the deafening silence of 
Polish President Lech Walesa in 1995, when Father Jankowski, 
Walesa's parish priest in Gdansk, delivered a vituperative 
anti-Semitic speech in the presence of the President, is a 
glaring example of how not to respond.
    Our country, Mr. Chairman, has a vital role to play in the 
international arena and especially the multilateral arena, by 
taking a more active stance in ensuring that the United Nations 
and other international organizations face the important 
challenge of reducing anti-Semitism per se, rather than 
allowing it to fall victim to indifference or, even worse, the 
cynical political maneuverings of some nations.
    Allow me now, Mr. Chairman, to turn briefly to the subject 
of anti-Semitism in the Middle East, which is driven largely by 
Arab political rejectionism and Islamic extremism.
    As mentioned earlier, Middle East terrorism has also been a 
driving force of crimes against Jews and others in Europe and 
will continue to require careful monitoring and intelligence-
sharing among democratic countries who are its potential 
targets.
    The situation in the Middle East is worrisome, and 
politically dangerous, since it poisons the atmosphere 
surrounding the promising, if enormously complex, Arab-Israeli 
peace process.
    From Egypt to Jordan, to the Gulf nations of Qatar and the 
United Arab Emirates, to the Palestinian Authority, the 
official Arab media, sanctioned and often even owned by family 
of its nations' rulers, has frequently spouted Holocaust denial 
and other forms of anti-Semitism, making such outlandish 
accusations as the popular slander that Israel is poisoning the 
Arab people, or infecting Palestinians with the HIV virus, or 
sending Israeli women into the Arab world to undermine moral 
values and spread disease.
    Among the latest public statements by Arab leaders denying 
the facts of the Holocaust were those of the Palestinian 
Authority-appointed Mufti of Jerusalem, Ikrema Sabri, during 
the landmark visit of his holiness, Pope John Paul II, to 
Israel.
    Said Sabri, ``It's true, the number was less than 6 million 
and Israel is using this issue to get sympathy worldwide.'' He 
said it on the Saturday before meeting the Pope.
    The Mufti's comments, reminiscent of his wartime 
predecessor who actually allied himself with Adolf Hitler, 
indicate a deeper and more sinister current espoused by Arab 
political and spiritual leaders that is reflected on the pages 
of both official newspapers and school textbooks.
    Syria's public school textbooks are an example. A new study 
published here in Washington reveals state-sponsored curricula 
replete with anti-Semitism, Holocaust denial, demonization of 
Israel, and open calls to exterminate Jews.
    It is no wonder then, perhaps, that the editor-in-chief of 
the official government newspaper in Syria, Tishreen, recently 
asserted, ``Zionists created the Holocaust myth to blackmail 
and terrorize the world's intellectuals and politicians.''
    I have brought just a few of the offensive cartoons that 
are to be found in the Arab press as well, since a cartoon, 
too, can speak a thousand words.
    This first cartoon was run on February 29, just about 5 
weeks ago, in a mainstream newspaper in Egypt, a country that 
signed a peace treaty with Israel 21 years ago. It shows David 
Levy, the Foreign Minister of Israel, painting a swastika onto 
a building with the caption in Arabic, ``Levy's Diplomacy.''
    Al-Hayat Al-Jedidah, an official Palestinian Authority 
daily with the widest circulation in the territories, published 
this next cartoon at the end of last year.
    While the original has lost something in the copying, what 
is depicted here is a short, grotesque figure with a Star of 
David in the middle. He is labeled in Arabic, ``the disease of 
the century.'' And he is situated between an old man, who 
represents the 20th century, and a young man who denotes the 
21st century.
    And according to recent press reports, Adolf Hitler's 
infamous Mein Kampf, which is officially permitted for 
distribution within the Palestinian Authority, is currently No. 
6 on the best-seller list in PA-controlled areas. And here is a 
copy of the cover of Mein Kampf, which was published in Lebanon 
and is currently being distributed.
    Such frenzied and outrageous anti-Semitic activity in these 
countries deserves heightened attention from the United States.
    It is an inconvenient truth that can no longer be ignored, 
or downplayed, or viewed as little more than an Arab 
negotiating tactic or tendency to hyperbole in the testy Arab-
Israeli peace talks. There is, in short, an urgent need to 
reject this behavior unconditionally.
    The United States is in an unprecedented position to make a 
difference in the Middle East, as we all know; not in all the 
countries of the region, perhaps, but certainly in many.
    Our Government, through appropriate channels, must condemn 
the hateful rhetoric in the clearest of terms and send an 
unambiguous message that this kind of behavior is unacceptable 
and damaging to our national interests, including the quest for 
peace in the region.
    Mr. Chairman, thank you.
    Senator Smith. Thank you, David, for that very powerful 
testimony.
    [The prepared statement of Mr. Harris follows:]
                 Prepared Statement of David A. Harris
    Mr. Chairman, permit me to express my deepest appreciation to you 
and to your distinguished colleagues for holding this important and 
timely hearing, and for affording me the opportunity to testify before 
the Senate Committee on Foreign Relations about the State of anti-
Semitism in Europe and the Middle East. On a personal note, it is a 
pleasure to see you again.
    I have the privilege of representing the American Jewish Committee, 
the oldest human-relations organization in the United States. We were 
founded in 1906 by a group of prominent American Jewish jurists, 
diplomats, and businessmen who felt that wherever in the world Jews 
were threatened, no minority was safe. These esteemed contributors to 
American civic life--men like Cyrus Adler, Louis Marshall, Jacob 
Schiff, and Oscar Straus--sought to promote nationally and 
internationally the concept of legal protection for minorities and the 
uniquely American idea of pluralism.
    They were prompted, I should note, not only by lofty ideals of 
ending intolerance for all, but also by an immediate concern. The 
massacres of Jews in Tsarist Russia in the first years of the twentieth 
century greatly troubled these noble men, and they organized their 
response effort by creating the American Jewish Committee.
    We at the American Jewish Committee have seen over the decades--and 
indeed, as we consider the longer timeline of history--a strikingly 
close correlation between the level of anti-Semitism in a society and 
the level of general intolerance and violence against other minorities. 
Indeed, the treatment of Jews within a given society has become a 
remarkably accurate barometer of the State of democracy and pluralism 
in a society. Where Jews are safe to practice their religion and 
express their identity, all citizens are likelier to be secure; and 
where Jews are endangered, history teaches, it is not long before other 
groups are targeted and mistreated. Bigotry and xenophobia, whether 
expressed against Jews or any other vulnerable minority, are threats to 
the entire social fabric. In effect, it can be said that by dint of our 
historical experience, Jews have become the miner's canary, often 
sensing and signaling danger before others are touched.
    For 94 years, the American Jewish Committee has espoused a vision 
of ethnic and religious understanding worldwide. It has been a 
compelling and constant vision. Rather than losing relevancy, its 
message has grown more crucial with the passage of time. This has been 
especially and painfully apparent since the end of the cold war, as 
ethnic and religious tensions see the, and sometimes break out into 
violence and war.
    At the scholarly level, the American Jewish Committee has conducted 
pioneering research on anti-Semitism. In the post-World War II period, 
we were proud to sponsor the seminal five-volume series, Studies in 
Prejudice, which offered ground- breaking theoretical models, including 
The Authoritarian Personality, still in use today to explain the nature 
of racism and anti-Semitism. We continue to conduct regular surveys of 
attitudes toward Jews and other minorities in the countries of Europe 
and beyond, and to examine tolerance in school curricula and politics 
through published studies and conferences.
    Mr. Chairman, at the outset of my testimony, it seems appropriate 
to ask an age-old question: what is the essential nature of anti-
Semitism? As Professor Daniel Goldhagen of Harvard University has 
written, in the final analysis, the answer is inevitably elusive: 
``Anti-Semitism . . . is only dimly understood. Our apprehension of 
what it is, how it is to be defined, what produces it, how it is to be 
analyzed, and how it functions, remains, despite the volumes.'' The 
problem lies in the ``difficulty of studying its host domain, the 
mind.''
    But while the true essence of anti-Semitism may ultimately remain 
impossible to grasp, its manifestations are easier to identify. 
Throughout history, anti-Semitism has been inherently intertwined with 
cynical political aspirations and maneuverings, and with broader and 
more complex issues of national identity and the social psychology of 
the fanatic. ``The fanatic seeks to oppress all those surrounding him. 
He uses political oppression, economic domination, social slavery and 
the worst of all, oppression of the mind,'' Nobel Laureate Elie Wiesel 
wrote in a powerful essay in Das Judische Echo, an Austrian Jewish 
periodical. ``The fanatic defines himself by his victim's pain and fear 
rather than by his creativity,'' continues Wiesel. ``He feels 
threatened by a mind or soul that is free.''
    Although the focus of this testimony is on anti-Semitism in Europe 
and the Middle East, we fully recognize that the broad problem of 
intolerance affects every corner of our globe, and indeed may prove one 
of the most daunting challenges of the new century. Nor is the United 
States immune. Just last summer, we saw a spate of hate killings in 
Illinois, Indiana, and California, and arson attacks on three 
synagogues in Sacramento, among other tragic acts of hate-inspired 
violence.
    Many democratic governments and people in Europe--a continent 
linked culturally, politically, and economically with our own and 
embarked on the laudable goal of ever closer regional integration--have 
embraced new economic and social trends. But we also see a backlash 
that includes new political and social acceptability for extreme right-
wing parties that espouse intolerance and thinly veiled anti-Semitism. 
Given the brutal history of anti-Semitism in Europe, this bears close 
scrutiny.
    In the Arab world today, the situation is still more disturbing. 
Here, anti-Semitism is open and unvarnished--contradicting entirely the 
diplomatic talk of peace in the region and undermining our longing for 
an end to the Arab-Israeli conflict and full normalization, and a new 
spirit of cooperation and development in the region.
    In both these regions so vital to American interests--Europe and 
the Arab world--it is crucial for us to understand the sources of anti-
Semitism, their scope and magnitude, and the relative danger they 
portend.
                       i. anti-semitism in europe
    Allow me, Mr. Chairman, to focus first on Europe. I will not touch 
on developments in the forrner Soviet Union, as my fellow panelist and 
esteemed colleague, Mark Levin of the NCSJ, will address that topic in 
his testimony.
    There are a number of disturbing incidents and trends that bear 
watching. It is axiomatic that manifestations of anti-Semitism that are 
now current in Europe must be taken extremely seriously. Anti-Semitism 
is the oldest known social pathology, and for centuries, Europe has 
been its primary incubator. Europe has afforded many opportunities to 
Jews over the centuries, including the freedom to pursue a rich 
cultural and intellectual life in various countries at various times. 
But Europe is also the site of blood-soaked chapters of history for the 
Jews. It was not long ago that one man's sick vision of a new social 
hierarchy where Aryans were at the top, Eastern Europeans at the 
bottom, and Jews marked for extinction, caught the brutal fancy of too 
much of continental Europe's supposedly enlightened population and was 
greeted with passive indifference by much of the rest.
    The American Jewish Committee has identified, and continues to 
monitor, six sources of anti-Semitism that at one time or another in 
history have threatened Jews: (1) extreme right-wing, extra-
parliamentary groups; (2) extreme right-wing political parties; (3) 
ethnically or religiously-based models of national identity that 
distinguish, de jure or de facto, among and between a country's 
population groups; (4) extreme left-wing, extra-parliamentary groups; 
(5) church-based anti-Semitism; and (6) Arab and Islamic extremist 
groups operating in Europe.
(1) Extreme right-wing, extra-parliamentary groups
    The most evident sources of anti-Semitic activity in Europe today 
are fringe groups that are driven by extreme right-wing ideologies and 
are overtly neo-Nazi. Their targets are Jews, immigrants, guest 
workers, refugees, Roma and Sinti--in other words, anyone they regard 
as the ``other.''
    Such groups, which also operate in the United States, are cause for 
deep concern. They promote hate and are responsible for bone-chilling 
violent crimes and despicable acts of domestic terrorism. But these 
issues take on quite another dimension in Europe. While American neo-
Nazis may fantasize about an America in which only white Christians 
have rights, today's extreme-right groups in Europe can actually look 
back to a not-too-distant history when such an ideology prevailed in 
Germany, Austria, and beyond, and seek to pick up that historical 
thread and build upon it.
    Anti-Semitism is inextricably intertwined with the worldview of 
contemporary neo-Nazi groups. Even in societies in which virtually no 
Jews live, the rhetoric of such groups remains startlingly focused on 
hatred of Jews. Indeed, at times, there almost seems to be an inverse 
relationship--the fewer the actual number of Jews in a given country, 
the more shrill the language about the alleged Jewish menace.
    There is a certain eerie normality to far-right activity in Europe. 
Throughout the continent, heavily armed guards stand in front of 
synagogues and other Jewish institutions around the clock to calm fears 
inspired by regular bomb threats. It is a shocking sight for Americans 
visiting abroad, but nothing new for Europeans. Perhaps the wide 
acceptance of this situation helps to explain why in a number of 
European countries, anti-Semitic incidents, including the frequent 
desecration of cemeteries, fail to elicit much public outcry.
    Bizarrely, soccer, the most popular sport in Europe, has also 
become a visible outlet for anti-Semitic expressions. Fans in Italy 
have notoriously given voice to pro-Mussolini sentiments and crude 
anti-Semitism. A banner held up to a competing team at a major national 
match last year read: ``Auschwitz is your country and the ovens are 
your homes,'' but signs with swastikas are so common that they do not 
even make the news. Italy, it should be noted, has begun to take steps 
to address this vulgar--and in Italy, also illegal--behavior, including 
threats to stop games that are interrupted by offensive signs and 
penalizing teams. But the problem extends to Holland, Germany, England, 
and to a culture of soccer fans that exists throughout Europe and 
beyond.
    One of the central components of radical right-wing ideologies is 
Holocaust denial. It is not simply that deniers want to remove the 
moral albatross of the Holocaust from the image of fascism--although 
they do clearly want to do this. By maintaining that Jews simply ``made 
up'' the Holocaust, and have ``hoodwinked'' the world into believing a 
lie, the neo-Nazis seek to reverse images and convince the world that 
they are the victims. Neo-Nazis realize that the shadow of the 
Holocaust has created a certain sympathetic understanding of the 
vulnerability of the Jews and the danger of stepping on to the slippery 
slope of anti-Semitism; therefore denying, distorting, minimizing, 
trivializing, or in any other way defusing the power of the Holocaust 
tragedy is seen by neo-Nazis as strengthening their hand and giving 
further legitimacy and reach to their aims and objectives. Lessons 
reemphasized in the wake of the Holocaust--such as rejecting anti-
Semitism and racism and valuing individual human life--are thus 
discredited as the product of Jewish ``manipulation.''
    Unfortunately, much of the published material that fuels Holocaust 
denial in Europe, though its dissemination is illegal in Austria, 
France, Germany, and Switzerland, among other countries, comes from the 
United States, where it is produced under the protection of the First 
Amendment. Moreover, the worldwide Internet has dramatically enhanced 
the ability of extreme right-wing groups that distort history and 
espouse anti-Semitism, such as that of the California-based Institute 
for Historical Review and the Committee for Open Debate of the 
Holocaust, to spread their message. Many European officials have told 
us that their efforts to contain neo-Nazi movements would be 
strengthened if the United States could find the means to keep a closer 
eye on the movement of material from American-based neo-Nazi groups. 
Internet sites are also being founded in Europe to disseminate messages 
of anti-Semitism and hate. German authorities, who watch anti-Semitic 
trends with particular vigilance, estimate that the number of 
propaganda sites in the German language with anti-Semitic content 
increased by 600 percent in 1998.
    European and U.S. far-right cooperation also exists in the field of 
racist and anti-Semitic white-power music, which has become part of the 
skinhead and younger neo-Nazi culture worldwide. While on the decline 
in much of Western Europe, due to internal fighting and legal 
crackdowns, white-power music continues to serve as a medium of 
cultural communication and to generate millions of dollars for far-
right movements.
(2) Extreme right-wing parties
    We see today an increasingly porous border between radical right-
wing fringe groups and a growing number of extreme right-wing political 
parties that have been gaining acceptance in mainstream politics. Most 
obviously, the newest ultra-right-wing party in Germany--which captured 
nearly 13 percent of the 1998 vote in the State elections of Saxony-
Anhalt, although, like other extreme right-wing parties in Germany, its 
national success has heretofore been marginal--is run by Gerhard Frey, 
a Munich publisher of extremist material who propagates the theory of 
an international Jewish conspiracy against Germany.
    Extreme right-wing parties have now entered the mainstream, though 
it is important to note that these parties have generally gained 
popularity by appealing to a much broader spectrum of issues in their 
countries, such as opposition to immigration and to integration in the 
European Union.
    Jean Marie Le Pen of the National Front Party in France regularly 
received 14 percent of the French vote, and climbed to 15.2 percent in 
1997, though his popularity has gone down since his party split in 
1999; Christoph Blocher's Swiss People's Party recently won 23 percent 
of the national vote, up from 14.9 percent in the election preceding 
it, making it the second most popular party; Carl Hagen's Progress 
Party in Norway claimed 15.3 percent of the 1997 vote; Frank Vanhecke's 
Flemish National Party won 10 percent of the Belgian vote in 1999; 
Italy's Northern League received just over 10 percent of the vote in 
1996; and Istvan Csurka, with his anti-Semitic Hungarian Justice and 
Life Party, received 5.5 percent of the vote in 1998, becoming the 
first post-war, anti-Semitic party to enter the Hungarian parliament 
[Appendix A].
    Allow me to spend a moment on Jorg Haider's Freedom Party in 
Austria, the most successful xenophobic party in postwar Europe 
[Appendix B-1]. Originally made up predominantly of aging former Nazis, 
the Freedom Party generally won between 5 and 6 percent of the vote 
before Haider took control in 1986--far behind the socialists and 
conservatives. In 1986, the party jumped to close to 10 percent of the 
vote. In 1990 its share of the vote went up to 16.6 percent, and in 
1994 to 22.5 percent. At that point some observers thought the Freedom 
Party had peaked, its vote seeming to stabilize at 21.9 percent in 1995 
and 22 percent in 1996. But in March 1999 the party won the provincial 
elections in the province of Carinthia with 42 percent of the vote 
there, and Haider was elected Governor of the province in April. Most 
recently, in the national elections of October 1999, the Freedom Party 
won the second largest number of parliamentary seats by capturing 27.2 
percent of the vote.
    While we readily acknowledge the resilience of Austrian postwar 
democracy and its respect for human rights, as well as the fact that 73 
percent of Austrian voters did not support the Freedom Party, this 
disturbing development did not entirely surprise us.
    The American Jewish Committee has developed close contacts with 
Jewish and other civic leaders in Austria over the past several 
decades, and we were keenly aware of the atmosphere in the country 
prior to the elections. Haider managed to win votes by tapping into 
several issues in Austrian society. First, he was seen as a bold and 
telegenic young leader who would introduce change after what was 
perceived as an interminable and all-too-cozy reign of the 
conservative-socialist coalition. Second, Haider was seen as someone 
who would stand up for the ``rights'' of Austrians against the growing 
number of refugees who had entered the country in the preceding decade 
from Eastern Europe and, in particular, the former Yugoslavia. And last 
but unfortunately not least, Haider appealed to an unsettling Austrian 
ultra-nationalism that still exists in the country. He and his 
associates in the Freedom Party have made statements over the years 
which cater to the worst sentiments of nostalgia and revisionism in the 
Austrian populace [Appendix B-2]. Certainly, we recognize that some of 
those who cast votes for the Freedom Party do not necessarily harbor 
racist or anti-Semitic views. Nevertheless, we are troubled by the fact 
that they are not at all deterred from aligning themselves with those 
who do.
    Furthermore, our own American Jewish Committee surveys of Austrian 
attitudes (conducted by Gallup in 1991 and 1995) reveal that a 
significantly higher percentage of Freedom Party supporters than other 
Austrians are disposed toward Holocaust denial and negative feelings 
about Jews. These people today remain a core constituency of Haider's 
party. Though Haider has formally resigned from the party's leadership, 
no one should be fooled; he remains its guiding light and inspiration. 
And precisely because he is devilishly clever and chameleon-like, he 
merits especially close scrutiny--particularly as he certainly seems 
interested in one day becoming Chancellor.
    The history of Austrian attitudes bears directly on this hearing. 
In marked contrast to Germany, the Austrian government, for more than 
40 years, showed little willingness to face its Nazi past. Indeed, 
until Chancellor Vranitsky's commendable speeches in l991 and 1993, 
which followed on the heels of a self-examination forced on Austria by 
the Waldheim presidency, the country's leaders waltzed around Austria's 
central responsibility for the crimes of the Holocaust. The official 
Austrian line was that the country did not exist between 1938 and 1945 
and therefore bore no responsibility whatsoever for what happened on 
its territory. Moreover, the Allies' declaration in Moscow in 1943 that 
Austria was the first victim State of the Third Reich provided the 
needed cover. In Austria, despite some notable efforts, there have 
still been too few organized attempts to stimulate dialog on the 
subject or to face history squarely and unblinkingly. Hence, Haider and 
his Freedom Party gain entree into the political mainstream when their 
rightful place is on the fringes.
    The American Jewish Committee applauds the European Union and 
Israel for their principled decision to reduce diplomatic ties to 
Austria in the wake of the Freedom Party's inclusion into the ruling 
coalition.
    In neighboring Germany, the fear of a contagion effect from the 
success of the Freedom Party has so far proved unwarranted. Far-right 
parties, for instance, captured a negligible portion of the vote in a 
German State election in Lower Saxony in February of this year. But 
following on the heels of Haider's victory, we saw in Switzerland the 
startling success of Christoph Blocher's Swiss People's Party, whose 
platform strikingly resembles that of Haider. Furthermore, Hungary's 
far-right party is cause for concern.
    Radical right-wing ideologies have gained renewed vigor in recent 
years--less because their spokesmen have changed tactics or strategies, 
and more because they are finding increasingly receptive audiences in 
the larger society for their ideologies of narrowly-defined nationalism 
and xenophobia. In addition, anti-Semitic and hate ideologies are 
slowly making their way into the larger mainstream press and the 
political and civic discourse. The recent libel suit of David Irving 
against Emory University professor Deborah Lipstadt in England opened a 
mainstream window on Holocaust denial. Irving has taken Lipstadt to 
court for defaming his ``academic work,'' and she has had to bring 
voluminous proof to a London courtroom that, for instance, Jews were in 
fact gassed at Auschwitz. The verdict in the trial is expected in mid-
April, but the case itself has at least temporarily brought talk of 
Holocaust denial into new circles of quasi-respectability.
    German political scientist Gideon Botsch caused a stir in Germany 
in early 2000 when he claimed to observe a shift in anti-Semitic 
expression to the pages of respected newspapers. His study cited 
examples of newspapers across the political spectrum that publish 
articles with anti-Semitic undertones. This development might help 
explain the extremely negative way that some German papers reported on 
the Jewish Claims Conference, of which the American Jewish Committee is 
a founding member, during the recent negotiations over compensation for 
slave and forced labor. Numerous stories depicted the Claims Conference 
itself and the mostly Jewish lawyers as greedy and self-serving, and a 
bizarre discussion ensued in mainstream newspapers about whether there 
are as many Jewish survivors as cited by the Claims Conference.
    Indeed, there is reason to believe that recent negotiations about 
long ignored and only belatedly addressed claims left over from the 
Holocaust period (Swiss bank accounts, forced and slave labor, stolen 
art, etc.) have increased anti-Semitism among the general public, a 
disturbing kind of blame-the-victim response. Surveys of European 
attitudes conducted by the American Jewish Committee over the last 
decade point to the same worrisome trends. When asked for their 
reaction to the statement: ``Jews are exploiting the memory of the Nazi 
extermination of the Jews for their own purposes,'' 16 to 39 percent of 
citizens of European countries said they agreed, as can be seen in this 
chart [Appendix C].
(3) National identity models
    There has been a revival of the concept of national identity over 
the last decade. In many European countries, unlike the United States 
and other modern nations founded by immigrants, citizenship 
traditionally has been associated with a national ethnicity or a 
particular religion. The most brutal periods of anti-Semitism in 
European history have always coincided with the strengthening of such 
narrow concepts of national identity, and anti-Semites have capitalized 
on the notion of the Jew as outsider. Racism in Europe is generally 
founded on the same concept.
    There are several explanations for the recent emphasis on national 
identity and religion. For one, there is a backlash in some quarters 
against globalization and the creation of a unified European identity. 
We saw this in France with the anti-McDonalds campaign and its anti-
American undertones. For another, European nations are affected and 
influenced by the worldwide intensification of identity politics.
    National identity is perhaps best exemplified by the language used 
in various countries. Quite reflexively and unselfconsciously, for 
example, people in Warsaw will speak of ``Poles and Jews'' when they 
really are referring to people who hold common citizenship and origins 
in Poland.
    This uncomfortable level of rhetoric about national identity 
explains the far-right's focus on immigration. While concerns about the 
extent and nature of immigration certainly have a basis in reality and 
merit serious national discussion, too often the far-right has seized 
upon the immigration issue, exaggerated and thereby fanned existing 
fears, and claimed the issue as its own. The 13th German Shell Youth 
Study, which has just been released, claims that more than two-thirds 
of the youth in the former East Germany, and 60 percent of youth in the 
west, say that there are too many foreigners in Germany today, though 
the total number of foreigners is less than 10 percent of the German 
population. The authors' claim that this xenophobia reflects the fear 
of unemployment and not right-wing extremism, hardly seems to justify 
these numbers. Le Pen, Blocher, Csurka, and others have made anti-
immigration central to the platforms of their extremist parties. As 
mentioned above, Haider's success can in part be attributed to a 
backlash against Austria's generous policy of accepting refugees during 
the Bosnian crisis.
    But today, more than ever before, pluralism is less an option for 
societies and more a necessity. Globalization, changing patterns of 
world migration, and the dissolution of borders to communication make 
it likely that we will see more and not fewer international influences 
penetrating societies that could, in the past, simply close their 
doors. European governments must regulate immigration and asylum 
policies so as to maintain stability. But they will also have to 
reconcile themselves to a degree of movement and change. No country 
will ever be populated only by natives--indeed, few countries ever 
have--and attempts to make countries pure in nationality have ended in 
bloodshed and terror. If the far-right gains control of this issue, 
then it will turn a growing pain into a permanent source of 
unhappiness, fear, and violence.
    Mr. Chairman, I wish to call to the Committee's attention an 
immediate problem related to the focus on national identity in Greece. 
The Greek government is about to issue new identity cards to be used 
inside of Greece and for travel throughout the 15-member European 
Union. According to a new law, these cards will carry a line for the 
individual's religious identity. The policy is especially traumatic for 
the small Jewish community. Less than 60 years ago, 96 percent of Greek 
Jewry was exterminated by the Nazis, and the notion of a central 
government file of all Jews, even in democratic Greece, causes profound 
anxiety, not to speak of the fear of violence. ``Imagine,'' one Greek 
Jewish leader told us, ``that in this crazy world with its share of 
anti-Semites, I must show a document everywhere I go that indicates my 
private religious faith.'' Greece is the only European Union country to 
include religion on a national identity card. Government officials, 
many of whom have told us they oppose this policy, indicate that it is 
a concession to the powerful Greek Orthodox Church, which sees a close 
link between Greek nationality and the church. In this regard, we note 
with appreciation the mention that this matter was given in the U.S. 
State Department's 1999 Country Reports on Human Rights Practices and 
ask this esteemed Committee to make its strong disapproval of the new 
policy clear.
(4) Extreme left-wing, extra-parliamentary groups
    Two and three decades ago, we saw the strongest expressions of 
anti-Semitism in Europe coming from another direction--the extreme 
left. Often cloaked in sympathy for the Palestinian cause and anti-
Zionism, extremist left-wing groups such as the Italian Red Brigades 
and the German Baader-Meinhoff gang collaborated with terrorist groups 
in acts of violence against Jewish targets. Working in Europe in the 
late 1970's with the flow of Jewish refugees from the Soviet Union and 
Eastern Europe, I was personally aware of the very real dangers posed 
by this nexus. More recently, this threat seems to have been reduced.
    Today, however, there is some evidence of a nascent Brown-Red 
alliance of fascists and communists. Although more prevalent in the 
former Soviet Union than in Europe generally, the blurring of lines 
between left and right can be seen in manifestations such as the Parti 
Communautaire National-Europeen (PCN) in Switzerland. This group, 
formerly known as the ``Third Way,'' is active mainly in French-
speaking parts of Europe and seeks to unite all ``enemies of the 
system'' from the right and left. Similarly, the small Union des 
Cercles Resistance in France strives to bring together 
``revolutionaries'' from the left and right in opposition to the United 
States, Israel, and capitalism. Chants of the 700 neo-Nazis who marched 
through Berlin's historic Brandenburg Gate on January 30, 2000, to mark 
the 67th anniversary of Hitler's taking office in 1933 and to protest 
the building of a major Berlin Holocaust memorial also sounded tones 
from the left and right: ``Jobs instead of Jewish agitation'' was 
shouted along with ``Honor and fame for the Waffen-SS.'' Finally, with 
its interest in unknown forces, the New Age movement has recently 
provided particularly fertile soil for theories of hate that combine 
traditional elements from the right and left, including Jewish-
conspiracy theories. While outlawed in Germany, books about the so-
called ``Illuminati''--a concept equivalent to the Jewish ``elders''--
are often sold at New Age conventions, and are best-sellers in many 
popular European vacation spots.
            National action
    A great number of people and governments are genuinely concerned 
about anti-Semitic trends in Europe and actively monitor and combat 
them. The German government deserves special mention here. It has been 
steadfast in its efforts to educate the German population about the 
history of the war--both in the schools and through commemorative and 
educational public programs. Widespread desire to create a more 
tolerant society has manifested itself in political, legal, and 
intellectual discussion and policy. Obviously, as statistics of anti-
Semitic and hate-based crime show, German goodwill has not solved the 
problem completely, but it has managed, to a large degree, to isolate 
far-right parties and groups.
    Nevertheless, the just released annual survey conducted by the 
German Federal Agency for the Protection of the Constitution reports 
that while the number of neo-Nazis and right-wing extremists may be on 
the decline--from 54,000 to 51,000 between 1998 and 1999--the 
propensity among neo-Nazis for violence is estimated to have risen by 
10 percent in the same period.
    Sweden should also be mentioned in this context. After launching a 
massive national Holocaust education program, Prime Minister Goran 
Persson proceeded to organize the largest gathering of high-level 
political officials ever this January--including over a dozen 
presidents and prime ministers--to discuss the importance of education 
about the history and lessons of the Holocaust. Our country's 
delegation to the Stockholm International Forum on the Holocaust was 
led by Deputy Secretary of the Treasury Stuart Eizenstat, whose efforts 
on behalf of Holocaust survivors and the restitution of looted 
Holocaust-era assets have been indefatigable, inspiring, and decisive. 
Our only regret is that this historic gathering inexplicably received 
virtually no media coverage in the United States.
    While there are no surefire methods of eliminating anti-Semitism, 
history has taught us that there are ways to contain and marginalize it 
and, conversely, there are responses that only encourage the entry of 
anti-Semitism into the mainstream. The massive French demonstration led 
by then-President Mitterrand in reaction to a particularly vile 
cemetery desecration in Carpentras in 1990 was an example of 
leadership, turning a terrible event into an important and positive 
direction for the future. Likewise, the peaceful candlelight marches 
that brought together hundreds of thousands of concerned Germans in the 
wake of attacks on foreigners in Germany have helped marginalize the 
perpetrators of hate crimes. Likewise, the peaceful--and large--
demonstrations against Jorg Haider today in Austria reveal a vocal and 
determined community of conscience prepared to say no to Haider's 
narrow vision for Austria.
    On the other hand, the deafening silence of Polish president Lech 
Walesa in 1995, when Father Jankowski, Walesa's parish priest in 
Gdansk, delivered a vituperative anti-Semitic speech in the presence of 
the president, is a case study in how not to respond. Similarly, some 
years ago, following the terrorist bombing of a Jewish restaurant in 
Paris, the French prime minister, while condemning the attack, remarked 
that ``some Frenchmen'' had also died, somehow implying that the French 
Jews who perished were not ``Frenchmen'' as well. While this reaction 
may have been well-intentioned, its results underscored the notion that 
Jews are ``other'' than French.
    In 1998, the American Jewish Committee opened an office in Berlin 
that is monitoring political and social trends there and elsewhere in 
Europe. We are working closely with the German government, independent 
foundations, and nonprofit organizations to help strengthen tolerance 
and civil society, especially in Central and Eastern Europe. The U.S. 
Ambassador to Germany, John Kornblum, has been exceedingly helpful in 
the work of the Berlin Office and has met frequently with delegations 
of American Jewish Committee leaders, as have Ambassadors and their 
staffs in American embassies throughout Europe. Each time we visit an 
embassy, we are proud and impressed by the caliber of our nation's 
representatives abroad. In addition, the friendship and outstanding 
work of J.D. Bindenagel, the U.S. Special Envoy for Holocaust Assets, 
deserves special mention.
            Multinational action
    The United Nations and the 41-member Council of Europe have helped 
set the legal norms prohibiting racial discrimination and religious 
intolerance, but have done very little, by comparison, to report on or 
take measures to help eradicate anti-Semitism. Strong U.S. engagement 
is essential to ensure that anti-Semitism is addressed in multilateral 
arenas in Europe and beyond. Multilateral institutions, as a rule, have 
not adequately addressed the issue of anti-Semitism, and in the few 
forums where the subject has come up, they have failed to follow words 
with action.
    The 25-year-old Organization for Security and Cooperation in 
Europe, of which the United States is one of 53 members, has affirmed 
its concern about anti-Semitism at political meetings, but has never 
followed up outside them. The United Nations, founded in the aftermath 
of the Holocaust, has a rockier record. A 1960 Commission on Human 
Rights resolution on anti-Semitism was the last mention of this issue 
for 34 years. Worse, the ``Zionism is racism'' resolution passed by the 
General Assembly in 1975, rightly described by U.N. Secretary General 
Kofi Annan as ``the low point'' in the world body's actions with 
respect to Jews and Israel, was itself a source of anti-Semitic 
statements in the world body; in 1991, the resolution was rescinded as 
a result of a U.S. initiative. Beginning in 1994, other U.S. 
initiatives brought a series of resolutions calling for the monitoring 
of anti-Semitic incidents by the Special Rapporteur on Racial 
Discrimination. The United Nations is currently gearing up for a World 
Conference Against Racism, Racial Discrimination, Xenophobia and 
Related Intolerance. We hope anti-Semitism will be a focus of the 
action plan of the World Conference. Without U.S. backing, it will not.
    Leaders of the United Nations have been more outspoken on the issue 
of anti-Semitism than State representatives on its political bodies 
have been. Secretary General Annan called upon the United Nations to 
use the 50th anniversary of the Universal Declaration of Human Rights 
to ``eradicate anti-Semitism in all of its forms'' and High 
Commissioner for Human Rights Mary Robinson opened the current session 
of the UN Commission for Human Rights in Geneva this March by including 
anti-Semitism in a list of ``pressing human rights issues which need 
practical attention.''
    The Council of Europe, in which the United States has observer 
status, adopted resolutions in the 1990's recognizing the importance of 
combating anti-Semitism in Europe. Just last week, under the leadership 
of its Secretary General, Walter Schwimmer, and with the assistance of 
the American Jewish Committee, the European Jewish Congress, and the 
European Union of Jewish Students, a Declaration on Anti-Semitism was 
adopted at a consultation in Strasbourg, recommending specific action 
and legislation on the part of European governments [Appendix D]. We 
hope to see these crucial points included in the October 2000 European 
Conference Against Racism, Racial Discrimination, Xenophobia and 
Related Intolerance and, eventually, the World Conference Against 
Racism. Again, this will only happen if the United States is actively 
involved.
    <bullet> The American Jewish Committee urges the government of the 
United States to ensure that the Council of Europe incorporates the 
concerns outlined in the Declaration on Anti-Semitism in the 
conclusions adopted at the European Conference Against Racism, and 
subsequently at the World Conference Against Racism, and to encourage 
other governments to implement the declaration continent-wide. The 
European Conference should also propose specific practices to be used 
by governments to prevent anti-Semitism and racial discrimination and 
to educate more--and more effectively--about the values that bind our 
societies one to the other. It should lead to the inclusion of the 
subject of anti-Semitism in the World Conference Against Racism.
    <bullet> The American Jewish Committee strongly recommends that the 
United States not only attend the upcoming preparatory meeting of the 
technical working group of the European Conference Against Racism in a 
few weeks' time, but that it actively press for the inclusion of 
combating anti-Semitism as part of the European plan of action. As 
indicated above, only the United States has the capacity to catalyze 
the continent to focus on the remnants of a grim chapter in its own 
history.
    <bullet> We recommend that the United States begin to take a more 
active role in ensuring that the United Nations and other multilateral 
organizations face the important challenge of reducing anti-Semitism 
per se.
(5) Church-based anti-Semitism
    Historically, hatred of Jews, pogroms, and physical attacks against 
Jewish communities often resulted from the stereotypic portrayal of 
Jews as ``Christ killers.'' On this front there is positive news to 
share today. The Catholic Church, beginning in 1965 at the Second 
Vatican Council, and many Protestant churches have taken truly historic 
steps over the last half century to end the teaching of contempt for 
Jews and Judaism, and to otherwise distance themselves from the 
lamentable historical record of church-inspired and -sanctioned 
violence aimed at Jews.
    Pope John Paul II, who has repeatedly called anti-Semitism ``a sin 
against God and humanity,'' has made landmark contributions to the 
relationship between Jews and Catholics throughout his 22-year papacy 
by recognizing the State of Israel, condemning anti-Semitism, and 
promoting Catholic-Jewish understanding. His recent visit to Israel 
significantly enhanced the international attention given his life's 
work in this area. Several national Catholic Bishops' conferences, 
including those in France, Germany, and Poland, have also gone to great 
lengths to strongly condemn anti-Semitism. The Lutheran Church, both in 
this country and in Europe, has also taken important steps to apologize 
for the acts of anti-Semitism, based on the teachings of Martin Luther, 
committed in its name.
    We at the American Jewish Committee and others are deeply engaged 
in working toward a new and better chapter in Christian-Jewish 
relations in Europe, the United States, and around the world.
(6) Arab and Islamic extremist groups operating in Europe
    In the 1970's and 1980's, many Palestinian terrorist groups 
actively sought out Jewish targets in Europe, the most memorable and 
tragic incident being the murder of Israeli athletes at the 1972 Summer 
Olympic Games in Munich. In other acts of terrorism, Palestinian 
extremist groups cooperated with radical left-wing European groups and 
with communist governments, from which they received logistical and 
financial support, weapons training, safe havens, and political and 
diplomatic cover. Below are just a few of the dramatic terrorist 
incidents during this period aimed at Jewish targets in Europe:
    <bullet> On June 27, 1976, an Air France jet was hijacked to 
Entebbe, Uganda, after taking off from Athens airport. Seven members of 
the Popular Front for the Liberation of Palestine, led by a West German 
associate, demanded the release of 53 terrorists in Israel, 
Switzerland, West Germany, France, and Kenya in exchange for the 257 
hostages.
    <bullet> On October 3, 1980, in Paris, four people were killed 
after a 25-pound device exploded under a car outside of the Rue 
Copernic synagogue in Paris. A moped used in the attack was later 
traced to a Palestinian who had entered the country under false 
pretenses.
    <bullet> On December 27, 1985, in Rome and Vienna, the Abu Nidal 
organization claimed responsibility for two simultaneously coordinated 
attacks carried out at El Al Airlines counters in airports of the two 
cities. A total of 17 people were killed and 116 were wounded in the 
attacks.
    While this cooperation has largely disappeared today with the 
collapse of the Warsaw Pact, a significant number of Islamic extremist 
organizations have found safe haven in Western Europe since the late 
1980's, where they take advantage of free speech, freedom of movement, 
and freedom of assembly to produce Islamic extremist materials 
distributed throughout Europe and the Muslim world. Such material 
promotes public rallies and fund-raising activities for the cause of 
jihad, which is interpreted in its military sense as meaning ``holy 
war,'' including terrorist attacks against Israel and Israeli targets 
abroad. It is common for such publications to identify Israel and its 
supporters as forces of evil implanted in the heart of the Muslim world 
by the United States.
    Last month, the London-based Community Security Trust reported that 
a growing percentage of the anti-Semitic acts carried out in Britain 
have been initiated by Islamic extremist groups. Anti-Semitic 
activities throughout Western Europe, ranging from non-violent to 
extremely violent, have mirrored this trend. We have also recently 
received disturbing reports from our colleagues in Western Europe that 
a number of Jewish institutions, including schools and synagogues, have 
come under surveillance by individuals using camera and video 
equipment. There is evidence to indicate that Islamic extremists are 
carrying out at least some of this surveillance activity.
                  ii. anti-semitism in the middle east
    The phenomenon of Islamic extremist anti-Semitism in Europe is 
closely linked to anti-Semitism in the Middle East.
    While anti-Semitism in Europe must be carefully watched and 
monitored, the situation in the Middle East is far worse, and 
politically more dangerous, since it poisons the atmosphere surrounding 
the Israeli-Arab peace process. Strikingly, while Western nations, 
especially Germany and also, notably, Sweden, are engaged in dialog and 
programs aimed at preserving the memory of the Holocaust, mainstream 
Arab media are extolling Holocaust denial. While world leaders have 
repeatedly declared that anti-Semitism is a form of racist action that 
must be condemned, Arab media, educators, and religious leaders are 
openly preaching it, and too many political figures are offering it 
official sanction.
    As Israeli and Palestinian negotiators move ahead, however 
haltingly at times, toward a much-awaited permanent peace settlement, 
there has been a shocking--and quite frightening--revival of vitriolic 
anti-Semitism across the Arab world. It is ever present in countries 
already formally at peace with Israel, and in others that have opened 
ties to the Jewish State following the significant peace process 
breakthroughs over the past decade.
    This extraordinary paradox of building peace while actively 
demonizing the Jewish people is obviously shocking, and requires, we 
believe, the urgent attention of the Congress. Over the long term, this 
trend may well undermine efforts to nurture the climate of peace in the 
region that is essential to assuring the durability of any 
comprehensive agreement.
    Among the latest public statements by Arab leaders denying the 
facts of the Holocaust were those of the Palestinian Authority-
appointed Mufti of Jerusalem, Ikrema Sabri, prior to and during the 
remarkable visit of Pope John Paul II to Israel. ``It's true, the 
number was less than six million and Israel is using this issue to get 
sympathy worldwide,'' he said on the Saturday before meeting the Pope. 
The Mufti's comments--reminiscent of his wartime predecessor who 
actually allied himself with Hitler--indicate a deeper and more 
sinister current espoused by Arab political and spiritual leaders that 
is reflected on the pages of official newspapers and in school 
textbooks.
    The editor-in-chief of the official Syrian newspaper Tishreen 
recently asserted in his column and on Syrian radio that ``Zionists 
created the Holocaust myth to blackmail and terrorize the world's 
intellectuals and politicians.'' Coming amid efforts to jump-start the 
stalled Israeli-Syrian peace talks, the editor's views gained 
widespread attention and condemnation from U.S. and Israeli quarters, 
and moved many otherwise supportive Israelis to doubt Syria's reputed 
strategic decision to reconcile with Israel after an agreement on the 
disputed Golan. Sadly, though, the Tishreen outrage is more the rule 
than the exception.
    From Egypt to Jordan, to the Gulf nations of Qatar and the United 
Arab Emirates, to the Palestinian Authority, Holocaust denial language 
has become commonplace in the print and electronic media. The Arab 
press has repeatedly made the incredible accusation that Israel is 
spreading poison and disease in Palestinian areas and as far away as 
the Arab nations of the Gulf. In recent weeks, Arab papers have stepped 
up their attacks on Israel--and on the Jewish people--by labeling, in 
vile words and in gross caricatures, Israel's prime minister and 
foreign minister as Nazis. Offensive editorials and columns similar to 
the Tishreen editorial can be found in Al-Ahram, Al-Akhbar and Al-
Gumhuriya, three of the mainstream daily newspapers in Egypt, which 
signed a peace treaty with Israel 21 years ago. One cartoon run on 
February 29, 2000, portrayed a caricatured David Levy, foreign minister 
of Israel, painting a swastika onto a building with the caption 
``Levy's Diplomacy'' [Appendix E].
    Egypt's leading position in the Arab world gives it enormous 
influence. Propagating Holocaust denial and slandering Jews can only 
inhibit relations between the Egyptian people and Israel, and sets a 
negative example for other Arab countries. Just last week, while 
President Mubarak was visiting the United States, several Israeli 
diplomats were invited to a conference at the University of Cairo, but 
denied entry when they arrived on campus.
    In addition to treading on the painfully fresh memory of the 
Holocaust, that most sensitive of Jewish--and Israeli--issues, the Arab 
media also engages in other offensive and destructive anti-Semitic 
rhetoric.
    In Qatar, for example, one of two forward-looking Gulf countries to 
open commercial ties with Israel (the other is Oman), Israel has been 
accused in the official newspaper of using women to undermine moral 
values and spread disease in the country--a new accusation suggesting 
the infamous blood libel against the Jews. ``Whether these women are 
from Israel or from Russia, they have one thing in common: the 
transmitting of disease and evil in order to cause the collapse of our 
economy,'' states Al-Sharq. ``This is the beginning of Zionist activity 
in the Gulf region . . . for the purpose of totally destroying our 
leaders.''
    The Qatari paper goes on to quote, as source material, the 
notorious anti-Semitic forgery The Protocols of the Elders of Zion, a 
volume widely available in the Arab world and often cited by papers in 
other Arab countries. A cartoon that appeared in February in Al-Watan, 
a Qatari newspaper owned by the cousin of the Emir, depicts Israeli 
Prime Minister Barak as a Nazi bombing Lebanon [Appendix F].
    In Syria, public school textbooks are filled with vehement 
hostility toward Israel and the Jewish people. A new study of Syrian 
textbooks for grades 4 to 11, published by the Washington, D.C.-based 
Middle East Media Research Institute, reveals state-sponsored curricula 
replete with anti-Semitism, Holocaust denial, demonization of Israel--
and, most appallingly, an open call to exterminate Jews from the earth.
    In the Palestinian Authority (PA), which is obligated through 
signed agreements with Israel to work against incitement, official news 
organs do not hesitate to join in this bashing of Israel and Jews. Al-
Hayat Al-Jedidah, an official PA daily with the widest circulation, 
published a cartoon at the end of last year [Appendix G] depicting a 
short, grotesque figure labeled with a Star of David as ``the disease 
of the century,'' situated between an old man, who represents the 
twentieth century, and a young man, denoting the twenty-first.
    According to recent press reports, Hitler's Mein Kampf, which is 
officially permitted for publication and distribution within the 
Palestinian Authority, is No. 6 on the best-seller list in PA-
controlled areas [Appendix H].
    Across the Jordan River, many educated and influential citizens of 
Jordan, members of the kingdom's professional associations, remain 
adamantly opposed to any interaction with Israelis despite the 
Hashemite Kingdom's historic peace with Israel. In one recent, 
egregious example, the Jordanian Journalists' Association expelled one 
member, and compelled three others to sign an apology, for committing 
the ``crime'' of visiting Israel--fully 5 years after Israel and Jordan 
achieved peace.
    As the noted Johns Hopkins University scholar Fouad Ajami has 
observed in his study The Dream Palace of the Arabs, ``the custodians 
of political power'' in the Arab world determined some time ago that 
``diplomatic accommodation would be the order of the day, but the 
intellectual class was given a green light to agitate against the 
peace.''
    When we raised our ongoing concerns about anti-Semitism in the Arab 
media during an American Jewish Committee mission last month to Oman, 
Qatar, the United Arab Emirates, Jordan and the Palestinian Authority, 
our interlocutors characterized this poison as ``the price of a free 
press.'' I must note, however, that one would be hard-pressed to find 
examples of this sort of condemnation and criticism leveled against the 
regimes these news organs serve, or any other neighboring regime.
    At the same time, when pressed to enhance their relations with 
Israel, government officials pleaded for patience because, after all, 
while the government is more than willing to deepen ties with the 
Jewish state, public opinion is not yet ready.
    There is no acknowledgment of any linkage between a people's 
perception of Israel and the daily venom fed them through the Arab 
media and school curriculum--all sanctioned by the respective Arab 
governments.
    Though the outcome of negotiations may be relations as chilly as 
those with Egypt, Israel is prepared to take calculated risks to 
achieve peace because it remains a far better alternative than 
permanent belligerency. But the antagonistic posture of the Arab media, 
schools, religious leaders, and intellectuals hardly contributes to 
creating the necessary climate and culture of peace that is so 
desperately needed to turn the region from conflict to cooperation.
            Middle East Action
    Islamic anti-Semitic activity in the Middle East deserves 
heightened attention from the United States. It is an inconvenient 
truth that can no longer be ignored or downplayed or viewed as little 
more than an Arab negotiating tactic in the complex Arab-Israeli peace 
talks. There is, in short, an urgent need to reject this behavior 
unconditionally.
    The United States is in an unprecedented position to make a 
difference in the Middle East--not in all the countries of the region, 
perhaps, but certainly many. Our government should condemn hateful 
rhetoric in the clearest of terms. To some degree, at least, the fate 
of the region depends on it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Appendix B-2: Quotes from Jorg Haider and Freedom Party Associates
    Haider: What I said was that it was the soldiers of the Wehrmacht 
who brought democracy to Europe, as it is today. Had they not put up 
resistance, had they not been posted to the East, had they not led the 
conflict, then we would have . . .
    Profil: What do you mean, ``put up resistance?'' Wasn't it a 
campaign of conquest led by the German Wehrmacht?
    Haider: If that's what you think, then we must start asking 
ourselves today what really happened.
    Source: Interview with Profil magazine, August 21, 1995

    ``[What] you fought for and risked your lives for, [was] to give 
the younger generations and young people a future within a community in 
which order, justice, and decency are still considered to be 
principles. . . . There is simply no other reason [to oppose reunions 
of Waffen-SS veterans], other than it makes some people mad that in 
this world there are still some people who have character and who stand 
up for their beliefs, even in the face of strong opposition, and who 
have remained true to their convictions right up to this day. . . . 
Decency will certainly prevail in our world, even if we are currently 
perhaps not capable of obtaining a majority, but we are mentally 
superior to the others and that is something very decisive.''
    Source: Haider's address to former Waffen-SS soldiers at their 
reunion in Carinthia, 1995.

    ``Mass gassings by means of cyclone-B cannot have occurred in such 
a manner. The long list of supposed German war crimes is constantly 
becoming shorter. Almost none of them can withstand scientific-
technical scrutiny. On the other hand, the actual war crimes of the 
victorious powers are indisputable.''
    Source: Excerpt from Zur Zeit magazine, edited by Haider associate 
Andreas Molzer, June 4, 1999.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Appendix D: Anti-Semitism in Europe Today--A Declaration of Concern 
                               and Intent
    The participants in the Strasbourg ``Consultation on Anti-Semitism 
in Europe Today'', convened by the Secretary General of the Council of 
Europe, with the co-operation of the American Jewish Committee, the 
European Jewish Congress and the European Union of Jewish Students, at 
the Council of Europe headquarters on 27 March 2000,
    Solemnly recalling the persecution, extermination and genocide of 
Jews in the Holocaust, as well as of Roma and other minorities during 
and before World War 11
    Recalling that the Council of Europe was precisely founded on these 
premises in order to defend and promote common values
    Stressing therefore the Council of Europe's longstanding 
responsibility to combat racism, anti-Semitism, xenophobia and 
intolerance
    Considering thereby the key role of the Council of Europe in 
promoting human rights and respect for others and in strengthening 
pluralism and democracy throughout Europe, thus contributing to a 
freer, more tolerant and just European society
    Believing that the equal dignity of all human beings forms the 
basis of any democratic society
    Stressing the fundamental role of young people in the building of 
any free and tolerant society
    Recognising that anti-Semitism and other ingrained prejudices have 
a destructive effect on democracy
    Emphasising that combating racism, anti-Semitism, xenophobia and 
all forms of intolerance forms an integral part of the promotion and 
protection of human rights and that all human beings are entitled to 
these rights on the basis of equality
    Profoundly convinced that combating anti-Semitism is integral and 
intrinsic to opposing all forms of racism
    Welcoming the Council of Europe's co-ordination of the European 
contribution to the World Conference against Racism, Racial 
Discrimination, Xenophobia and Related Intolerance
    Underlining in this context the importance of the work of its 
European Commission against Racism and Intolerance (ECRI)
    Bearing in mind the Final Declaration and Plan of Action adopted by 
the Heads of State and Government of the member states of the Council 
of Europe at their Second Summit (Strasbourg, October 1997), calling 
for a reinforcement of the action of ECRI
    Taking also into account the international conventions and texts 
adopted by the United Nations in the fields of racism, racial 
discrimination, xenophobia and related intolerance
    Highlighting the vital role of non-governmental organisations, 
specialised bodies and relevant institutions in combating at both 
national and international level, racism, anti-Semitism, xenophobia and 
all forms of intolerance
    Noting with distress that Jews still suffer from persisting 
prejudices and are victims of a deeply rooted anti-Semitism in most 
Council of Europe member and other states
    Distressed by the recent desecration of many Jewish cemeteries, 
synagogues, and Jewish communal buildings and other property in several 
Council of Europe member and other states,
    Condemning the continuance of threats against the Jewish population 
and institutions in several Council of Europe member and other states
    Gravely alarmed by the development throughout Europe of extremist 
groups threatening individuals and propagating anti-Semitic and racist 
views and materials, increasingly through use of the Internet
    Disturbed by the growing support in some countries for these 
extremist groups and the dangerous indifference of the majority toward 
these developments
    Deeply troubled by the electoral success of far right parties and, 
in some cases, their presence and participation in coalition 
governments
    Noting with concern the resurgence of anti-Semitic feelings in 
countries where a debate on looted Holocaust assets is taking place
    Deeply alarmed by the continued activities of proponents of 
Holocaust denial and Holocaust relativism
    Stressing Europe's responsibility to remember the past, to stay 
vigilant and actively to combat all manifestations of racism, 
xenophobia, anti-Semitism and intolerance
    Profoundly convinced of the necessity of more effective measures to 
address the issue of anti-Semitism in Europe today in order to counter 
these phenomena and increase awareness about them
    Aware of the importance of contributing on the issue of anti-
Semitism to both the European Conference and World Conference against 
Racism, Racial Discrimination, Xenophobia and Related Intolerance
            urge governments--local, regional, and national
    <bullet> to give concrete follow up to the legal texts and 
recommendations for combating racism, anti-Semitism, xenophobia and 
intolerance adopted by the Council of Europe, especially ECRI's 
recommendations
    <bullet> to ensure that appropriate anti-discrimination legislation 
exists at a national level and is adequately implemented to ensure that 
action is taken against individuals and institutions responsible for 
the denigration of, discrimination and criminal acts against Jews
    <bullet> to ensure that society clearly and publicly condemns all 
forms of anti-Semitism
    <bullet> to require all public authorities to act in a non-
discriminatory manner and to promote specific training schemes for 
civil servants to that end
    <bullet> to identify, condemn and isolate all political figures who 
manipulate anti-Semitism and other ingrained prejudices for political 
purposes
    <bullet> to ensure that government officials clearly speak out to 
publicly disavow those who implicitly or explicitly use anti-Semitic 
prejudices for political purposes
    <bullet> to recognize the responsibility of public officials to 
publicly disavow hate speech and other forms of expression which 
spread, incite, promote or justify acts of anti-Semitism
    <bullet> to promote research on national contemporary Jewish 
history in particular in countries where such research is not conducted
    <bullet> to promote Holocaust remembrance, notably through 
education and the organization of cultural or media events, including 
national days of Holocaust remembrance
    <bullet> to promote at an early age formal and informal education 
for tolerance and human rights and thereby, against anti-Semitism
    <bullet> to target and include within legal texts reference to 
young people, whilst raising their awareness of their rights and 
responsibilities in the fight against anti-Semitism in democratic 
societies
    <bullet> to include the subject of anti-Semitism in teacher-
training and all teaching materials, notably history books
    <bullet> to encourage media to address anti-Semitism and subjects 
relating to contemporary Jewish issues objectively and sensitively and, 
where necessary and appropriate, to introduce systems of complaints and 
appeals to refute erroneous comments in this respect
    Call upon all Council of Europe member states and all participants 
to the European Conference ``All different, all equal: from principle 
to practice'' (Strasbourg, October 2000) to take full account of these 
concerns with a view to
    (a) addressing them locally, nationally and at the European level
    (b) taking them into consideration to the largest possible extent 
in the European Conference General Conclusions to be forwarded to the 
Preparatory Committee of the World Conference to be organised in 2001.
          * * * * *
                     the strasbourg plan of action
    The participants in the Strasbourg Consultation undertake the 
following commitments:
    (1) The Secretary General of The Council of Europe will submit the 
above-stated concerns and recommendations to the organizers, officers, 
rapporteurs, introductory speakers, governmental representatives, and 
secretariat staff planning and participating in the preparatory 
meetings and working groups of the European Conference Against Racism, 
entitled ``All different, all equal: from principle to practice'' 
(Strasbourg, October 2000) for inclusion in the planning process. The 
Secretary-General will, in addition, present the conclusions of these 
consultations to the participants at a high level introductory segment 
of the European Conference in October 2000, as well as to the 
participants in the First Preparatory Conference of the World 
Conference against Racism in Geneva, May 1-5.
    (2) The participants in this March 27th Consultation in Strasbourg, 
including the European Jewish Congress, the American Jewish Committee 
and the European Union of Jewish Students, will form a Task Force 
against Anti-Semitism. This Task Force will serve as the liaison to the 
Technical Working Group of the European Conference. In this capacity it 
will insure that the concerns of the Jewish community are represented 
in the planning processes, provide timely information about the 
European Conference to Jewish community organizations and NGO's in 
Council of Europe Member and Observer countries, and identify ways in 
which representatives of the Jewish community can participate in the 
conference itself.
    (3) The organizational participants in the March 27th Consultation 
in Strasbourg, with the assistance and co-operation of the Secretary 
General of the Council of Europe, will consider additional ways to 
identify and publicly address the problems of contemporary anti-
Semitism in Europe today and possible remedies and good practices. This 
could include informing the Parliamentary Assembly of the Council of 
Europe of this Declaration and of its recommendation to take action in 
this field, organizing public seminars on the subject, participating in 
other regional and global planning bodies for the World Conference 
against Racism, Racial Discrimination. Xenoshobia and Related 
Intolerance and other steps.
                                 ______
                                 
             Consultation on Anti-Semitism in Europe Today
                          list of participants
    Ms. Laure AMOYEL, European Union of Jewish Students, Brussels
    Rabbi Andrew BAKER, Director of European Affairs, American Jewish 
Committee, Washington, DC
    Mr. Rolf BLOCH, Vice President, European Jewish Congress, President 
of the Swiss Jewish Community
    Mr. Andras CSILLAG, Hungarian Jewish Community
    Mr. Serge CWAJGENBAUM, EJC Secretary General (France)
    Mrs. Joelle FISS, Chairperson, European Union of Jewish Students, 
Brussels
    Mr. Michel FRIEDMAN, EJC Vice-President, Vice-President of the 
German Jewish Community
    Mrs. Felice GAER, Director, Jacob Blaustein Institute for the 
Advancement of Human Rights, New York NY
    Mr. Konstanty GEBERT, Introductory Speaker at the European 
Conference
    Mrs. Myriam GLIKERMAN, assistant to EJC Secretary General
    Mr. Henri HAJDENBERG, EJC President, President of the French Jewish 
Community (CRIF)
    Mrs. June JACOBS, Chairperson of the EJC Commission on European 
Institutions (Great Britain)
    Mr. Amos LUZZATTO, President of the Italian Jewish Community
    Mr. Eric MOONMAN, Chairman of the EJC Commission on anti-Semitism 
(Great Britain)
    Mr. Ariel MUZICANT, President of the Austrian Jewish Community
    Mr. Gilbert ROOS, EJC Permanent Representative to the European 
institutions
    Mr. Szimon SZURMIEJ, President of the Polish Jewish Community
    Mr. Eldred TABACHNIK, EJC honorary President, President of the 
British Jewish Community
    Mr. Tomer TIDHAR, European Union of Jewish Students, Brussels
    Ambassador Hans WINKLER, Chair of the technical working group, 
European Conference against racism: ``All different all equal: from 
principle to practice'':
    Mr Gusztav ZOLTAI, Acting Director of the Hungarian Jewish 
Community
Secretariat of the Council of Europe
    Dr. Walter SCHWIMMER, Secretary General
    Mr. Alexander BARTLING, Private Office of the Secretary General
    Mrs. Renate ZIKMUND, Private Office of the Secretary General
    Mr. Francis ROSENSTIEL, Director of Research, Planning and 
Publishing
    Mrs. Edith LEJARD-BOUTSAVATH, Administrator, Research, Planning and 
Publishing Directorate
    Mrs. Isobelle JAQUES, Secretary of the European Conference
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Smith. If it is all right with my colleagues, we 
will hear from all the witnesses then go to questions.
    Mark Levin.

STATEMENT OF MARK B. LEVIN, EXECUTIVE DIRECTOR, NCSJ: ADVOCATES 
  ON BEHALF OF JEWS IN RUSSIA, UKRAINE, THE BALTIC STATES AND 
                            EURASIA

    Mr. Levin. Thank you, Mr. Chairman, for the opportunity to 
discuss the nature of and remedies for popular hate movements 
in the successor states of the former Soviet Union.
    I have submitted a prepared statement which I will now 
summarize, and ask that it be included in the record of this 
hearing.
    Senator Smith. You bet, without objection.
    Mr. Levin. Mr. Chairman, I also want to thank you for your 
dedication since coming to the Senate, as well as the rest of 
your colleagues.
    I am sorry Senator Sarbanes just left, but Senator Sarbanes 
and I have known each other for over 20 years. And when there 
were tens of thousands of refusniks and the numbers of people 
leaving the Soviet Union were in the hundreds, it was men and 
women like Senator Sarbanes and Senator Boxer, who was then in 
the House of Representatives, that led the effort to remind the 
Soviet Union that no matter how long it took, no matter what 
the effort was, we in the United States, particularly our 
elected officials, would not give up. And I think we have seen 
the fruits of that labor over the last decade.
    Unfortunately, we also have seen some other not so nice 
issues take place, and that is what I want to address today.
    I also want to thank you for giving me the opportunity to 
share with my daughter Lesley, who is in attendance today, an 
understanding of what I do. I think my parents had hoped that 
my generation and my siblings' generations would not confront 
the same types of issues that we are dealing with today.
    And it is my hope that my daughter, and hopefully her 
children, will not have to deal with the issues that we are 
confronting right now.
    Senator Smith. Mark, can you have Lesley Levin stand up so 
we can----
    Mr. Levin. I do not want to embarrass her, Mr. Chairman. 
She is somewhere in here. Lesley?
    Senator Boxer. Has she left? Oh, there she is.
    Mr. Levin. And, Mr. Chairman, I would be remiss if I did 
not recognize my sister Alyn Hadar, who works for Senator 
Boxer.
    Senator Smith. We are delighted to have all the Levin 
family here.
    Senator Wellstone. I would say, Mr. Chairman, this is 
definitely a Jewish gathering.
    Mr. Levin. Of course, Senator.
    Today, the NCSJ continues its commitment to safeguard the 
religious and political freedoms of Jews living in the new 
independent states, the attempt to protect their rights to 
emigrate, monitor and combat anti-Semitism, and ensure that 
Jews have full access to Jewish education, culture, and 
heritage.
    Those of us who struggled to free Soviet Jews during the 
last 30 years, whether in Congress or in the citizen movements, 
would never have imagined last month's Russian Presidential 
election, a democratic transition of power.
    But we would have never imagined a post-Soviet landscape 
littered with neo-Nazi and fascist extremists visibly trying to 
revive the same ideology against which the Russian people 
battled so fiercely just six decades ago.
    The United States has an instrumental track record in the 
spheres of international human rights, religious freedom, and 
minority protection. Just last month, Mr. Chairman, 96 of your 
colleagues joined you and Senator Biden in urging Russia's new 
acting President, Vladimir Putin, to take strong measures 
against anti-Semitism, eliciting an almost immediate Russian 
response, something that was unheard of before.
    While the anti-Semitism that existed as official state 
policy during the Soviet era has not resurfaced, some prominent 
politicians have employed anti-Semitism to further their own 
political ambitions.
    Once Chechnya is no longer center stage in Russia, the 
venom of Russian extremist minority threatens to focus again on 
Jews.
    Extremism and virulently anti-Semitic movements such as the 
paramilitary Russian National Unity have national membership 
and exposure, and frequently use Nazi-type slogans and symbols.
    My prepared statement includes a list of the primary 
individuals, organizations, and publications that routinely 
promote the worst anti-Semitic stereotypes and behavior.
    Attacks against Jews and Jewish institutions escalated last 
summer. And the formal hate movements are now complemented by 
more mainstream attacks in the mass media which, tied to 
elections, have divided political contenders by accusing them 
of Jewish connections.
    Mr. Chairman, you and your colleagues have before you a 
leaflet that appeared prior to the parliamentary elections in 
Russia in December 1999. And this leaflet was distributed 
nationwide it tried to taint Mayor Luzhkov of Moscow by 
association with one of the leading figures in the Russian 
Jewish community. I think you can see some of the most vile, 
hateful language that can be used.
    To the credit of some authorities in Russia, they have 
tried to ensure that adequate police protection for Moscow 
synagogues during high Holy Day services were present. But a 
continuous security presence either in Moscow or elsewhere in 
Russia is still lacking.
    As Prime Minister and acting President, Vladimir Putin, has 
been involved in efforts to control extremist groups. And most 
recently, 12 members of Russian National Unity were arrested on 
criminal charges.
    The prevention, prosecution, and condemnation of anti-
Semitic crimes and incitement, is only effective if employed in 
an ongoing and consistent manner, independent of elections and 
election hearings.
    In Ukraine, the history of deep-seated societal anti-
Semitism stretches back for centuries. From the legacy of World 
War II, and Stalinist persecutions, has taken its toll on Jews, 
as well as non-Jews.
    Today, Ukraine's anti-Semitism is most visible through the 
publication of anti-Semitic materials which increased in volume 
during and lead up to national elections. Disappointingly, 
public condemnations have not been forthcoming from senior 
officials in any consistent matter.
    Without speaking at length about other countries, I do want 
to note a recent court decision in Belarus where an anti-
Semitic book showcasing passages from the protocols of the 
Elders of Zion, and other virulently anti-Semitic tracks, was 
judged to be scientific in nature. It is one more reminder of 
the distance to be traveled.
    The best response to anti-Semitism and extremism is 
preemptive, and addressing the manifestations that are already 
flaring up and spreading. Let me highlight my key 
recommendations to the Committee.
    Speaking out: It is imperative for leaders to denounce the 
statements which in too many cases inspire violence and 
undermine public confidence in the rule of law. When such ploys 
proceed unchallenged, extremism crosses into the mainstream.
    Prosecution: Governments must enforce laws already enacted 
to combat fascist propaganda and extremism. Anyone who 
propagates ethnic hatred, whether common citizen or government 
official, should be held accountable, and prosecuted to the 
fullest extent of the law.
    Education: Public education campaigns and curricula against 
intolerance should accompany any legislative or judicial 
strategy, particularly in remote regions that lack the economic 
and educational resources of urban areas.
    U.S. Engagement: U.S. officials must emphasize to their 
counterparts in the successor states the importance of 
continuing the transition for a democratic and pluralistic 
society, and of developing an appropriate infrastructure to 
permanently support economic development, law enforcement, and 
minority rights.
    Beyond the confines of Capitol Hill, direct contacts with 
leaders and counterparts in the region are also instrumental in 
identifying those agents of progress and in impacting upon 
public and elite attitudes.
    One example of a Russian-based initiative is an 
unprecedented interfaith religious leadership coalition 
coordinated by Rabbi Pinchas Goldschmidt who testified last 
year before the committee, and the Russian Jewish Congress, 
which is planning a high profile U.S. visit, and proposes to 
cooperate in the distribution of U.S. assistance projects as a 
means of gaining credibility among and access to their own 
constituents.
    Finally, Mr. Chairman, my late friend and mentor, Morris 
Abram, to whom I have dedicated my testimony, was fond of 
quoting from the Rabbinic passage: ``The day is short, the task 
is great, the workers are lazy, the reward is great, and the 
Master is impatient. You are not called upon to complete the 
work; neither are you free to desist from it.''
    Thank you, Mr. Chairman, for this opportunity to testify.
    Senator Smith. Thank you, Mark. Appreciate it very much.
    [The prepared statement of Mr. Levin follows:]

                  Prepared Statement of Mark B. Levin

    Mr. Chairman, thank you for the opportunity to appear before this 
Committee to discuss the nature and remedies for popular hate movements 
in the successor states of the former Soviet Union. I am testifying on 
behalf of NCSJ, Advocates on behalf of Jews in Russia, Ukraine the 
Baltic States & Eurasia, which I serve as Executive Director. NCSJ, a 
non-for-profit agency created in 1971, is the mandated central 
coordinating agency in the United States on behalf of the 1.5 million 
Jews in the successor states. Today, NCSJ continues its commitment to 
safeguard the religious and political freedoms of Jews living in the 
successor states, protect their right to emigrate without impediment, 
monitor and combat anti-Semitism, and ensure that Jews have full access 
to Jewish education, culture, and heritage. NCSJ comprises 46 national 
member agencies and over 300 local community councils and federations 
across the United States. The Russian Jewish Congress, an umbrella 
organization of Jewish communities and organizations in the Russian 
Federation, with which we and the organized American Jewish community 
work in close cooperation, has asked to be associated with today's 
testimony.
    Those of us who struggled to free Soviet Jews during the last 30 
years, whether in Congress or in citizen movements, would never have 
imagined last month's Russian Presidential election, which met 
international standards and reflected a vibrant and engaged polity. 
Last December's parliamentary elections were similarly unimaginable 
just 10 years ago, in spite of the attempts to manipulate the outcome 
through the media. The other successor states exhibit an uneven range 
of democracy and civil society, from the unchained Baltic democracies 
of Lithuania, Latvia and Estonia to the largely untrained autocracies 
of Central Asia. In most cases, however, the distance traveled is 
significant. We would never have imagined a present where American 
Jewish delegations and indigenous Jewish leadership routinely meet with 
political leaders of the Russian Federation and most other successor 
states, allowing us to convey our concerns and hopes directly to those 
in power.
    At the same time, we would never have imagined a post-Soviet 
landscape littered with neo-Nazi and fascist-oriented extremists 
visibly trying to revive the same fundamental ideology against which 
the Russian people battled so fiercely just six decades ago. As with 
other European countries that have seen a resurgence in hate movements 
and anti-Semitic appeals, Russia has also experienced this ugly 
phenomenon along with other successor states, particularly those 
bordering Eastern Europe. This reality is at once frightening and 
challenging, frightening since the stakes are so high at this decisive 
moment in the future direction of these fragmented societies and 
challenging since Americans and like-minded survivors of Soviet 
totalitarianism can still have a tremendous impact on that future 
direction. To do so, America must act now to support targeted 
initiatives and remain committed to seeing through what will be a 
decades-long succession of progress and setback.
    The Committee on Foreign Relations, the U.S. Senate and the U.S. 
Congress have all established a proud and indispensable track record of 
leadership in the spheres of international human rights, religious 
freedom, and minority protection. The Senate's ongoing engagement and 
creativity on the international issues being addressed in today's 
hearing has been indispensable over the past decades of cold war and 
emerging democracy in Europe. Just last month, Mr. Chairman, 96 of your 
colleagues joined you and Senator Biden in urging Russia's new acting 
President Vladimir Putin to take strong measures against anti-Semitism, 
eliciting an almost immediate and unequivocal Russian response. This 
was an indispensable reinforcement of last year's Smith-Biden letter to 
then-President Boris Yeltsin signed by a total of 99 Senators, on the 
eve of his meeting with President Clinton in Cologne.
    America's role in this respect is not significantly different from 
that envisioned by the aging Thomas Jefferson, who wrote in 1824, ``I 
shall not die without a hope that light and liberty are on steady 
advance. . . . And even should the cloud of barbarism and despotism 
again obscure the science and liberties of Europe, this country remains 
to preserve and restore light and liberty to them. In short, the flames 
kindled on the 4th of July, 1776, have spread over too much of the 
globe to be extinguished by the feeble engines of despotism; on the 
contrary, they will consume these engines and all who work them.''
    The Soviet Jewry movement, from which my organization originated 
and in which hundreds of successive Members of the U.S. Congress 
actively participated, can claim an instrumental role in actualizing 
for the first time some of the fundamental principles enshrined in the 
1948 Universal Declaration of Human Rights. The Helsinki Final Act, the 
Organization for Security and Cooperation in Europe, the Commission on 
International Religious Freedom and the reality that nearly all 
countries today must accept the validity of international standards 
even if they continue to violate them, all bear the mark of American 
pioneers who redefined the boundaries of conventional diplomacy and 
partisan politics.
    I wish to dedicate my testimony today to the memory of one of those 
pioneers, who passed away last month. Morris Abram, among the American 
Jewish community's most distinguished leaders and a former Chairman of 
NCSJ, was a prominent lifelong advocate for civil rights at home and 
human rights worldwide. He served five U.S. Presidents and was no 
stranger to these halls. He served on the prosecution team at the war 
crimes tribunal in Nuremberg in the 1940's, helped galvanize support 
for the Soviet Jewry movement in the 1980's, and spent his last 10 
years addressing the court of international opinion within the United 
Nations system.
    Responsible for the famous 1963 ``one man, one vote'' landmark 
Supreme Court ruling, Morris Abram maintained that appeals to racism 
and bigotry are effective only so long as society tolerates it. As 
America's opinion-leaders began making clear in the 1960's that racist 
rhetoric was unacceptable, mainstream politicians and others stopped 
using it. In much the same way, delivering a strong, public and 
consistent message to Russian society is the most obvious way for 
Russian leaders to impact the public attitudes that reward anti-Semitic 
and xenophobic appeals.
    Morris Abram understood how to apply the lessons from our own 
national history to the world stage. As you yourself have powerfully 
suggested, Mr. Chairman, America's own spotty record on religious 
freedom does not disqualify us from admonishing the world, rather it 
obligates us to speak out and offer creative solutions to the community 
of nations.
    The end of the cold war has presented new challenges to all 
concerned with the future of European society. Reflecting on his own 
role in promoting democracy and civil society in the wake of communism, 
Vaclav Havel writes, ``The time of hard, everyday work has come, a time 
in which conflicting interests have surfaced, a time for sobering up, a 
time when all of us--and especially those in politics--must make it 
very clear what we stand for.''
    Leaders by definition help shape and inform the views of their 
constituents when they wish. As the Anti-Defamation League's September 
1999 survey of Russian societal attitudes reported, 44 percent of 
Russians hold strongly anti-Semitic views. (With the Chairman's 
consent, I would submit the ADL report for insertion into the record of 
this hearing.) Many of these 44 percent are probably drawing lessons 
from pre-Soviet and Soviet leadership, who used anti-Semitism as a 
unifying device. Many of these 44 percent would probably think 
differently if those in positions of leadership and respect spoke out 
more forcefully against the canards and venom which characterize too 
many political speeches by fringe and--increasingly--mainstream 
politicians. We see the 44 percent statistic as a challenge rather than 
a failure. The failure will come if leaders do not set the tone for 
appropriate and acceptable rhetoric. We may not penalize nations for 
the sentiment in their hearts, but we must hold leaders accountable for 
effecting progress in public discourse and behavior.
    Elsewhere in the successor states, the region of greatest 
significance is to Russia's west: Belarus, Ukraine, and the Baltic 
states. Belarus and Ukraine face contemporary movements that are partly 
inspired and supplied by the infrastructure of hate groups in Russia. 
With over half a million Jews living in Russia and over 400,000 in 
Ukraine, these two countries represent the flash point of anti-Semitic 
extremism and carry the highest stakes should the campaign for 
tolerance and civil society falter. The three Baltic states, whose pre-
Soviet democratic tradition sets them apart from the other successor 
states, are struggling with issues of historical and national identity, 
including the remnants of pro-Nazi World War II detachments.
                                 russia
    The modern phenomenon of post-Soviet hate groups combines elements 
from the fascism of World War II and the nationalism that stretches 
back to czarist times. Speakers and participants in rallies and attacks 
frequently resort to Holocaust references and Nazi symbolism, including 
use of the swastika. This present-day phenomenon is troubling in itself 
as the groups continue to gain supporters and political power, and in 
the inconsistent condemnation by Russian leaders and officials.
    Russia's 1997 Religion Law remains a source of difficulty for 
numerous religious denominations that are not considered 
``traditional'' religions. Although the Religion Law recognizes Judaism 
as traditional, a number of Russian Jewish leaders as well as NCSJ have 
criticized this law out of a sense of historical memory and out of 
concern that the freedom of no religion can be guaranteed if that of 
any other religion is denied or abridged. The Religion Law could 
provide the legal basis for future restrictions on Jews and other 
religious communities currently assumed to be ``traditional''.
    While the anti-Semitism that existed as official State policy 
during the Soviet era has not resurfaced, some prominent political 
figures, particularly those associated with the Communist Party and 
ultra-nationalist movements, have employed anti-Semitism to further 
their own political ambitions. Such anti-Semitism, espoused by 
political leaders in parliamentary hearings, on television, in 
newspapers and at mass rallies, threatens to create a hostile 
environment for the Russian Jewish community. While still falling short 
of state-sponsored anti-Semitism, sporadic statements by government 
officials and increasingly extreme election-oriented attacks in the 
state-owned media compel constant reevaluation.
    The fact that this practice of scapegoating Jews as the source of 
Russia's economic and social problems was less prominent than expected 
during Russia's recent election cycle is largely a reflection of 
Russia's focus on the ongoing campaign in Chechnya. The sustained 
assault on Chechnya has served to distract the attention of Russian 
hate-mongers, who have scrambled to fuel the xenophobia underlying much 
of the public support for military actions in the would-be breakaway 
republic. Whether the Chechen campaign succeeds or fails in Russian 
eyes, Russian Jews fully expect to be blamed for many of its human and 
financial costs. And once the Chechen people are no longer center-stage 
to Russian xenophobia, the venom of Russia's extremist minority 
threatens to focus again on Jews.
                     hate movements in russia today
    Written and verbal statements by General Albert Makashov, a leader 
in the Communist Party and deputy in the Duma until last December's 
parliamentary elections, include an October 1998 editorial in the 
Russian newspaper Zavtra in which he stated that a ``Yid'' (derogatory 
Russian term for Jew) is ``a bloodsucker feeding on the misfortunes of 
other people. They drink the blood of the indigenous peoples of the 
state; they are destroying industry and agriculture.'' The Duma failed 
to approve a resolution of censure against General Makashov for his 
anti-Semitic remarks, when it had the opportunity in 1998 and 1999, and 
in particular for his comments calling for death to Jews. The Communist 
Party has also failed to condemn General Makashov or to discipline him.
    The extremist and virulently anti-Semitic Russian National Unity 
(RNE) movement is a paramilitary group registered in more than two 
dozen Russian regions, including major population centers. It is 
thought to have 50,000-60,000 members, of whom 10 percent are actively 
involved. At the same time, the skinhead movement in Russia, which 
first appeared in the mid-1990s, had already claimed 10,000 members by 
1997. In July 1998, the Russian government proposed a ban on Nazi 
symbols and literature, but the legislation is still awaiting approval 
from the Russian Parliament. Locally, however, Moscow Mayor Yuri 
Luzhkov prohibited RNE from holding its convention in Moscow in 
December 1998. Mayor Luzhkov also visited a Moscow synagogue in a show 
of solidarity after a bomb was found there.
    Although Pamyat was the leading Russian extremist group a decade 
ago, its place has been taken by newer or reconstituted groups--
especially RNE--whose leaders and activists demonstrate more 
sophisticated manipulation of the political process and therefore pose 
a greater threat to rule of law and protection of minorities. Attempts 
by the Russian government to take action against these groups have only 
recently begun to pay off, with news that 12 members of Russian 
National Unity were arrested on criminal charges. The following 
politicians have regularly engaged in and supported irresponsible and 
inflammatory rhetoric against Jews and other Russian minority groups:

    General Albert Makashov, former Duma Member
    Viktor Ilyukhin, Duma Member, heads security committee
    Gennady Zyuganov, Duma Member, heads Communist Party
    Vladimir Zhirinovsky, heads ultra-nationalist Liberal Democratic 
Party
    Nikolai Kondratenko, Governor of Krasnodar, Russia
    Alexander Barkashov, heads Russian National Unity
    Igor Semyonov, prominent in Russian National Unity

    Mr. Zhirinovsky is now Deputy Speaker for foreign affairs in the 
new Duma, also chairing the committee responsible for media affairs, 
and a political associate of Governor Kondratenko now chairs the Duma 
committee on foreign affairs. These developments bespeak the 
mainstreaming rather than the marginalizing of hate.
    RNE publications and their competition, though properly 
characterized as extremist, have gained such wide distribution that 
they may no longer be considered fringe. The following publications 
have consistently disseminated an alarming degree of virulent anti-
Semitic messages, exhorting their readers to anti-Semitic violence:

    Natsionalnaya Gazeta
    Russkaya Gazeta--frequently uses `kike,' and other anti-Semitic 
words/phrases
    Russkaya Mysl (weekly, Russian language) (Dec. 1998: in special 
issue in the form of leaflets w/wartime posters and the appeal: ``Death 
to the Yiddish Occupants'')
    Russkaya Pravda
    Zavtra
     Pamyat
    DUEL, fascist publication circulated both in print and on the 
Internet, which chillingly evokes Nazi-era propaganda, flashing images 
of Jews as pigs to be slaughtered

    The dissemination of anti-Semitic literature and the preaching of 
anti-Semitic and xenophobic messages by certain political leaders has 
contributed to numerous incidents of popular or ``street'' anti-
Semitism in the past 2 years. Attacks or attempted attacks against Jews 
and Jewish institutions increased with alarming ferocity last summer, 
with the stabbing of a Moscow community leader inside the Moscow Choral 
Synagogue, bombs exploding adjacent to synagogues, and explosive 
packages found inside at least two Jewish institutions. To their 
credit, Moscow authorities ensured adequate police protection for the 
city's synagogues during last autumn's High Holy Day services and no 
serious incidents occurred, but a continuous security presence either 
in Moscow or elsewhere in the Russian Federation is still lacking.
    RNE held a demonstration in Moscow on January 31, 1999. That same 
weekend, youths interrupted the convention of the liberal Democratic 
Choice of Russia Party, making Nazi salutes and praising Stalin. In 
early 1999, the town of Borovichi experienced an upsurge of anti-
Semitism in the form of posters and caricatures, Jewish activists and 
their families were threatened with violence, and fire was set to a new 
Jewish community facility provided by the town.
    On March 7, 1999, a synagogue in Novosibirsk was desecrated. On May 
1, two identical bombs exploded near Moscow's major synagogues; RNE was 
the prime suspect in the investigation. On May 2 and 3, the only 
synagogue in Jewish Autonomous Oblast in Siberia was attacked; windows 
were broken and swastikas were formed out of stones in the yard. On May 
18, a disconnected though powerful bomb was found inside the Shalom 
Jewish Theater in Moscow.
    On July 13, a neo-Nazi brutally stabbed a Jewish community leader 
inside the Moscow Choral Synagogue, and on July 25 a powerful bomb was 
discovered inside another Moscow synagogue, shortly before a religious 
celebration. Bombs also exploded adjacent to each of two Moscow 
synagogues during the same period. Moscow Chief Rabbi Pinchas 
Goldschmidt told us at the time, ``The situation is the worst it has 
been since I am here--it has never been worse.'' Rabbi Goldschmidt and 
his family have lived in Moscow for over 10 years.
    The existence of formal hate groups is now complemented by more 
mainstream attacks in the mass media. Carefully timed media attacks, 
based on the assumption that Jewish identity can disqualify candidates 
in the eyes of voters, have sought to tar political contenders with 
Jewish connections and even Jewish heritage. Two recent national 
broadcasts over O.R.T., a television network in which the Russian 
government has controlling interest, have been of special concern. In 
November l999, days before Russia's parliamentary election, the leading 
news magazine ``Vremya'' aired a report that accused the Russian Jewish 
community in general, and the Russian Jewish Congress in particular, of 
being a ``fifth column'' for the West. Three days before Russia's March 
26 Presidential election, O.R.T. capped a series of attacks on 
reformist candidate Grigory Yavlinsky by tying his support to gays, 
Jews, and Israelis. During the report, the images displayed included a 
scene of Jews in Hasidic garb.
    The series of media attacks was understood by observers and 
political analysts as an attempt to keep Yavlinsky from draining votes 
from Mr. Putin. To the best knowledge of NCSJ, the Russian government 
has yet to condemn or repudiate either of these reports that were 
watched by millions of Russians, which is particularly unfortunate 
since audiences are uniquely focused during election campaigns--a fact 
the hate-mongers seem to fully appreciate.
    A leaflet disseminated across Russia in December 1999 used a 
photograph of Russian Jewish Congress leader Vladimir Goussinsky 
standing with Moscow Mayor Yuri Luzhkov, both men wearing yarmulkes, 
under the heading, ``A Puzzle for Children: Which of these two is 
Jewish?'' The tag line read: ``According to some information, the real 
name of Luzhkov is Katz. His name Luzhkov he took from his first 
wife.'' The leaflet was distributed just before Russians would vote in 
parliamentary elections, and Luzhkov's party was a leading contender 
for seats in the Duma. I would ask to submit the leaflet with English 
translation into the record of this hearing.
    Given the current environment, has it become politically convenient 
to resort to ethnic and religious stereotypes, and politically 
inconvenient to denounce the propagandists?
    Whatever these troubled economic and political times portend for 
Russia, former President Boris Yeltsin's administration did make 
various efforts to work against the nationalist and extremist forces in 
Russia. In an historic address to the Nation on the occasion of the 
57th anniversary of Nazi Germany's invasion of Russia in June 1998, 
President Yeltsin warned for the first time of an increasing threat to 
Russia by the active neo-Nazi movement. In addition, he and other 
senior members of his government condemned a number of manifestations 
of anti-Semitism in Russia and pledged to take action. Those first 
steps were noteworthy and encouraging, but a consistent and dependable 
legal framework is needed to counter rhetoric with rhetoric and action 
with action.
    Since entering government, President-elect Putin has been involved 
in efforts to control extremist groups. As Director of the FSB, Russian 
counterpart to the FBI, Mr. Putin was responsible for coordinating and 
directing enforcement of anti-incitement statutes and other laws 
designed to protect minority groups. As Prime Minister, Mr. Putin 
addressed a delegation from the Federation of Jewish Communities of the 
C.I.S. delivering a strong statement against anti-Semitism. The recent 
trial and committal of the Choral Synagogue attacker reaffirmed for 
many the commitment of Russian officials and President-elect Vladimir 
Putin to protection of minorities, as did his post-election 
announcement that the since-recovered stabbing victim--Leopold 
Kaimovsky--would be nominated for decoration as a hero of the state. It 
is too early to judge the impact from the reported arrests of Russian 
National Unity members, but their successful prosecution would 
represent a step forward.
    While official condemnation of certain verbal and physical attacks 
is encouraging, the delay in high-level statements helps fuel and has 
unintentionally encouraged the increasing frequency and severity of 
anti-Semitic incidents. The prevention, prosecution and condemnation of 
anti-Semitic crimes and incitement are only effective if employed in an 
ongoing and consistent manner, independent of elections and 
electioneering. Respecting and protecting of minority rights cannot be 
permanent if only implemented episodically in response to Western 
pressure; such measures are inherently in Russia's own interest.
    Since becoming acting President, in addition to his decorating of 
Mr. Kaimovsky, Mr. Putin has conveyed to U.S. Congressional leaders his 
government's commitment to combating anti-Semitism and other forms of 
ethnic and racial hatred. NCSJ and other Jewish organizations have 
expressed their willingness to work closely with his government and 
with the Russian Jewish community to implement public campaigns and 
training programs to promote this goal.
    I would like to provide one example of a community-based initiative 
to stem the destructive forces of extremism and xenophobia in Russia. 
Chief Rabbi Goldschmidt, acting in his capacity with the Russian Jewish 
Congress and in conjunction with NCSJ, has coordinated an unprecedented 
interfaith leadership coalition within the Russian Federation that can 
begin to address the intolerance and mutual suspicion underlying 
Russian society. The coalition represents the religious leadership of 
the Russian Orthodox, Jewish, Islamic, Catholic and Lutheran 
communities in the Russian Federation.
    Rabbi Goldschmidt's project is grounded in the belief that, 
although religion has been used to divide, it also carries the 
potential for facilitating dialog and cooperation within and between 
communities. Despite the significant cleavages and outstanding 
grievances within modern Russian society, leading clergy from five 
disparate faiths have united to promote a common agenda of humanitarian 
action, communal healing, and civil society. The coalition is self-
sustaining, but there will also be an opportunity for Americans to 
bolster its profile and impact.
                                ukraine
    Ukraine presents a combination of challenges and opportunities. The 
history of deep-seated societal anti-Semitism in Ukraine stretches back 
for centuries, and the legacy of World War II and Stalinist 
persecutions has taken its toll on Jews as well as non-Jews. The 
Holocaust saw 600,000 Ukrainian Jews murdered and left a haunting 
symbol in the ravine at Babi Yar in Kyiv where over 33,000 Jewish 
victims were executed over mass graves in just 2 days in September 
1941. Despite the painful memories, the modern-day manifestation of 
anti-Semitism and hate-group activity is lower in Ukraine than in 
neighboring Russia.
    The Ukrainian Jewish community and American Jewish organizations 
work closely with the Ukrainian government, as well as with the U.S. 
administration and the Congress, on many items of interest and concern. 
Several issues remain unresolved, but the lines of communication and 
understanding are open. The issue of restitution, which has attracted 
much deserving attention with respect to Holocaust-era claims, is now 
the subject of dialog and discussion with respect to hundreds of Jewish 
communal properties in Ukraine that were seized by the Soviet regime 
and could be used by the surviving communities. Anti-Semitism in 
Ukraine today is most visible through the publication of anti-Semitic 
articles, journals, and leaflets. As in Russia, expressions of popular 
anti-Semitism do increase in volume during the lead-up to national 
elections, as named and unnamed political contenders seek to 
delegitimize their opponents by tying them to Jewish stereotypes.
    According to a recent report by the Jewish Confederation of 
Ukraine, the publication rate of anti-Semitic articles or periodicals 
rose 20 percent in 1998 to 265, largely the result of an influx of 
material from Russian sources and the political jockeying prior to 
Ukraine's parliamentary elections; interestingly, despite the high 
visibility of anti-Semitic material, the number of Jews in the 
Ukrainian Parliament actually increased to nearly 20. In 1999, which 
culminated in Ukraine's Presidential election, the publication rate of 
anti-Semitic material slightly declined to 222--still an unacceptably 
high number that included the Parliament's own newspaper. I am pleased 
to submit the Confederation's report for inclusion in the record of 
this hearing. While Ukrainian Jewish leaders feel that politicians and 
officials need to speak out more forcefully against the often 
incendiary content and packaging of these messages, the Ukrainian 
authorities have moved to suspend a handful of publications while 
others have cut circulation. Disappointingly, public condemnations have 
not been forthcoming from senior officials in any consistent manner.
    It would be a grave error to take for granted the relatively 
restrained degree of open anti-Semitism in Ukraine. It is simmering 
beneath the surface in a way that need not incriminate Ukrainian 
society, but which must be addressed by Ukrainian opinion-shapers and 
policymakers if that Nation ever hopes to achieve integration with the 
West. Working with Jewish leadership in Ukraine and the United States, 
and with the U.S. Congress and Administration, the Ukrainian Government 
is beginning to promote historical dialog and redress. Much ground 
remains to be covered in the struggle for a tolerant society.
                                belarus
    In Belarus, as in too many European countries, the legacy of anti-
Semitism is palpable. The present-day manifestations are less 
pronounced than in Russia, but the international isolation and 
authoritarian nature of the regime generate a potentially volatile mix. 
The less democratic a country, the greater our concern that leaders in 
the future may resort to the engines of hate to drive their policies or 
popularity, unrestrained by the rule of law or mature civil society. 
Mindful of this caveat, the government of Belarus has been responsive 
to certain concerns, but not with any degree of consistency.
    Much of the media anti-Semitism in Belarus emanates from Russian 
sources, notably Russian National Unity. In 1999, the Government of 
Belarus halted the publication of a Russian-based newspaper under a 
statute banning publications that incite ethnic hatred. An April 1999 
arson attack on a Minsk synagogue received national media coverage, and 
authorities arrested two suspects. The government has formed a 
commission on national minorities, where most religious and ethnic 
groups are represented.
    Last month, a Belarus court ruled in favor of the publisher of an 
anti-Semitic book in a suit brought by the Jewish community. The book 
is a collection of anti-Semitic material taken from such anti-Semitic 
sources as the Protocols of the Elders of Zion. The community charges 
that the book, A War According to the Laws of Viciousness, ``discredits 
the honor, dignity and reputation of Jews.'' The presiding judge ruled 
that the material does not defame the plaintiffs and is of ``scientific 
character and the topic of discussion by scholars around the world.'' 
In letters to a senior official in Minsk and to the Belarusian 
Ambassador in Washington, NCSJ wrote that ``the distribution of this 
book incites inter-ethnic hatred and undermines the prospects for civil 
society in Belarus'' and called on the Government ``to take a strong 
and principled stand against those who promote intolerance, bigotry and 
anti-Semitism.'' NCSJ has spoken with the Belarus Ambassador to express 
our concern and will continue to support the Belarus Jewish community 
as it appeals the court's decision.
    Although greater freedom and openness often spell greater 
opportunity for the expression of hate, democratic institutions also 
afford greater transparency and accountability. And participatory 
democracies lend themselves more naturally to the growth of civil 
society that can check and counter xenophobia.
                           the baltic states
    Among the Baltic states, Latvia and Lithuania are still confronting 
issues and groups dating back to World War II, including the past 
rehabilitation of alleged war criminals and the prosecution of others. 
As the independence and democratic development of the Baltic republics 
predated the Soviet takeover at the beginning of World War II, these 
three nations retain much stronger traces of civil society and affinity 
to the West than the other 12 successor states.
    Since Latvia regained its independence, the Jewish community has 
enjoyed a positive working relationship with the government and other 
civil institutions. While the Latvian government is currently in 
discussion with the United States and other countries about the 
potential extradition and trial of alleged Nazi war criminal Konrads 
Kalejs, Latvia has seen increased distribution of the notorious book 
The Terrible Year, which blames Jews for Soviet atrocities preceding 
the German invasion. Veterans of the Latvian Legion of the Nazi SS 
marched through Riga last month. In 1998, a Riga synagogue was bombed 
and later defaced with anti-Semitic graffiti, and in April 1999 the 
Holocaust memorial near Riga was bombed. We are not aware that any 
suspects have been arrested or prosecuted.
    Lithuania has a record of swift rehabilitations following the post-
Soviet regaining of Lithuanian sovereignty. Earlier this year, the 
Lithuanian Parliament passed a law that allows courts to try alleged 
war criminals in absentia when they are too ill to attend. This 
important legislation redresses the increasingly common situation where 
those who have evaded justice for so long have then avoided prosecution 
because of their now advanced age. In conjunction with B'nai B'rith 
International, Lithuania recently distributed 7500 copies of The Diary 
of Anne Frank in Lithuanian translation for use in the school system. 
Rather than the past as prologue, it can also be a warning if the 
proper lessons are inculcated into future generations.
                            recommendations
    Post-Soviet societies now stand in the breach between the most 
appalling features of communism and the promise of a modern civil 
society. Havel has observed: ``The authoritarian regime imposed a 
certain order. . . . This order has now been shattered, but a new order 
that would limit rather than exploit these vices, an order based on 
freely accepted responsibility to and for the whole of society, has not 
yet been built--nor could it have been, for such an order takes years 
to develop and cultivate.'' This is the critical time, not only for 
securing the protection of minorities today but for ensuring the 
potential for future progress and societal stability.
    The advocacy movement on behalf of the Jews in the former Soviet 
Union has made great strides over the past three decades, from 
attaining freedom of emigration for Jews to the rebirth of Jewish 
communal life, but anti-Semitism today remains a serious threat in 
Russia other successor states. The best response to this phenomenon is 
preemptive, and addressing the manifestations that are already flaring 
up and spreading.
    Speaking out: It is imperative for government and civic leaders to 
denounce the inflammatory and irresponsible words which, in too many 
cases, inspire violence and undermine public confidence in the rule of 
law. Although many members of extremist groups believe inherently in 
xenophobic responses to national difficulties, their leaders appeal to 
such passions for broader political advantage. When such ploys proceed 
unchallenged, the most cynical and dangerous messages gain implicit 
validation and extremism crosses into the mainstream. When, on the 
other hand, opinion-shapers and public personalities consistently 
condemn hateful and instigating rhetoric, this removes the cloak of 
respectability and reduces the value of resorting to a vocabulary of 
fear. This is the lesson that Morris Abram taught to his home State of 
Georgia and to the American people, and to the world community. And 
these concerns will best be addressed when Russian leaders appeal and 
affirm to the Russian people that extremism and violence are 
antithetical to democratic progress and economic integration.
    Prosecution: Concrete action by government and non-governmental 
leadership must follow public statements of condemnation. The 
government must enforce laws already enacted to combat fascist 
propaganda and extremism. In addition, developing hate-crime 
legislation, monitoring hate-group activities and utilizing law 
enforcement and judicial mechanisms are key components to combating 
ethnic hatred. Anyone who propagates ethnic hatred, whether common 
citizen or government official, should be held accountable and 
prosecuted to the full extent of the law, and parliamentary immunity 
lifted from those elected officials who incite ethnic hatred and 
violence. Bringing Holocaust-era war criminals to justice also reminds 
the public of the horrific consequences of unbridled hate. 
Unfortunately, we are unaware of any successful prosecutions against 
those who engage in virulent anti-Semitic behavior in the former Soviet 
Union.
    Public Education: Public education campaigns against intolerance 
should accompany any legislative or judicial strategy, particularly in 
remote regions that lack the economic and educational resources of 
urban areas. Such programs can encourage multi-cultural understanding 
and be integrated into a long-range strategy toward the eradication of 
anti-Semitism and ethnic hatred in Russia and elsewhere.
    NCSJ advocates long-term and institutional cooperation among the 
U.S. Government, governments of the successor states and NGO's to 
develop and implement educational initiatives to promote pluralism and 
tolerance. Integrating tolerance-oriented curricula into the school 
systems is indispensable, and Holocaust education provides a solid 
track record. Another important strategy involves using the mass media 
to counteract negative and hateful messages. Some Western models for 
combating racism and ethnic hatred may be adapted to Russian 
communities as well.
    Jewish Community Role: NCSJ has been working with its member 
agencies, such as the Anti-Defamation League (ADL) and Jewish Women 
International to develop programs with Jewish community leadership on 
democratic initiatives. In addition, we are also working with other 
member agencies, such as the American Jewish Committee (AJC), to 
highlight particular problems as well as to identify solutions. The 
Jewish community is prepared to offer guidance and make recommendations 
to the Russian government for a comprehensive campaign to counteract 
intolerance, which the Russian government must ultimately fight through 
legislation, law enforcement, and public education.
    Long-Term Framework: Addressing extremist activities means more 
than monitoring and investigating individual incidents--and, hopefully, 
beginning to show actual results--or speaking out against specific 
individuals and groups. A system of law that protects the rights of 
religious minorities and which is predisposed to the prosecution of 
those threatening these rights is the best and lasting guarantee of a 
climate that promotes tolerance and the rule of law.
    Institutional Focus: The list of organizations, individuals, 
publications and incidents relates only to the current manifestations 
of an undiminished extremist trend. Such organizations as Pamyat, which 
once led the list of anti-Semitic hate-mongers, have now been eclipsed 
by formerly obscure groups as RNE. Names like Vladimir Zhirinovsky, 
once thought to be relegated to the past by Alexander Barkashov and 
Albert Makashov, have now returned as mainstream hate-mongers. Without 
a consistent institutional focus on the phenomenon and the climate of 
hatred and violence, as well as on examples and practitioners of the 
day, there will be no respite in the present and no guarantee of rule 
of law for the future.
    U.S. Government Role: The situation also requires continued U.S. 
Government engagement. U.S. officials must emphasize to their 
counterparts in the successor states the importance of continuing the 
transition to a democratic and pluralistic society and of developing an 
appropriate infrastructure to permanently support economic development, 
law enforcement, and minority rights.
    As I mentioned at the beginning of my testimony, the U.S. Congress 
and the Administration have been consistently engaged on the specific 
concerns regarding anti-Semitism and popular xenophobia as well as on 
the broader imperative of continued U.S. support for the agents of 
tolerance and civil society throughout the successor states. Beyond the 
confines of Capitol Hill, direct contacts with leaders and counterparts 
in the region are also instrumental in identifying those agents of 
progress and in impacting upon public and elite attitudes. And it 
reminds the American people of our mission in the world.
    I return to the interfaith religious leadership coalition 
coordinated through Chief Rabbi Goldschmidt and the Russian Jewish 
Congress, and two specific ways in which the U.S. Government and 
Congress can play a role in this unifying factor for civil society. The 
coalition plans a U.S. visit by a small but senior delegation of 
religious leadership representing the different faiths. In addition to 
providing the aegis for such a groundbreaking visit, the United States 
also offers a broad range of useful models that clergy can apply to 
Russian society. The coalition also seeks to cooperate in the 
distribution of U.S. assistance projects, which would allow the inter-
religious coalition to build working relationships and to gain 
credibility among and access to their own constituents.
    My friend and mentor, Morris Abram, was fond of quoting from the 
following rabbinic passage: ``The day is short, the task is great, the 
workers are lazy, the reward is great, and the Master is impatient. . . 
. You are not called upon to complete the work, neither are you free to 
desist from it.'' Thank you, Mr. Chairman, for this opportunity.
                                 ______
                                 
 The Jewish Confederation of Ukraine--The Institute for Jewish Studies
   the review of the anti-semitic publications and manifestations in 
                                ukraine
    More than two hundred (222) anti-Semitic publications in the 
official periodicals of Ulkraine were registered in 1999. The total 
number of registered anti-Semitic publications comes to 250 considering 
the plenitude of pre-election leaflets of the anti-Semitic content, 
along with other anonymous publications which appeared during the pre-
election campaign of the head of Kiev administration and presidential 
pre-election campaign in Ukraine. Therefore, the total number of anti-
Semitic publications in 1999 is fewer as compared to those in previous 
1998 (then they were 265). This fact could be accounted first of all 
for the suspension of the `Idealist' paper issuance (starting April, 
1999); the cutback of circulation of the `Sa Vilnu Ukrayinu' paper 
(from four per week in 1998 through to the weekly edition in 1999, and 
its suspension in December, 1999); and the cutback of circulation (as 
compared to 1998) of the `Neskorena Natsija' paper.
    The table suggested below provides the circulation figures of the 
papers that were most active in practicing anti-Semitic publications 
per 1 year and the total number of such publications in each of these 
newspapers per year. Besides, it provides the statistics about the 
amount of most aggressive (rigid) publications from the total number of 
anti-Semitic publications in each of the periodicals per 1 year.


----------------------------------------------------------------------------------------------------------------
                                                                             Total number of    Number of tough
                         Title                             Circulation in      anti-Semitic       anti-Semitic
                                                                1999           publications       publications
----------------------------------------------------------------------------------------------------------------
Za Vil'nu Ukrayinu (ZVU)...............................                 95                 86                 44
Vechirnij Kyiv (VK)....................................                285                 77                 12
Idealist...............................................                  3                 28                 27
Neskorena Natsija (NN).................................                 16                 18                  7
Sil's'ki Visti.........................................                285                  5                  1
Other official periodicals.\1\.........................            No data                 13                  1
Anonymous pre-election publications....................  .................                 23                 12
                                                                           -------------------------------------
     Total:............................................  .................                250                104
----------------------------------------------------------------------------------------------------------------
\1\ ``Other official publications'' include: Stolytsia (1), Hreshchatyk (2), Stolichnaja Gazeta (2), Shliakh
  Peremohy (1); Postup (1); Hrono (1); Podolia (3); Ukrayina Moloda (1); Zhuravlyk (1).

    The dynamics of the anti-Semitic publications can be followed by 
the table, in which data of the number of anti-Semitic publications in 
major publications of the anti-Semitic trend in the previous (1998) 
year is compared to that of 1999.


----------------------------------------------------------------------------------------------------------------
                                                            No. of anti-       No. of anti-     Dynamics of the
                                                              Semitic            Semitic          anti-Semitic
                         Title                            publications in    publications in    publications, to
                                                                1998               1999        1998 (In Percent)
----------------------------------------------------------------------------------------------------------------
Za Vil'nu Ukrayinu (ZVU)...............................                118                 86               72,5
Vechirnij Kyiv (VK)....................................                 29                 77                265
Idealist...............................................                 31                 28                 90
Neskoren a Natsija (NN)................................                 22                 18                 80
Sil's'ki Visti.........................................            No data                  5                100
----------------------------------------------------------------------------------------------------------------

    As it is observable from the suggested data most essential 
indication is more than double increase of anti-Semitic publications in 
Vechirnij Kyiv while the number of tough anti-Semitic publications in 
this newspaper in 1999 remained on the level of 1998.
    Essential changes in the list periodicals those publishing anti-
Semitic materials are observed in 1999. Thus the issuance of the paper 
`Nezboryma Natsija' (Neskorena Natsija)--a periodical of the right wing 
radical party `Derzhavna Samostijnist' Ukrayiny (The State Independence 
of Ukraine) (VO DSU) has been suspended. The Kharkov newspaper 
`Panorama' after several months of being silent is being issued again, 
but anti-Semitic materials have disappeared from its pages. None open 
anti-Semitic publications have been registered in the newspapers that 
were in the list last year, such as `Moloda Halychyna', `Khliborob', 
`Samostijna Ukrayina' `Volyn', `Vinnyts'ka Gazeta', `Moja Rodina--
Ukraina', `Ternopil's'ka Gazeta', `Ukrajins'ke Slovo'. The number of 
anti-Semitic publications in such papers, as `Hrono' (9 per 1998 to 1 
per 1999) has essentially decreased; `Postup' (8 in 1998 to 1 in 1999).
    At the same time plain anti-Semitic of statements started being 
published during the presidential election campaign in one of the most 
widely circulated papers `Sil's'ki Visti'.
    The periodicals, which have made anti-Semitism its chief subject, 
cooperate regularly and closely. They reproduce anti-Semitic articles 
by each other, share the translations of foreign anti-Semitic 
``classics''. In case of `infringement' of one of these periodicals by 
the authority or some criticism on the part of democratic press appears 
they jointly advocate their positions.
    There is sufficient reason to consider that all three newspapers 
such as `VK', `ZU', and `NN' that actively publish anti-Semitic 
materials to a greater or lesser extent are financed from abroad by the 
Ukrainian Diaspora. One trace regular business links between these 
periodicals and foreign organizations. The leaders of various Ukrainian 
Diaspora's organizations regularly visit the editions of the listed 
newspapers. They report about these meetings with enthusiasm. A number 
of anti-Semitic materials published in these newspapers, belong to the 
foreign authors. It is quite obvious, that these newspapers have well-
organized channels on which foreign `classics' of anti-Semitism arrive 
to Ukraine. It is understandable that the newspapers are circulated in 
a number of countries of Europe, in the USA and Canada. The 
replications of foreign readers to particular anti-Semitic publications 
prove it. `VK' has it web page in the Internet and publishes 
replications of its foreign readers to the publications in the 
newspaper.
    As to the events that caused the greatest number of anti-Semitic 
manifestations in 1999. first of all it is necessary to relate the 
periods of election campaigns in 1999: the Kiev mayor election in May 
and Ukraine's president election in October. The number of anti-Semitic 
publications at this particular time increased essentially; the 
leaflets and anonymous newspapers of anti-Semitic content were 
distributed; the anti-Semitic slogans were reanimated, and on the walls 
or buildings anti-Semitic messages were found; the provocations were 
arranged.
    The outburst of anti-Semitism encouraged Gregory Surkis to 
participate in the elections of the mayor of Kiev. Gregory Surkis' 
ethnic onigin became the major accusation's argument of his opponent 
drafted deliberately with respect to the traditional anti-Semitism. His 
`non-Ukrainian origin' and `sinfully earned capital' become the leading 
motifs of diverse publications, leaflets, and statements aimed at him. 
In VK even a special column was set up as a part of the pre-election 
propaganda, where the letters of the readers with insinuations and 
revelations of anti-Semitic characteristic addressed to Gregory Surkis, 
while caricatures and witty remarks aimed at him were published.
    The Party of Slavic Unity in its leaflet, addressing the voters, 
writes: ``Most likely, there are perfect administrators among the 
Koreans. But they are good only in Seoul. Most likely, there are good 
managers among the Azeri people. But their talents can blossom only in 
Baku. It could be that among the Jews there are quite good mayors. But 
they will cope with the function let's say in Haifa or Tel Aviv. . . . 
The mayor of Kiev should be Slavic only! Let the memory of our 
forefathers and the Slavic blood advise you the correct choice!''
    In a number of the anonymous leaflets and newspapers anti-Semitic 
motives sound bluntly and barefacedly. There is an image of a criminal 
oligarch to whom, by virtue of his origin, the interests of Ukraine and 
of its citizens are alien. Any fact regarding the employment or 
business profile of G. Surkis is distorted and presented as a criminal 
one. They used speculations and outspoken falsehood. ``Tomorrow he will 
embezzle money and flee to Israel, being its citizen,'' is written in 
one of them. The same motif is perceived in the article by A. 
Omelchenko--the Mayor of Kiev, the nominee for the second term (``The 
Address of Alexander Omelchenko to the Kievites'', ``Kvartyrne Bjuro'', 
#5, 27.05.99). In his address A. Omelchenko hints at a certain global 
plan of a criminal clan of oligarchs to plunder Kiev, its leaders being 
capable even to get connected to most influential forces, both inside 
the country and abroad: ``Which invisible hand supervises not only 
leading TV and radio channels, newspapers and advertising, but also 
carry numerous foreign propagandists, who are ready ``to hop'' and sing 
on kindly provided stadiums--for they elected the one who will pay''.
    The anonymous newspaper ``Facts without Comments'' is widely 
circulated. Its eight columns are assigned to `the disclosure' of G. 
Surkis, and all of the columns to a greater or lesser extent make use 
of anti-Semitic arguments in fighting the nominee.
    They fabricate provocative leaflet made ostensibly on behalf of the 
Kievites, Jews by their ethnic origin. The objective of the original 
authors of the leaflet is not just to list dubious crimes by G. Surkis, 
but rather to create a profile of a person, ready for the sake of 
profitableness and authority reject his parents and ethnic origin. But 
what is most important, they are to convince the voters, that forces, 
that support G. Surkis are the ``global Jewry'', that has already begun 
to carry out the plan on seizing power in Ukraine. We are interested 
mainly in other things. Just tell, why you a Jew by your origin and 
nature, why do you deny our nationality and your father Surkis Rahmil 
Davidovich's name? Or else the Jews are pursued in Ukraine? Just look 
at our Parliament and that faction, which you affiliate with. Is it 
bad, that there side by side with you work such deputies, the Jews by 
their origin as Zviagil'sky, Tabachnik, Gurvits, Dvorkis, Medvedchuk, 
Joffe, Gubsky, Kosakovsky, Brodsky, Babich, and dozens of others? More 
and more Ukrainian Jews are appointed to high governmental positions 
and govern cities and areas. There were many Jews, including you, in 
the surroundings of Kravchuk Leonid Makarovich, who nowadays is your 
close friend and a person empowered to act for you. Albeit at the time 
of your cooperation were embezzled and depreciated all savings of the 
population, nevertheless they promise to return hereafter. Jury 
Rybchinsky, a Jew by the way, is the adviser on culture of L.D. Kuchma, 
the present President of Ukraine who is also your close friend. Nobody 
persecute Jews in mass media either. Are not our people posses main 
channels of the television and numerous newspapers, including, 
Kievskiye Vedomosti which you have seized from Michael Brodsky. So why 
you let yourself go denying your father, wishing to conceal your 
roots?''.
    The fight for the Presidential office has raised a tide of anti-
Semitism that has fallen outside limits of quite local opposition in 
capital. Especially active were the anti-Semitic arguments used in the 
fight against the acting authority and president L. Kuchma who was a 
nominee for the second term. ``The aristocracy of money'', 
``oligarchy'', ``the thieves and the bribe takers'' are declared to be 
the agents of the outside malicious forces, first of all, Jewish. So, 
the Lvov Association of the Voters of Ukraine writes in the address: 
``Kuchma is not the Ukrainian President. It is difficult to find a 
Ukrainian in his surroundings, but you easily will find a great number 
of Yids (pejorative for the Jews) such as D. Tabachnik, E. Kushnarev, 
V. Rabinovich, G. Surkis, J. Rybchinsky, Joffe, Pashaver, . . . And 
about ten nazi Chassids ``the volunteers''. All those cosmopolitan 
brotherhood protected and given blessing by Kuchma are not just 
thieves, and tear Ukraine to pieces'' (Neskorena Natsija, # 9-10 (149-
150), September 1999, page 1, The Association of the Voters of Ukraine 
``presidential Elections. For whom to vote?'').
    Similar charges reproduce numerous leaflets, the anonymous 1-day 
papers and already named papers such as VK and Za Vil'nu Ukrajinu: ``To 
the great extent the President's environment consists of the people, 
whose interests are rooted in Chassidism (Kushnarev, Rabinovich, 
Volkov, etc.), and even more, in the interests if their own self-
enrichment at any cost which entirely contradicts the ideas of harmony 
and equality common to all mankind'' (Za Vil'nu Ukrayinu, #72-73 (1546-
1547), 10.09.99, pp. 8-9, Iryna Kalynets, Mezha).
    In struggle for the electorate they used the motives of ``the non-
Ukrainian origin'' of a nominee whenever there was an opportunity. One 
of the anonymous leaflets declares: ``Citizens of Ukraine! A nasty 
deception awaits our country during the presidential elections of 1999. 
The Jewish mafia through Natalya Vitrenko is getting prepared to 
capture Ukraine, suppress the Ukrainian people and seize our land. 
Study this Jewish face . . . This is Vitrenko her real last name being 
Dubinskaya . . . Do not believe in the hypocritical slogans of 
Vitrenko! Vitrenko brings forth destruction and death of the Ukrainian 
nation. That one who supports Vitrenko he/she works for the enemies of 
Ukraine and promotes Jews to seize our country. The Ukrainian people! 
Let's protect the Native Land! Let's protect the soil! Let's rescue 
Ukraine from Vitrenko, a Jewish agent in Ukraine! Disallow the Yids to 
come to power! Yidka (a pejorative for a Jewish woman) Vitrenko go to 
Israel! Death to the Yid mafia in Ukraine!!!''.
    The content of this leaflet was immediately reprinted by a number 
of periodicals with every possible variation, which main idea is in the 
formula: the Jew is an enemy of the Ukrainian nation. If not factual, 
then a potential one. The interests of the Ukrainian people, Ukrainian 
State are alien to him/her.
    They declared to be the Jews not only those who has a slightest 
relation to the Jewry, but also everyone, who stands on other 
ideological platform and supports of the other candidate.
    There were instances, when in the places of meetings with the 
candidates, both left-wing, and right-wing orientations, on the walls 
of the houses and a synagogue the images of a swastika and gallows were 
drawn with the star of King David hung up on it and slogans of a type 
``Long Live to Makashov!'' and ``Death to Yids!'' (Zhytomir, L'viv, 
Uman').
    The very fact that 1999 was full of important political events such 
as the elections in many respects has also outlined the priorities in 
the list of the standard anti-Semitic myths. Just in these periods of 
the anti-Semitic publications the myth prevailed about the geopolitical 
influence of the Jews, their global conspiracy against Ukraine. They 
offered numerous actions on the removal of the Jews from all spheres of 
the Ukrainian life.
    The next regarding the frequency of its use goes the myth on the 
guilt of the Jews as far as the Ukrainian people are concerned.
    One more of the ideological theories of anti-Semitism that has 
occupied an essential position in the anti-Semitic propaganda of 1999. 
They are the charges of the Jews in the economic expansion, 
misappropriation of the resources of the country, illegal transfer of 
the capital.
    It is characteristic, that the use of other ideological theories of 
anti-Semitism, they used rather frequently in 1998, in 1999 have been 
pushed off to the background. The gravity of confrontation with the 
acting authority hostile to Ukraine, in the opinion of anti-Semitically 
minded forces has driven those ideological theories of anti-Semitism, 
which were directed straight against this power. Of course, such 
ideological theories as the denial of the holocaust; the anti-humane 
directness of the Jewish religion, and others are available in the 
anti-Semitic texts in 1999 considerably less often, as compared to 
those in 1998.
    The following fact is also essential. While in 1998 they answered 
to the anti-Semitic provocations in the publications with the 
discussions of such issues as the existence anti-Semitism in Ukraine, 
the use of the word ``Yid'' or ``Jew'', in 1999 they were the 
publications about the trial of the authors of the book ``Anti-Semitism 
Against Ukraine''--``VK''. Moreover, there were multiple anti-Semitic 
publications provoked by the ``exposures'' of E. Hodos, that were 
directed against the Jewish organizations, outstanding Jewish 
businessmen and especially the Chassidism and Chabad in particular.
    1. The myth about the geopolitical power of the Jews, the global 
control, and the conspiracy with the purpose to achieve this control.
    Regarding the ratio of the use this myth the previous year it 
occupied the first position, but habitually was used in its standard 
variant, outside the Ukrainian context. This time their main content 
was the Ukrainian reality.
    The realization of this myth can be observed in time, as well as 
its transformation from the universal global evil through to a concrete 
evil, really sinister for Ukraine. Early this year some months prior to 
the elections, it was still used in its classical variant.
    According to the author of Vechirnij Kyiv, who identifies the Jews 
according to the anti-Semitic standards the Jews and the Masons 
maintain that exactly they are most influential, most mysterious and 
secret force, which not simply influences everything, happening in the 
world, but plans such epoch-making events as world wars, revolutions, 
even colonization of all the continents. The masons decide who is to be 
a president in that or other countries. This is certainly a secret 
world government to which ``the USA, Israel, and the United Europe'' 
serve for. ``In its depths the immense projects are born: the 
destruction of some states and nations, and the exalt of others the 
repartition and reorganization of the world. The masons dictate a 
double standard in the global to all the states and even the United 
Nations which since long ago has become a fawner of the USA. Otherwise 
would it be possible for such a small useless State as Israel so 
imperiously dispose in the Middle East without this double standard 
policy don't giving a damn about the UN resolutions, seizing Arabian 
territories, executing the genocide of the Palestinian people in the 
presence of ``the entire world's civilized community'' expelled from 
their native land over forty years back, cut out in the camps of Sabra 
and Shatila in Southern Lebanon and on their own lands that are 
occupied, including Jerusalem? It is also a civilization but masons 
way: everything is allowed but to one people, whatever small it is, 
while all others such as Iraq, Libya, Yugoslavia can be simply wiped 
off the face of the earth for some imaginary operations at any moment 
Clinton or ``the world government of David Rockefeller will wish''. 
(Vechirnij Kyiv, 04.02.1999, p.4, Oleksander Syzonenko, Super-
government. The Masons: From Solomon to Bush and Gorbachev.).
    They get back to the classical global variant of this after the 
elections: ``. . . A few have noticed that among the supervisors of all 
actions of the earth civilization, the representatives of the global 
intelligence, chiefs and judge ``non-cloned sarahs, davids, and isaacs 
are present''. (Vechirnij Kyiv, #283 (16460), 29.12.99, p. 4, Andrij 
Chornukha, Where are those Fences and Those Backstops. . .) .
    With the presidential elections getting near Ukraine becomes the 
main foothold of the battle for the world dominance. The myth about the 
geopolitical dominance of Jews is already presented as an absolutely 
real threat for the independence of the Ukrainian nation, for the 
Ukrainian state. It is filled up with ``the acknowledgement'' 
(``confirmations'') of key posts in Ukraine being seized by Jews (or 
their accomplices); secret arrangements of the world Jewry being under 
way, their major goal being the annihilation of the Ukrainian people.
    ``Under the wise management of Yido-communist fuhrers Ukraine is 
transformed into a perishing concentration camp: about half-million 
people die annually due to famine and sicknesses; the birth rate comes 
to naught, while Kuchma regularly vetoes the improvement of people's. 
Kuchma actually has transformed Ukraine into the USA and Israel's 
territory, ``he skillfully'' accomplishes the plans of the world Yids' 
community on the eradication of the Ukrainian people''. (. . .) He has 
ratified the anti-national and anti-people's law on the elections, 
neglecting the leading role of the Ukrainian nation; through the law 
Kuchma has legalized the Ukrainian nation to be in a position of the 
natives, slowly extinguishing beggars that adhere to the Yid 
internationalism that fool them down, and the destructive policy of 
``the God chosen nation''; he has neglected the national-proportional 
representation in all spheres of public life. If we do not stop the 
actions of such a president, he, acting in interests of the Zionists 
and, certainly, with their help will go far down to the entire 
elimination of the Ukrainian people, to joining the international 
Zionist parliament'' (``Neskorena Natsija'', #13-14 (153-154), 
September 1999, p. 5, Pavlo Holovchenko, ``The Intent and the 
Objectives of President Kuchma's Activity'').
    ``And when an ignorant Khohol-Maloros (a deprecatory for the 
Ukrainians) deceived by the Jewish mass media blames Ukraine's 
independence for all his troubles, who will explain to him the true 
reason of his awful situation, that on behalf of such Ukrainian 
presidents the Ukrainian state is actually controlled and governed by 
Zviagil'sky and Tabachnik, Paschaver and Joffe, Kushnarev and Surkis, 
Gorbulin and Rabinovich''. (Zhuravlyk, #9 (17), September, 1999, p. 2, 
Hvedot Slobodianjuk, Ukrainian Viewpoint. Up to Seven Yids for each 
Layman).
    Among such publications it is possible find outspoken vulgar 
intimidation: ``You, the Yid mason drones, God damned upstarts, devil's 
abortions! Do not you know that we are the Ukrainians, not the American 
aborigines, whom you have driven into the reservations and destroyed? 
Stupid degenerates, you are up to no good business to drive us, native 
people in prisons, like the aborigines in reservations. Don't you know 
that the explosion of the national fury can eliminate you, the blood-
suckers and extortionist of the people, not only from Ukraine, but also 
from all the countries of the world: instead of starting a dialogue 
with us and come to terms, you have become impudent and present 
yourselves as the owners of Ukraine and rulers of the destiny of each 
Ukrainian? We'll show you, the skunks, devil's bastards, you even 
forget about your Sarahs and suitcases. You will flee just in your 
underneath. And those who will have no time in time to run off will be 
bought back for one million dollars, not less. I declare war to you, 
dirty dogs, even prior to the coming of the Large Political Revolt of 
Ukraine. You and your Satan go to the depths of hell!'' (Idealist! #30, 
March, 1999, p. 1, Ivan Shablia, The L'viv Kaganat Cannot Calm Down 
Itself).
    Naturally, the mass media control is also a part of the plan of 
seizing power in Ukraine by the world Jewry. A special attention was 
paid to this aspect of the myth about world domination during the 
election campaigns, which were accompanied by a tough fight of diverse 
forces and clans both in legal and unauthorized mass media.
    For example, the paper Vechirnij Kyiv reprints one of the pre-
election leaflets, in which they affirms, that ``the oligarchy controls 
in Ukraine 100 percent of the national television channels, 80 percent 
of regional and cable television networks, 50 percent of all radio 
channels, 90 percent of central newspapers, and 75 percent of the 
advertising market''. Then they provide the names ``of the main 
proprietors, investors and chiefs'' of the TV channels'', the territory 
of Ukraine covered by the signal of that or other TV company in 
percentage, and also ``an average amount of the audience''. The names 
of the holders, investors and chiefs, upon the plan of the leaflet's 
authors, should obviously speak for themselves: B. Berezovsky (Russia), 
B. Berstein (Switzerland), V. Rabinovich (Israel), R. Lauder (USA), G. 
Luchansky (Russia), A. Rodniansky, M. Fridman (Russia), V. Gussinsky 
(Russia), S.Lissovsky (Russia), A. Fuksman (Germany), etc. (Vechirnij 
Kyiv, #226 (16403), 20.10.99, p. 4, The Information Web).
    ``In whose hands is our television?'', the author of an article in 
the same newspaper asks a question, and further maintains that ``each 
at least somewhat conscious Ukrainian--not at all an anti-Semite!--
These questions stupidly irked as nails in a skull''. (Vechirnij Kyiv, 
16.01.1999, p. 6, Mykola Tsyvirko ``Have an Honor of Being not 
Invited'').
    Similarly to ``VK'' ``Za Vilnu Ukrayinu'' charges the mass media 
and some TV channels in particular, that campaigned in favor of G. 
Surkis during the mayor election campaign: Since the Goebbels times the 
world has never heard such a twaddle. . . The Yids have carried out a 
mass attack on ``the Ukrainian'' a television . . . . (``Za Vilnu 
Ukrayinu'', #47 (1521), 4.06.99, p.1, B.G., ``Leonid Kravchuk is Dead 
Politically . . .'').
    The allegations the mass media being seized ``by the 
representatives of the ethnic minority'' we find even in the letters to 
President L. Kuchma: ``The gateways of the lie streams and 
misinformation have been opened, and the Ukrainian people shuddered of 
the unprecedented scoffing, for mockery and impudence of militant 
representatives of the national minority and waits your resolute 
censure and effective orders!'' (Vechirnij Kyiv, #180 (16358), 
18.08.99, p. 4, Mykola Tsipirko, They Destroy Spiritual Values).
    2. The next regarding the frequency of its use goes the myth on the 
guilt of the Jews as far as the Ukrainian people are concerned. The 
interpretations of this myth encompass all tragic events of the 
history--from the oppression of the Ukrainians by the Poles and Russian 
autocracy through to the Chernobyl catastrophe that included both 
social and economic problems.
    Here below we illustrate how the children's newspaper ``Zhuravlyk'' 
narrates to its readers the history of mutual relations of the 
Ukrainian and Jewish peoples. The Poles handed over Ukraine ``to the 
Jews to let, which mastered both life and death of the Ukrainians. 
Jewish colonizers traded serfs, the Ukrainian peasants, collected money 
for baby's christening and burial ceremonies, deliberately made people 
drink in the pubs, making them ruined as the Poles gave ``to the sons 
of Israel'' the monopoly of vodka production''.
    In addition the author asserts, that the bloody reproof of the Jews 
in the times of Khmelnitsky ``is exaggerated more than 10 times''. That 
``the sons of Israel'' shot back the Ukrainian authorities who 
struggled with the Bolsheviks in 1918/20''.
    ``It is enough to list the organizers of the largest crime in the 
history of mankind--the famine of 1933 in order to understand, who 
killed during one peace year (!) by a terrible famine from 10 up to 12 
millions Ukrainians . . . But we heard day and night and we hear it now 
about ``the holocaust'', in which even according to the Jewish on data 
(which are some times exaggerated) during 6 years of war twice less 
Jews perished''. (Zhuravlyk, #9 (17), September, 1999, p. 2, Hvedot 
Slobodianjuk, ``Ukrainian Viewpoint. Up to Seven Yids for each 
Layman'').
    ``October revolution and the civil war in Russia were led by two 
million eight hundred thousand-wise Yids; out of maximum 556 states 
party posts in ``the SSSR ``450 were occupied by the Yids who headed 
Yido-moskalska communist empire, which was a bloodsucker of Ukraine''. 
(``Neskorena Natsija'', #13-14 (153-154), September 1999, p. 5, Pavlo 
Holovchenko, ``The Intent and the Objectives of President Kuchma's 
Activity'').
    P. Chemerys, known by his anti-Semitic publications demands to 
organize an international forum of justice for the Ukrainian people's 
genocide ``initiators'': ``A Yid submerged into the Ukrainian 
environment is subjected to the pushing out force which equal millions 
of Ukrainians tormented by Jewish Zionists, just for their global 
Jewry, global Zionist capital (as the sponsor and organizer of the 
genocide!), they have to be put before the Nurenberg-2 International 
tribunal''. (``Za Vil'nu Ukrayinu'', 27.03.99, #37 (1511), Pavlo 
Chemerys, ``The Law of Archimedes. Ukrainian Social and Political 
Interpretation).
    Something of the kind is also offered by the newspaper Za Vil'nu 
Ukrayinu in the epilogue to the chapters of the anti-Semitic book by M. 
Shestopal ``Jews in Ukraine'' published in the newspaper: ``Because 
Ukraine and Ukrainians suffered from the international Yids more than 
all other nations of the world (especially in 20th century), it is 
necessary to investigate carefully this ``phenomenon'' and to specify 
more adequate attitude to it''. (``Za Vil'nu Ukrayinu'', #49 (1523), 
18.06.99, p. 4, Matvij Shestopal, ``Jews in Ukraine'').
    3. Charging Jewish businessmen in stealing from Ukraine, in 
exporting its riches to Israel and the USA.
    The nominee in presidential elections, the mayor of Cherkassy V. 
Olijnyk in his public statements (a TV program ``Epitsentr'') declared: 
``If we elect Kuchma, there will be not Ukraine, but a Surkis-stan, 
because thereupon it will be possible to purchase and sell everything, 
even the entire Ukraine''. Later he once again publicly has returned to 
this theme: ``The latest events in Ukraine once again have confirmed: 
we do not have power, more correct they are not Ukrainians but those 
people who are there just temporary, who have two passports, double 
morals. They will rob Ukraine and disappear''.
    ``Probably, the availability of the Jews, experts of economy and 
business, in the Ukrainian power structures and the environment of the 
President, as I believe, could be only for the benefit of Ukraine. 
However, in the overwhelming majority, the environment of the President 
consists of the people, whose interests ground on the bases of 
Chassidism (Kushnarev, Rabinovich, Volkov, and the others), and even 
more, on the basis of self-enrichment at any cost which directly 
contradicts to human ideas of harmony and equality . . . That is, the 
people far from any humane ideas and whose purpose the entire 
misappropriation of Ukraine (for the last years only several dozens 
people transferred from Ukraine more than 20 billions of doilars, but 
only Lazarenko, a sole Ukrainian by his ethnic origin is accused, who 
has managed to be escape from a certain status fitting the Ukrainians, 
that is the status ``of a pocket thief, they occupy the top 
governmental positions in Ukraine''). (``Za Vil'nu Ukrayinu'', #72-73 
(1546-1547), 10.09.99, pp. 8-9, Iryna Kalynets, Mezha).
    ``. . . The re-election of L. Kuchma for the second term threatens 
``with the continuation of economic and financial colonization of 
Ukraine, both on the part of the USA and Israel, as well as on the part 
of Russia''. (Vechirnij Kyiv, #107 (16284), 19.05.99, G. Musienko, ``A 
Model of the President is Available So Far, but It Lacks the Ukrainian 
Movement'').
    Already cited P.Chemerys writes: ``Nobody ploughs, digs, or sows, 
but grows rich. Moreover at the expense of you and me. According to the 
evaluations (very modest) of the experts, only this century Yids have 
plundered hundreds billions of dollars belonging to Ukraine''. (``Za 
Vil'nu Ukrayinu'', 27.03.99, #37 (1511), Pavlo Chemerys, ``The Law of 
Archimedes. ``The Law of Archimedes. Ukrainian Social and Political 
Interpretation).
    In a number of the anonymous leaflets and newspapers anti-Semitic 
motives are heard openly and clearly. There is an image of a Jew, a 
criminal oligarch, to whom because his origin the interests of Ukraine 
and its citizens are alien. ``The Gangster power has became absolutely 
impudent--is written in one of them. It is already not sufficient for 
them to occupy multiple positions in the Presidential Administration 
and manipulate Kuchma the way they wish. It is already not sufficient 
for them that they get to the parliament being citizens of other 
countries, use deputy immunity. They already privatized all Ukrainian 
enterprises, have misappropriated them and expelled all of us on 
streets. Now all these surkises, volkovs, rabinovichs and lazarenkos 
want to misappropriate our principal city''.
    The articles of the head of the regional Jewish religious community 
of Kharkov Eduard Khodos occupy a particular position among the pre-
election anti-Semitic publications. They are reprinted with much 
pleasure by all newspapers concentrated on anti-Semitism. ``Facts'' and 
``speculations'' lay also in the basis of a series of other anti-
Semitic publications as authentic evidences as a Jew wrote them.
    A pre-election article by E. Khodos ``Leonid Kuchma--the President 
of All the Jews, or Why I Vote for Another Person'' is, for example, 
consecrated on the exposure of true objectives and problems of the 
Jewish organizations in Ukraine. ``The split'' of the All-Ukrainian 
Jewish Congress (AUJC) was caused, according to E. Khodos by the 
necessity to re-group the forces ``at the Jewish top of Ukraine'' 
before Presidential elections with the intent to mobilize all resources 
pass the entire command on Kuchma's hands. E. Khodos characterizes the 
AUJC as ``a monolithic organization created in 1997 under foreign 
Jewish nazi sect Chabad''. In the conclusion E. Khodos writes: ``Being 
actually supported by the Jewish oligarchs, defending (consciously or 
unconsciously) only their interests, working for the benefit of the 
Jews of Israel and America, Leonid Kuchma has the right to be elected 
the PRESIDENT OF ALL JEWS''.
    V. Sukovenko, one of the most active propagandists of anti-
Semitism, uses ``The exposures'' by E. Khodos. He writes: ``Chabad, as 
Khodos explains, is a Jewish nazi sect of the Chassids, built on the 
clan principle, which originated in Lyubavichi which is on the border 
of Ukraine, Russia and Belarus with the purpose to oppose. Khmelnitsky. 
So, that nazi sect was born from the anti-Ukrainian insides''. 
(``Neskorena Natsija'', #13-14 (153-154), September 1999, pp. 2-3, 
Viktor Sukovenko, ``Leonid Kuchma: Is He Really Our Choice, Or Tell Us 
Who Are Your Friends And I Shall Tell You What You Are'').
    The chairman of the Ukrainian Conservative Republican party and 
until recently the deputy of the Verkhovna Rada (Parliament of Ukraine) 
Stepan Khmara expresses his togetherness with E. Khodos. He is well 
known by his pogrom-kind articles and statements. Stepan Khmara 
considers that E. Khodos ``is a real patriot of Ukraine. Because, as 
anybody else Khodos resolutely holds up to shame the Jews, the 
oligarchs who became fantastically rich at the expense of embezzlement 
of enormous riches of Ukraine, of its people by swindle and criminal 
businesses (. . .) Rabinovichs, berezovskys, surkises, dvorkises, 
pinchuks, volkovs, etc. try at any rate L. Kuchma be re-elected and for 
a long time, and may happen, for ever, to be established at power in 
Ukraine, while the people Ukrainian will be transformed into an eternal 
slave deprived of right''. (Sil's'ki Visti, #130 (16887), 29.10.99, p. 
2, Stepan Khmara, ``A Word about Eduard Khodos'').
    ``. . . In the overwhelming majority, the environment of the 
President consists of the people, whose interests ground on the bases 
of Chassidism (Kushnarev, Rabinovich, Volkov, and the others), and even 
more, on the basis of self-enrichment at any cost which directly 
contradicts to human ideas of harmony and equality. This fact is 
mentioned by the leader of the Jewish Religious Community of Kharkov E. 
Khodos in his writing ``Who Killed Father Men' ? '' That is, the people 
far from any humane ideas and whose purpose the entire misappropriation 
of Ukraine (for the last years only several dozens people transferred 
from Ukraine more than 20 billions of dollars, but only Lazarenko, a 
sole Ukrainian by his ethnic origin is accused, who has managed to be 
escape from a certain status fitting the Ukrainians, that is the status 
``of a pocket thief '', they occupy the top governmental positions in 
Ukraine''). (``Za Vil'nu Ukrayinu'', #72-73 (1546-1547), 10.09.99, pp. 
8-9, Iryna Kalynets, Mezha).
    Deputy E. Smirnov consecrate in his speech in the Verkhovna Rada in 
the same issue.
    ``During the last convene several times I came up in this hall with 
the information concerning the deputy inquiries regarding the activity 
of the Uman Chassids. Useless to mention how many times and in those my 
reports on the deputy inquiries I addressed the President, the 
Premiere, The Public Attorney's Office, the chief of the Security 
Service of Ukraine (SBU) with questions, on what basis and terms the 
Chassids were allocated a lot for the construction of the largest in 
the world synagogue for 10 thousand seats in the town of Uman'. Who 
works on this construction? Is the legislation of Ukraine infringed in 
this case? Is it true that Uman' has become a branch of the Massado-
Chassidic intelligence centers? I have got no answer so far. Moreover, 
here is a photo of Rosh-ha-Shana celebration in Uman in September 1998. 
The members of some illegal paramilitary troops probably guard the 
Chassids, while the authority neglects this fact. While acknowledging 
that such operations, if they take place, really endanger the national 
security of Ukraine, even its statehood, I appeal for issuing the 
appropriate order to the Committee of the National Security and Defense 
to investigate this issue''.
    Without doubt such statements justify and inspire the activity of 
the extremist organizations. Thus the Ukrainian National Assembly-
Ukrainian National Self-defense (UNA-UNSO) attempted to intrude with 
the celebrations of Rosh-ha-Shana by the Chassids in Uman' to support 
the Dontsov Foundation, Yu. Lipa Ukrainian Black Sea Institute and Uman 
Chapter of RUKH. They have undertaken an attempt to conduct in the Town 
of Uman' a scientific and theoretical conference Koliyivshchina as a 
National Liberation Rebellion of 1786 and a series of actions, in 
particular sanctification of a site allocated for the monument to Honta 
and Zalizniak, while a group of participants of the conference 
September 11, 1999 rallied to the places connected with this event. And 
they organized the action not on the day when Uman' was liberated, but 
exactly September 11, the very day the Chassids celebrated Rosh-ha-
Shana. (It is a historical fact that exactly in 1768 they have arranged 
a terrible bloodshed in Uman' led by the Gaidamaks Honta and Zalizniak 
as a result of which thousands of Jews perished.
    The authorities took tight security measures on preventing the 
action. The militia (police) squads in Uman' surrounded the car in 
which there were UNA-UNSO's members and more than 100 members of the 
organization were detained.
    Nevertheless after a month the conference was held and UNA-UNSO's 
leader writes about it in Vechirnyi Kyiv: ``The events of September 11, 
when hundreds UNA-UNSO's affiliated members were arrested who went to 
Uman', and the conference of October 9, are undoubtedly the important 
events not only for Uman', but also for the entire Ukraine: for the 
first time it was proved to the whole world about the inadmissibility 
of that humiliation of Ukrainian nation's dignity and honor, about the 
inadmissibility of the creation in Ukraine of the ex-territorial zones, 
where the rights of the Ukrainians could be restricted due to the 
activity of some foreign people, hostile to the Ukrainian State 
belonging to the right-wing radical antisocial sects''. (Vechirnij 
Kyiv, #228-229 (16405-16406), 22.10.99, p. 7, Anatolyi Lupynis, 
``Commemorating the Heroes of Koliyivshchina Being Delayed One 
Month'').
    A great number of anti-Semitic publications is consecrated on the 
proceedings under the mutual claims of a group of authors of the book 
``Anti-Semitism against Ukraine'' to the newspaper Vechirnij Kyiv and, 
correspondingly of Vechirnij Kyiv paper to the authors of the book. 
Vechirnij Kyiv pays a special attention to the covering of this 
process. They publish articles covering the advocacy of the stand of 
the newspaper, in a specially allocated columns the readers support VK. 
The newspaper tends to organize a discussion regarding anti-Semitism, 
as extensive as possible forcing a hysteria in regard to ``numerous 
NON-UKRAINIAN mass media, both in Ukraine and abroad'', who ``started 
immediately to treat with pleasure this case''. The publication asserts 
that in this case it ``is not simply an ordinary allegation of the 
newspaper (that now are hundred in courts); it is possible to speak 
about an attempt of ``a STERILIZATIONS'' of the public opinion with the 
purpose repudiate most righteous Ukrainians as to their national self-
consciousness, self-identification. And the first step to this is to 
force us to being mute and blink in response to different dirty 
allegations such as anti-Semitism'' (which is logically directed 
against Ukraine and everything Ukrainian)''. (Vechirnij Kyiv, #228-236 
(16413), 30.10.99, p. 6, ``When Information provided by Squealers Do 
not Work, the Latter Look for Other Ways . . .'').
    VK's editor-in-chief as if it were readers' request tells about the 
legal process and shares views in regard to the problem of anti-
Semitism in Ukraine. ``Our readers concerned with the numerous claims 
to VK consider them if not coordinated, then as being encouraged by 
certain groups'',--he informs and writes in addition: ``This issue was 
considered as forbidden in times of the totalitarian regime now, in 
free Ukraine, attracts a rather obvious attention of the public. But 
someone would like it further to be pushed in the underground and was 
not admitted for an open discussion (. . .). But unfortunately Jewish 
anti-Ukrainians consider any attempt to go deep into really complex 
Ukrainian-Jewish relations as anti-Semitism, and most belligerent of 
them charge the Ukrainians with the genetic anti-Semitism (. . .). 
Unfortunately, the aggressive activity of the Jews anti-Ukrainian 
minded induces somber thoughts. These are they who destabilize the 
internal situation in the country, compel international hatred, charge 
with anti-Semitism everyone who dared to criticize a concrete Jew (they 
criticize a Ukrainian, a Russian, or an Armenian as much as they want) 
for concrete step, or are of a different opinion with their stuff. In 
this situation even the most ardent supporter of the Jewry on seeing 
such paranoiac anti-Ukrainism necessarily will become an anti-Semite in 
that sense, as Jewish chauvinists understand anti-Semitism''. 
(Vechirnij Kyiv, #204 (16381), 22.09.99, pp. 1-2, Vitaly Karpenko 
``Inti-Ukrainism of Jews is Against the Jews'').
    A selection of the materials is published, the latter being titled 
``The Impudent Challenge to the Ukrainian Society'', the editorial 
comment to which convinces the readers that the opponents of VK carry 
out an order of certain forces, having far-reaching plans. The book, as 
the editorial board of the newspaper asserts ``has been started'' 
obviously as a trial stone, as a preventive substantiation of the 
future actions of total reprimand of any national self-consciousness' 
manifestations of the Ukrainians''. Today a civil action of proceeding 
by all means they try to expand to the frameworks of a political 
process referring to the ill-fated ``Demyanjuk's case''. Actually it is 
an impudent challenge to the Ukrainians, the entire Nation which they 
would like to disable as far as moral principles, law, and information 
are concerned''. (Vechirnij Kyiv, #264 (16441), 4.12.99, p. 4, ``The 
Impudent Challenge to the Ukrainian Society'').
    Other newspapers did not stay away of this process. B. Vovk, the 
editor-in-chief of Za Vil'nu Ukrayinu writes: ``The conclusion is as 
follows: the concept ``of the human rights'' in Ukraine should be given 
in such an edition: ``the human rights of the Yids'' in Ukraine. In any 
case Naiman not only has more rights in Ukraine, than Vovk in Israel, 
but also he has them more, than Vovk in Ukraine. And it is a pity. 
Bogdan Khmelnitsky (if lived in our epoch) would immediately corrected 
this situation. Are not we the Cossacks so far?'' (``Za Vil'nu 
Ukrayinu'', #50-51 (1524-1525), 25.06.99, p.1, B.G., Are not we the 
Cossacks so far?).
    Accidentally, according to B. Vovk's information from one of his 
previous articles ``the District Public Attorney has refused the 
claimants to suit a file against the publishers of the newspaper Za 
Vil'nu Ukrayinu, the latter being accused as inciting anti-Semitism''. 
(``Za Vil'nu Ukrayinu'', 6-7.01.99, M.P. ``The Public Attorney Bogdan 
Ferenz Does not See any Crime as far as ZVU's publications are 
concerned, We Also, Brothers Yids! . . .'').
    The European Commission's Report Combating Racism and Intolerance 
in Ukraine contains the following statement: ``The ultra-nationalist 
press frequently publishes anti-Jewish and anti-Russian diatribes and 
the authorities often fail to prosecute those responsible.''
    In appendix to the report of the European Commission Combating 
Racism and Intolerance there is an explanatory note of the agencies of 
the Ukrainian authority. And there is any word about anti-Semitism. A. 
Martsynovsky, the authors of the parliamentary newspaper Holos 
Ukrayiny, making comments this message, considers: ``Hence, the 
Ukrainian authorities obviously have no idea what does the Ukrainian 
racism and intolerance mean.
    The intolerance to anti-Semitism in Ukraine still has not become a 
norm of the political life in the society, of its upper echelon. There 
were not many articles and statements resisting to the manifestations 
of anti-Semitism in 1999 and generally they did not become a 
significant event in the society.

    Senator Smith. Now, Rabbi Singer, last but certainly not 
least.
    We are very delighted you are here, and invite your 
testimony.

  STATEMENT OF RABBI ISRAEL SINGER, SECRETARY GENERAL, WORLD 
                        JEWISH CONGRESS

    Rabbi Singer. Thank you very, very much, Mr. Chairman. I 
was very moved by your words earlier, and I would like to 
associate myself with what Senator Biden said.
    I can only tell you that it is only because of the way you 
sounded and the determination with which you made your remarks 
that I think that we have arrived at this day, today, at these 
hearings, and, I think, the kind of environment that we today 
live in.
    It is a distinct honor to once again appear before the 
Senate and testify before this distinguished committee, and 
particularly before yourself.
    I had an opportunity to convey our deep sense of gratitude 
for the achievements that have been effected since the first 
hearings when we appeared before you, Senator Boxer and the 
Banking Committee when Senator D'Amato was still around. And I 
would like to tell you the fervor which was shown by some of 
your colleagues made all the difference.
    And I would like to tell you that you might recall at those 
initial hearings with Swiss banks, not one survivor had 
received compensation, and not one humanitarian need had yet 
been addressed.
    You saw charts that Stuart Eizenstat presented to you, and 
I take personal opportunity to thank you as the chairman of the 
World Jewish Restitution Organization, and as the chairman of 
the Negotiating Committee of the Conference on Material Claims 
Against Austria. Besides being World Jewish Congress, I have 
other hats.
    And I would like to tell you that none of this would have 
happened--none of it, despite the global economy in which we 
live and despite the interrelationships that we possess, and 
despite all the support that we received--had you not supported 
us. It is a big statement, and I am not a person with a sense 
of modesty that is unnecessary.
    I would like to tell you we would not have, with all of our 
strength and with all of our lobbying efforts, without the U.S. 
Congress and the U.S. Senate having supported us--and the U.S. 
administration because this has been a bi-partisan effort--we 
would have succeeded in none of this.
    And I would like to make a kind of assessment in what we 
have succeeded and where we have not yet succeeded because I 
have come not only to thank you, but also to ask your continued 
support.
    Now the largest Swiss bank settlement is in its final 
stages, and I will tell you that I have learned some things. I 
am not sure that I would like to settle all things for old 
people in a Federal court because it takes a long time to get 
them paid.
    We have all learned lessons, and that is not because the 
judge is not one of the wisest I have seen, but the process is 
a very slow one. And the process of notice is a very, very 
methodical one, and I respect it, as someone who has studied 
the legal system and taught it.
    But I can tell you that I hope and trust that the new 
process which Stuart Eizenstat described that the German 
Foundation is going to be using, will distribute the money more 
quickly, because he told you of that number which we used to 
sensitize him, and he is more sensitive than any man, spending 
more hours than any person. He did not know that we were losing 
1 to 1\1/2\ percent of the survivors a month.
    And that number will escalate according to our actuarial 
tables with every year that passes, so we will have more money 
per head to distribute, but less heads to give it to.
    David, your story, unfortunately, is not the only one. Your 
father, my father come from the same place as Senator Boxer's, 
and we would have all ended up the same way.
    I do not want at this time to allow the Austrians--and I 
interject immediately with that, because they have a government 
which we do not like to get away with not being obligated to 
pay what they owe--even if people choose not to negotiate with 
that government for political reasons.
    Bad governments do not exculpate countries who have not 
taken the responsibility to do what they need to do. To the 
contrary, Stuart said that he thinks it might actually 
encourage them to do more. They need to do more, much more.
    There are 45,000 businesses that have never been 
restituted. He passed over it. There were 70,000 apartments 
that the 210,000 people like David Harris's, and your parents, 
and mine lived in with all their contents and furniture. They 
have never been restituted. They have never made an effort to 
deal with these questions.
    And now that they feel that they are obligated to begin to 
deal with these questions, they have said that they shall wait 
until after the Knight Commission studies this problem.
    We estimate that at the time the Knight Commission will 
complete studying this problem, of the 21,000 Holocaust 
survivors that are Austrian that are still left of the 210,000 
Jews that lived in 1938, we estimate--and God willing this will 
not happen--only 8,000 will be alive to receive whatever bounty 
the Austrian Government might choose to place at their 
disposal. It will be far too little, and far too late.
    And I believe that we should not congratulate them by just 
ignoring them. We must find ways other than legitimizing them 
to make them pay proper recompense.
    With regard to other aspects of the restitution program, I 
find it frightening talking about Austria, but this is not 
limited to Joerg Haider in Austria. In fact, even in Swiss 
elections, for example, the electorate gave the largest share 
of the vote to a right-wing People's Party, which is led by 
millionaire financier Christoph Blocher.
    You may remember Blocher for having suggested that, for 
asking to have recompense--something which we study in legal 
systems all day long with regard to relations between 
businesses and people and believe is the only way that business 
should be conducted in Western systems, and that is the way 
millionaires actually collect the money, which gives them the 
opportunity to be rich--he called us blackmailers for asking 
for our money back.
    I find it very, very important to mention this here, and 
when you call on him, or he calls on you, to remind him that 
this is not the way we do business in this country. That is not 
the way we become millionaires in this country. And that is not 
the way we respect persons who wield so much power and 
influence.
    Yet the stark reality is that Blocher and other right-wing 
politicians advocating extremist agendas have made substantial 
inroads in Belgium, even in France, and Denmark, and certainly 
in some of the former Communist bloc countries.
    But that has been discussed, and I do not need to deal with 
it, but it does affect the question of restitution in some 
areas because we actually feel uncomfortable at times because 
people tell us, ``Do not press your case. It may increase the 
strength of the right.''
    In fact, we held back for 1 year in negotiating with the 
Austrians because we were actually advised by our own 
Government that we could encourage and advance the election of 
Mr. Haider. We lost over 15 percent of our survivors, and who 
will never be recompensed for their personal pain, for their 
property, and we still got Haider, in spite of our silence. 
Sometimes you get two firsts.
    And I would like to sensitize ourselves that bending over 
backwards may not be the most effective method in treating 
persons who are the kind of persons we do not sensitively 
suffer in our own country.
    And maybe we should use the methods I was taught in 
Brooklyn, and that is to tell people what they are and call 
them what they need to be called in order to be able to expose 
them.
    And that goes for the same kind of experience we had 
yesterday when we met with the Black Jewish Caucus on the Hill, 
and discussing racism in America, or when we discussed this 
kind of behavior in Europe.
    There is much to be done in Austria, and much to be done in 
other countries, and I do not believe we should do it by 
pussyfooting.
    Frankly, Austria claims, of course, that it solved its 
problem and made financial redress. It did so in a very, very 
modest manner, and agreed to do more in adding certain aspects 
to its settlement with us and apology for its actions during 
the Holocaust period. I hope they do. We have an appeal 
pending, and will appeal throughout the court system if they do 
not do what they said they will.
    The situation is only exacerbated by the continuing flood 
of documents which we find that we had in our own archives, and 
held them bottled up for years. And I read the State 
Department's clarification of my statement with regard to the 
declassification of a document that showed that the heirless 
assets held by Nazi authorities in Austria exceeded $10 billion 
in today's value.
    Yes, it was not released through a court declassification 
procedure. It was just declassified and released last year. 
Since 1953, it was kept sealed. You wonder why they did not 
pay.
    In Germany, with all the difficulties in our negotiations, 
we have seen an honorable expression of moral restitution. I 
was present in a private meeting with President Rau when he 
made a statement which truly, truly places moral restitution in 
the kind of frame of reference which might indeed be the kind 
of denouncification procedure that Austria might include for 
its own peoples: It is not just what you give back; it is how 
you give it back.
    And indeed, President Rau established a principle which 
should be a continued powerful reaffirmation wherever 
restitution takes place, because it protects against anti-
Semitism, and it allows people to get back what they own--what 
they deserve.
    I here, would like to thank again the efforts of Secretary 
Eagleburger and the insurance policies which are in some parts 
of Europe, ``the poor man's bank accounts.''
    And I would like to correct my testimony, my written 
testimony, by welcoming what we have already begun to hear 
today and which I would like to flush out, and that is the 
participation of Dutch insurers into the International 
Commission.
    I had come here to aggressively, in my usual fashion, beat 
up on Dutch insurers and their CEO's sitting in this room, Dr. 
Fisher. Until late last night, we had serious negotiations.
    And I thank you, Senators, for having helped me, not change 
their approach because they have told us that they use the same 
standards that we use here in ICHEIC, but because they have 
globalized their approach and have accepted the standards 
internationally that everyone else accepts.
    It is not enough to do the right thing yourself. It is 
important to do it under the standards that everyone else does 
it, so everyone sees the way you do it.
    And you encourage others to do the right thing by doing 
this, Dr. Fisher.
    The Austrians have still not come in, despite the fact that 
they have announced that they are going to come in. And I think 
that you have led the way. And I hope, indeed, that your 
colleagues will follow your good example that you are 
suggesting to them to sign the MOU.
    And we will, indeed, take those important American 
companies which are your sister companies like Aegon, 
TransAmerica, and ING and welcome them into the family of 
internationally accepted insurance companies who have decided 
to deal with this period in a public way, make no mistake about 
it.
    Senators, we thank you, for everyone's participation.
    Mr. Chairman, allow me to conclude with a specific 
proposal, and I do not want to go over all the specifics I have 
in my notes. I suggest that this committee considers issuing a 
continuing progress report, maybe at a 6-month interval, 
because we have difficulties; we have outstanding issues with 
lots of countries, and those issues sometimes come to pass as 
we are negotiating with them.
    This is not, I repeat, about money. It is about standards.
    And with this, I close: If you would watch, we would 
succeed. And if you will report and call on us to report, we 
will have no difficulties.
    I would like to tell you that the Nazi War Criminal Records 
Interagency Working Group found its possibilities to tell the 
truth about American documents that were bottled up only 
because Senators like yourself allow them to do this research.
    And I appeal to you for their funding, even though it is 
not our activity, because their information makes it possible 
for us to do justice. The transparency that you have created, 
the reporting that you allow us to give you, and the support 
that you give us makes all of this possible.
    And I would like to suggest that the 15 million pages of 
documentation that Stuart Eizenstat's reports generate, changed 
history.
    When we had the first negotiations with the Swiss bankers, 
one of the bankers, an important official in the Swiss banking 
establishment, said, ``How in the world could you be asking for 
so much money?'' And we were not, at that point, anywhere near 
the settlement number.
    He said, ``I have seen the pictures of your forebears in 
that very famous book by Roman Vishniak and they all had rags 
tied around their feet because there were no shoes.'' I took 
umbrage at his remarks, and it gave me further encouragement to 
try and describe the truth.
    We were, indeed, a people, not only with valuable art, but 
also with tens of millions of books, some of which have found 
their way here.
    No museum, no cultural institution is above justice. 
Viewing art in public places should not negate the possibility 
of describing how that art got there, anywhere, here or 
elsewhere. And frankly, you have made all that possible.
    You have defined justice and redefined it, and I would like 
to tell you that if we can possibly have an opportunity to 
appear before you time and again, we shall conclude this 
process, and you shall have made it possible.
    I thank you, and I appreciate the opportunity, once again, 
to speak before you.
    Senator Smith. Thank you very much, Rabbi.
    [The prepared statement of Rabbi Singer follows:]

               Prepared Statement of Rabbi Israel Singer

    Mr. Chairman: It is a distinct honor once again to appear before 
the Senate and testify before this distinguished committee. It is also 
an opportunity to convey to you our deep sense of gratitude for the 
achievements that have been effected since the first hearings in the 
Senate and House on this subject some three years ago.
    You might recall at those initial hearings dealing with Swiss 
banks, not one survivor had yet received compensation and no 
humanitarian needs had yet been addressed. Mr. Chairman, I can report 
to you today that nearly one quarter million Holocaust survivors have 
received funds in the aftermath of those Hearings; survivors in need 
from Argentina to Zimbabwe, from Oregon to Delaware. It is a lasting 
tribute to the moral commitment of American legislators.
    The larger Swiss bank settlement is in the final stages of 
completion before the federal court in Brooklyn and the distribution of 
the $1.25 billion fund is on track for later this year
    But as we have repeatedly said, the importance of financial 
restitution must not overshadow the priority of moral restitution--the 
honest confrontation and accounting of the past. In the case of 
Switzerland the dramatic revelations on Swiss refugee policy as 
enunciated by the Bergier Commission is the explicit expression of the 
obligation to seek historical truth.
    Indeed the current world outrage directed at Austria because of Mr. 
Haider is, in our view, largely attributable to the moral tone that 
American officials have striven so successfully to inject into the 
discourse of world affairs and expectations of international conduct. I 
doubt very much if the Haider phenomenon would have elicited such 
universal condemnation just a few short years ago; that is, before the 
United States Senate and so many others came to bear on world 
consciousness.
    What I find frightening--and what I think will trouble you, too--is 
that the growing political power of extremists like Joerg Haider is not 
limited to Austria.
    In fact, in Swiss elections, for example, the electorate gave the 
largest share of the vote to the right-wing People's Party, which is 
lead by millionaire financier Christoph Blocher.
    You may remember Blocher for accusing the World Jewish Congress of 
``blackmail'' in our negotiations with Swiss banks on behalf of 
Holocaust survivors, It's an outrage such a man could wield so much 
power and influence.
    Yet, the stark reality is that Blocher and other right-wing 
politicians advocating extremist agendas have made substantial inroads 
in Belgium, Denmark, France and the Eastern states of the former 
communist bloc.
    There is much yet to be done in Austria insofar as Holocaust-era 
assets are concerned. The recent settlement with Bank Austria was 
limited to that institution, and did not encompass the larger remaining 
claims against the Austrian government and Austrian industry. That 
settlement, however, demonstrated once more our insistence that the 
moral component must be addressed. Bank Austria not only made financial 
redress but also issued a statement of apology and responsibility for 
its actions during the Holocaust period. We recently released a 1953 
State Department study showing that the value of Jewish heirless assets 
seized by the Nazi authorities in Austria exceeds $10 billion in 
today's value.
    In Germany, with all the difficulties in negotiations, we have seen 
an honorable expression of moral restitution. From the president of 
Germany, words of apology and the desire for forgiveness were expressed 
coincident with the creation of the 10 billion Deutsche mark 
foundation. Although, there are still difficult weeks of negotiation to 
finalize the terms of the foundation--and we should be wary that we 
have yet to succeed--the words of the German president must be 
understood as a powerful reaffirmation that this is a process whose 
centerpiece is not money but rather historical justice.
    Insurance policies have been called the ``poor man's Swiss bank 
account.'' Let me express our unqualified support for the International 
Commission on Holocaust-Era Insurance Claims chaired by Secretary 
Eagleburger and the onerous responsibilities they have assumed. With 
all the difficulties--and there continues to be great difficulties--we 
wish to commend those insurance companies that are members of the 
Commission and are seeking to work things through.
    Conversely, those insurance companies and particularly the Dutch 
insurers who have refused to join are displaying rank insensitivity to 
the memory of those who were victimized. When we say Dutch insurers it 
touches us also here in the United States as, for instance, the case of 
Aegon which owns the Transamerica insurance company. Globalization of 
industry has given Dutch insurers a wonderful market here in the United 
States. But in refusing to join the International Commission, they have 
not adopted global standards of behavior.
    We appeal to our public officials to send a message to a company 
like Aegon. We should make it clear that their continued expansion into 
the United States market is an affront while they refuse to deal 
honestly with the responsibilities arising from the Holocaust era.
    Make no mistake about it. The record of Holland during the 
Holocaust is sharply at odds with the popular conception. Holland had 
the worst record in Western Europe during the Holocaust--some 80% of 
its Jewish population was murdered. They were handed over by Dutch 
police. The Dutch were not the Danish.
    The perception of Holland has been colored by the tragic Anne Frank 
story. But Anne Frank who was betrayed and died in a Nazi concentration 
camp had her furniture in the hidden annex removed by a Dutch moving 
company. So the failure of Aegon and the Dutch insurance companies is 
clearly bound up in the unwillingness to face the past--a failure of 
moral restitution.
    Mr. Chairman, allow me to conclude with a specific proposal. May I 
suggest that this committee consider issuing continuing progress 
reports say at six month intervals--so that the public at large remains 
informed and that the institutions involved know that they are still 
held accountable. This we believe would not only produce practical 
results but can serve as a lasting legacy of this committee's work.
    Mr. Chairman, again let me express my thanks to you and the 
committee and with your permission I wish to be able to call on you in 
the future to help shape a world in which decency and fairness prevail.

    Senator Smith. I--on a personal note, I thank you for your 
acknowledgment of the Dutch companies that have made progress 
with you, and for their willingness to work with you. I think 
that should be part of the record, and we are grateful to them.
    [The following statement of the Association of Dutch 
Insurers was submitted for the record:]

    The Association of Insurers of The Netherlands would like to 
express its appreciation to the Chairman for the opportunity to express 
its views on the critical issue of restitution for victims of the 
Holocaust and is pleased to submit the following statement for the 
record.
  Prepared Statement of the Association of Insurers of The Netherlands
    We strongly feel that the fundamental issue is whether life 
insurance claims of the heirs of Holocaust victims have been properly 
identified and paid, or accounted for.
                                history
    During World War II, the Dutch government in exile founded the 
Council for Redress, which started its work after Liberation Day (May 
5, 1945). That is the reason why Dutch Holocaust beneficiaries received 
redress immediately after World War II from Dutch insurance companies. 
Claims were paid at face value. By the mid-1950's, only 2 percent of 
the value of the 22,368 policies of Dutch Jews that were confiscated 
during the War, remained unclaimed. The surrender value of these 
unclaimed policies was handed over to the state in 1954, so that no 
life insurance companies would be unjustly enriched.
    These findings were later confirmed by the independent Scholten 
Committee, in its report of December 1999. A (translated) copy is 
attached. This committee--which was established by the Dutch government 
to review all efforts of Dutch financial institutions--has 
independently reviewed and verified the entire process of restitution 
by Dutch insurers. The Committee concluded that ``it [i.e., restoration 
of life insurance] took place systematically.''
    <bullet> In November 1999, the Dutch Association of Insurers (DAI) 
and the Central Jewish Board in the Netherlands (CJO) established two 
foundations funded by 50 million guilders (approximately $20 million) 
from the DAI: one for facilitating any remaining individual claims 
payments (less than 2 percent), the Sjoa Foundation (20 million 
guilders), and another for providing humanitarian aid to be determined 
by the Jewish community (25 million guilders). Additionally, the DAI is 
helping establish an Internet remembrance memorial ``Monument to the 
Jewish Community'' (5 million guilders).
    <bullet> The DAI and local Jewish groups have conducted--as stated 
above--an intensive archival search for the nearly 2,000 to 2,500 
unclaimed policies that still existed during the fifties. Although 
records are fragmentary and incomplete, they have sought to identify 
the unclaimed policies from the Holocaust era. This search is nearly 
complete and it is expected that between 800 and 1,200 unclaimed 
policies will be identified for all insurers across the entire country.
    <bullet> The DAI has requested an exemption to Dutch privacy laws 
to publish the names of holders of unclaimed policies and to provide 
U.S. regulators the names of these unclaimed policy holders for all 
Dutch insurers, not just those with U.S. subsidiaries. The Commissioner 
on Dutch privacy law wrote a ``letter of comfort'' (translated and 
attached) so all U.S. commissioners can examine this list.
    <bullet> The DAI has cooperated in a claims handling agreement with 
the State of California and has been talking to the State of Washington 
in recognition of the specific Holocaust Claims Reporting requirements 
of these states. DAI is prepared to enter into a similar claims 
handling cooperation with any other state.
    <bullet> In researching and handling Holocaust claims inquiries, 
DAI has applied five principles to help facilitate fact finding and 
claim payment. These same standards will be used by the Holocaust 
Foundation for Individual Insurance Claims--the (Sjoa) Foundation 
established in the Netherlands.

      <bullet> LAll archives of DAI members are open for independent 
research.
      <bullet> LPayments of claims will be made to beneficiaries all 
over the world. DAI and Sjoa Foundation have initiated a worldwide 
outreach program through advertisements and the World Wide Web.
      <bullet> LPayment will not be refused simply because the 
insurance policy has lapsed. DAI members have waved their rights in 
relation to contractual time limitations, until 2010.
      <bullet> LFlexibility will be used regarding claim documentation 
so that a reasonable degree of probability of a ``right'' to payment 
shall be sufficient for it to be honored.
      <bullet> Interest will be paid.

    <bullet> The Dutch Sjoa Foundation has been established to address 
any oversights in the original Dutch plan for full restoration of life 
insurance benefits, including provision for industrial life insurance, 
which features very small face amounts with minimal cash values and 
which, as a class of insurance, had not been confiscated by the Nazis.
    <bullet> The Dutch Insurance Supervisory Board, supported by the 
Dutch Association of Insurers, has announced it will conduct an 
independent audit of unclaimed policies in the archives of insurers. A 
proposal has been made to the International Commission on Holocaust Era 
Insurance Claims (ICHEIC) seeking input on obtaining an outside third-
party accounting firm audit of existing archives of claims and possible 
claims, designed with the stated needs of both the Supervisory Board 
and the International Commission in mind.
    <bullet> The Dutch Association of Insurers has requested membership 
in the ICHEIC provided there is acknowledgment of the redress completed 
by the Dutch insurers. We believe that having our Association join as a 
member would be the most desirable approach since the Association 
represents the constituency of insurers in the Netherlands, can 
effectively coordinate the entire claims process together with the Sjoa 
Foundation and does not only represent Dutch insurers who are working 
in the U.S., but also the insurers who are not working in the U.S. but 
had a market share before and during WWII.
    <bullet> Membership in ICHEIC will include agreement to a credit to 
DAI against all ``humanitarian'' payments to be assessed to the members 
equal to the payments agreed to be made under the agreement with the 
CJO; and agreement that payments assessed to members of ICHEIC will be 
allocated according to market share in Europe during the Holocaust.

    Senator Smith. Senator Boxer, any closing question or 
comment?
    Senator Boxer. Well, I think--let me just make a couple of 
remarks and thank this panel for their presentation, and to say 
to you, Mr. Chairman, again, my deepest thanks.
    And I really do think if there is anything I take away from 
this, it is a reminder of what I learned when I was in the 
House, which is shining the light of truth on these issues.
    It is absolutely necessary whether it is shining the light 
of truth on these negotiations that are going on and bringing 
them out into the open as Senator D'Amato was very good at 
doing, you were very good at doing, and keeping that pressure 
on because the way I solve problems in my office, and my work--
and I know, Mr. Chairman, I am sure you do the same--you bring 
people to the table. You hear them out. You get the issues out.
    And then you can resolve things, because if you are not 
working from the same set of facts or agreements, nothing will 
get done, and there is always an excuse.
    So that in terms of these negotiations, I think, Mr. 
Chairman, you have a very important role to play. In many ways, 
just hearing the facts come out from all sides, that would be 
very helpful. I would love to work with you on that, as we 
continue this.
    And the other point I want to close on, and I have one 
question, is shining the light on this anti-Semitism. It is 
really painful to do it for everyone because the one thing that 
we all hoped, as was pointed out by Mark, is that we would not 
have to do that in this generation, that that was over. But we 
need to do it, and I myself need to do it better, and need to 
do it more.
    So I would encourage our panel, particularly David and 
Mark, to let us have this information on a regular basis. I 
will go to the floor of the Senate, my colleagues will go to 
the floor of the Senate, and we will call attention to what is 
happening.
    And my question is when I saw this Luzhkov, this thing, I 
really just got sick. If you look at it this--I do not even 
want to repeat the point.
    I guess one thing I was worried about when I was in the 
House in those days is: If you really did shine the light on 
the refusniks and how they were living, would it really hurt or 
help them?
    And I was very, in the beginning, worried about taking 
their cases. Then I learned when I did my first case, that it 
made all the difference in the world. And they would eventually 
let them out, and they would not harm their families because we 
would shine the light of truth on the anti-Semitism, and when 
they know that we are watching--you know that slogan, ``The 
whole world is watching''--they will not dare do certain 
things.
    My question which is to David or Mark, whoever feels more 
comfortable, is: How deep-seated is what is going on in the 
former Soviet Union, vis-a-vis the Jewish population, which 
there is very little left? In other words, my question is: Is 
it--would you define it as ``incidence''? Would you define it 
as something deeper than that?
    And if it is deeper than that, and it is still systemic in 
certain places, should we not have a refugee program like we 
used to have so that people could come here? So I just wonder, 
because I really need to know your feeling on that.
    Mr. Levin. Senator, it is a deep-seated, and long-time 
problem. It is something that existed under Soviet times as 
well as under the Czarist regime. It is something that Jews, 
not just in Russia, but throughout the former Soviet Union, 
confront on a daily basis.
    I do not think that very many people realize that no matter 
what the figure is of the remaining Jewish population in the 
former Soviet Union, it is still the third largest Jewish 
population in the world.
    Senator Boxer. Is that about 1 million?
    Mr. Levin. It depends on your definition. It depends on who 
you speak to. We always like to say between 1 million and 1 
million and a half. The Jews in Moscow, like to say there are 1 
million Jews in Moscow alone, but I am not a demographer.
    It is an issue that many Jews in that part of the world 
confront on a daily basis, and we do need to shine the light, 
and we do need to be supportive. I have never met one leader in 
the Jewish community, let alone a member of the community who 
said, ``Step back. Do not speak out.'' We have to continue to 
do that.
    At the same time, there is something very interesting 
happening in Russia and the other states. Many Jews have 
decided to stay, and the natural question is, why? And it is 
not a simple answer, but for many it is their country. It is 
their homeland, and they believe that they have the obligation, 
or more importantly from their perspective, the right to fight 
against voices of hatred and intolerance.
    And by doing this, it is their hope that they can change 
society, and they can make--again whether it is Russia, or 
Ukraine, or Belarus--a more tolerant place to live, a more 
pluralistic society.
    To sum up, a Jewish leader stood before an audience that I 
was a part of in Atlanta, probably close to 1,000 people and 
that question was asked. And he looked into the audience, and 
he said, ``I am a Russian, and I am a Jew. And it is my 
obligation to stand up and fight for what I believe in.''
    And that is what I think we have to do as Americans, as 
supporters of freedom, to remind the world what our collective 
obligations are, to make it a more open and free place in which 
to live.
    Senator Boxer. And the question on refugee status.
    Mr. Levin. There is a refugee program still in place. Jews 
living in that part of the world who have relatives in this 
country are eligible to come--first degree relatives are 
eligible to come into this country. We do have the State of 
Israel that still takes in 65,000 Jews annually.
    Think about it, 10 years after the gates were first open, 
when hundreds of thousands of Jews left in a very brief period, 
we still see 60,000 to 65,000 Jews from throughout the former 
Soviet Union leaving on an annual basis. It is--I think it is 
our hope----
    Senator Boxer. So you are satisfied with the--that is what 
I want to know.
    Mr. Levin. I think today, options exist for those Jews who 
wish to leave.
    Senator Boxer. OK. But I get your deeper point. We have to 
shine the light on what is happening and try to help make it 
better.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Boxer.
    I do not think I have a question that I would want to ask 
now for fear it would detract from the testimony that each of 
you have given.
    I would say to Rabbi Singer, remember our hearts are open, 
our minds are open, our doors are open, as we count on all of 
you to call on us when we can help.
    The United States has a big military, but more importantly, 
the United States has a moral purpose to it. And we cannot 
realize the value of either if we are quiet. So if you will 
help us be noisy and constructive, we will be so. And Senator 
Boxer and I will hold these hearings as necessary.
    With that, I would ask consent that we leave the record 
open, and if any of our colleagues have any additional 
questions that we would submit to you in writing.
    With that, we are adjourned.
    [Whereupon, at 5:02 p.m., the hearing was adjourned.]


                                <greek-d>

</pre></body></html>
